<html>
<title> - HONORING THE FALLEN: HOW CAN WE BETTER SERVE AMERICA'S VETERANS AND THEIR FAMILIES?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                 HONORING THE FALLEN: HOW CAN WE BETTER

              SERVE AMERICA'S VETERANS AND THEIR FAMILIES?

=======================================================================


                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

                           Serial No. 111-44

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-429                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

       Subcommittee on Disability Assistance and Memorial Affairs

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 24, 2009

                                                                   Page
Honoring the Fallen: How Can We Better Serve America's Veterans 
  and Their Families?............................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    36
Hon. Doug Lamborn, Ranking Republican Member.....................     2
    Prepared statement of Congressman Lamborn....................    37
Hon. Joe Donnelly................................................     4
Hon. Jeff Miller, prepared statement of..........................    37
Hon. Steve Buyer.................................................     4
    Prepared statement of Congressman Buyer......................    38

                               WITNESSES

American Battle Monuments Commission, Hon. Max Cleland, Secretary     6
    Prepared statement of Secretary Cleland......................    41
Arlington National Cemetery, John C. Metzler, Jr., Superintendent     8
    Prepared statement of Mr. Metzler............................    43
U.S. Department of the Interior, Katherine Stevenson, Assistant 
  Director, Business Services, National Park Service.............     9
    Prepared statement of Ms. Stevenson..........................    45
U.S. Department of Veterans Affairs, Steve L. Muro, Acting Under 
  Secretary for Memorial Affairs, National Cemetery 
  Administration.................................................    26
    Prepared statement of Mr. Muro...............................    58

                                 ______

American Federation of Government Employees, AFL-CIO, John 
  Nicolai, Cemetery Representative, Ft. Logan National Cemetery, 
  Denver, CO, and Shop Steward, AFGE Local 2241..................    24
    Prepared statement of Mr. Nicolai............................    56
American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director...........................................    20
    Prepared statement of Mr. Kelley.............................    49
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director...........................................    18
    Prepared statement of Mr. Wilson.............................    47
Gold Star Wives of America, Inc., Vivianne Cisneros Wersel, 
  Au.D., Chair, Government Relations Committee...................    21
    Prepared statement of Ms. Wersel.............................    52
National Funeral Directors Association, Lesley Witter, Director 
  of Political Affairs...........................................    23
    Prepared statement of Ms. Witter.............................    53

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to John C. Metzler, Superintendent, Arlington National 
  Cemetery, letter dated October 14, 2009, and Mr. Metzler's 
  responses......................................................    65
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Katherine Stevenson, Assistance Director, Business 
  Services, National Park Service, U.S. Department of the 
  Interior, letter dated October 14, 2009, and response from 
  Christopher P. Salotti, Legislative Counsel, Office of 
  Congressional Affairs, U.S. Department of the Interior, letter 
  dated November 13, 2009........................................    66
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to John L. Wilson, Assistant National Legislative 
  Director, Disabled American Veterans, letter dated October 14, 
  2009, and DAV responses........................................    67
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Raymond Kelley, National Legislative Director, 
  AMVETS, letter dated October 14, 2009, and AMVETS responses....    69
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Vivianne Cisneros Wersel, Chair, Government 
  Relations Committee, Gold Star Wives of America, Inc., letter 
  dated October 14, 2009, and GSW responses......................    70
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Lesley Witter, Director of Political Affairs, 
  National Funeral Directors Association, letter dated October 
  14, 2009, and response letter dated November 13, 2009..........    72
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Marilyn Park, Legislative Representative, American 
  Federation of Government Employees, letter dated October 14, 
  2009, and response from John Nicolai, Ft. Logan National 
  Cemetery on behalf of AFGE.....................................    75
Hon. John J. Hall, Chairman, Subcommittee on Disability 
  Assistance and Memorial Affairs, Committee on Veterans' 
  Affairs, to Steve L. Muro, Deputy Under Secretary for Memorial 
  Affairs, National Cemetery Administration, U.S. Department of 
  Veterans Affairs, letter dated October 14, 2009, and VA 
  responses......................................................    79


                    HONORING THE FALLEN: HOW CAN WE


                  BETTER SERVE AMERICA'S VETERANS AND



                            THEIR FAMILIES?

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 334, Cannon House Office Building, Hon. John Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Halvorson, Donnelly, 
Lamborn, and Miller.
    Also Present: Representative Buyer.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good morning, ladies and gentlemen. The Committee 
on Veterans' Affairs, Disability Assistance and Memorial 
Affairs Subcommittee, hearing on Honoring our Fallen Heroes: 
Are We Meeting the Burial Needs of our Veterans and Their 
Families, will now come to order.
    I ask that you all join me in the Pledge of Allegiance. 
Flags are at both ends of the room.
    [Pledge of Allegiance.]
    Mr. Hall. Thank you and thank you for being here today. 
Thank you to our distinguished witnesses.
    From the Revolutionary War to our current conflicts in Iraq 
and Afghanistan, American servicemembers have given their lives 
for this country.
    In 1862, President Abraham Lincoln created a national 
veterans' cemetery system and dedicated it, ``For the soldiers 
who shall die in the service of the country.'' President 
Lincoln's sentiments and our undying gratitude are as palpable 
today as they were in 1862, evident in our commitment to 
provide benefits to ensure that our veterans are properly 
memorialized.
    Nevertheless, we may be falling short of our intended goals 
on some fronts. Although Congress authorized the U.S. 
Department of Veterans Affairs (VA) to provide veterans the 
option to receive burial and plot allowances and reimbursements 
to certain burial expenses, these benefits were created decades 
ago and have not kept pace with inflation.
    The value of the current $300 burial allowance and $300 
plot allowance for qualifying veterans has diminished as 
funeral and burial costs have increased at a higher rate than 
the average inflation rate.
    I am also concerned about VA's current cemetery policies, 
which seem to leave a large number of veterans unserved by a 
burial option.
    Under the current standard, new national cemeteries are 
established in areas where the unserved population is at least 
170,000 veterans within a 75-mile radius. That means several 
areas with large numbers of veterans, such as where the 
population is more than 110,000, will remain unserved by a VA 
burial option.
    Moreover, VA's current strategic goal of reaching 90 
percent served would require an additional 31 cemeteries beyond 
those already in operation or planned as of 2001.
    However, according to a study conducted by ICF 
International, there are no locations in the U.S. that will 
meet the current criteria for the establishment of a new 
national cemetery until 2015. Even at that time, only one 
community will reach the population threshold of 170,000 
veterans. It is evident that changes to the current 75-mile 
service area standard may be in order.
    All these burial benefits concerns negatively impact the 
survivors left behind. I want to further examine this critical 
aspect of the issues with the VA as well.
    Additionally, the National Shrine mandate holds that, ``All 
national and other veterans' cemeteries under the control of 
the National Cemetery Administration (NCA) shall be considered 
National Shrines.''
    Several factors will impact the NCA's ability to meet and 
maintain the National Shrine mandate, namely the growing number 
of interments, a large change in burial preferences, population 
migration, and an aging infrastructure.
    I believe that VA should conduct a preemptive review of the 
NCA's obstacles in meeting a National Shrine mandate in order 
to try to thwart new issues that may arise and ensure that 
existing ones do not grow in complexity.
    And, lastly, I look forward to hearing from Secretary 
Cleland of the American Battle Monuments Commission (ABMC), 
Superintendent Metzler of Arlington National Cemetery, and the 
rest of our esteemed witnesses.
    I believe that we can bring continuous improvements to our 
system of memorializing our courageous veterans by ensuring 
that their burial benefits and final resting place reflect the 
debt of their service.
    I would like to acknowledge that we have been joined by the 
Ranking Member of the full Veterans' Affairs Committee, 
Congressman Buyer, and ask unanimous consent that he be allowed 
to participate in today's hearing. I yield now to the Ranking 
Member of the Subcommittee, Mr. Lamborn, for his opening 
statement.
    [The prepared statement of Chairman Hall appears on p. 36.]

            OPENING STATEMENT OF HON. DOUG LAMBORN 

    Mr. Lamborn. Well, thank you, Mr. Chairman, for holding 
this hearing on America's national cemeteries.
    I thank our witnesses in advance for their testimony today 
and for their dedication to serving America's veterans and 
their families.
    Properly honoring a deceased veteran is one of our most 
solemn and indeed sacred obligations. These patriots have 
earned honored repose in a National Shrine. They and their 
families are due the tribute and thanks of a grateful Nation.
    As members of the greatest generation pass from our 
presence, we are seeing increased demand on all of our national 
cemeteries. VA estimates that interments in national cemeteries 
will rise from the current level of 2.9 million to 3.4 million 
by 2014.
    Mr. Chairman, it is for that reason that I thank you for 
helping my efforts to pass H.R. 174, which I introduced with my 
good friend, Mr. Salazar, earlier this year. H.R. 174 would 
establish a national cemetery in southern Colorado and greatly 
benefit those veterans and families in this fast-growing area.
    One reason for the continued delay in building the cemetery 
is that the southern Colorado region does not meet VA's 
subjective standards for new construction.
    I believe that there is a better way to determine need than 
drawing circles in a 75-mile radius around a national cemetery 
to determine where the most underserved veterans are.
    There are many other factors that need to be taken into 
account including travel time to and from national cemeteries, 
access to public transportation in the area, and other factors 
that are more realistic than a large circle on a map.
    However, I know that this problem is not just limited to 
southern Colorado and that if we polled other Members, we would 
find these problems and concerns extend to many rural and urban 
regions like Nebraska, New York City, Los Angeles, Buffalo, New 
York, and many other areas that are adversely affected by VA's 
somewhat arbitrary rules.
    Passing H.R. 174 would be an important first step in 
addressing this problem and is identical to H.R. 1660 that 
passed this Committee and the whole House last Congress.
    Mr. Chairman, I thank you for your continued support of 
this bill and I hope that the full Committee will consider it 
soon.
    I want to thank everyone again for being here today and I 
am looking forward to your testimony.
    Mr. Chairman, I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 37.]
    Mr. Hall. Thank you, Mr. Lamborn. I also support Mr. 
Salazar's bill, H.R. 174.
    I would like to remind all of our panelists that your 
complete written statements have been made a part of the 
hearing record, so please limit your remarks so that we may 
have sufficient time for follow-up questions once everyone has 
the opportunity to provide their testimony.
    On our first panel is the Honorable----
    Mr. Lamborn. Mr. Chairman, I wonder if it would be 
possible, with the Chairman's indulgence, to allow the Ranking 
Member to make an opening statement if he has one.
    Mr. Hall. Yes. First I would like to recognize----
    Mr. Donnelly. Mr. Buyer.
    Mr. Hall [continuing]. Okay, with Mr. Donnelly's 
acquiescence Ranking Member of the full Veterans' Affairs 
Committee, Mr. Buyer.
    You are now recognized.
    Mr. Buyer. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear here today, but I will prefer to give a 
statement after all other Members have given theirs, please. 
Thank you.
    Mr. Hall. Thank you, Mr. Buyer.
    Mr. Donnelly.

             OPENING STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Mr. Chairman.
    And, Mr. Cleland, we are honored by your presence here 
today and your service to this country.
    And, to all the people connected with our national 
cemeteries, from the people driving around mowing the lawns 
this morning to the Superintendent of Arlington National 
Cemetery, we are grateful for your devotion and dedication.
    This is a subject of special importance to me. My mom is 
interred at one of our national cemeteries. And it has always 
been treated as sacred ground by everybody who works there, 
everybody connected with it. It is hard to describe the 
reverence that everybody treats our cemeteries with.
    So to all of you for a job well done since they were first 
started, we are in your debt. I look forward to your testimony.
    Again, Mr. Cleland, thank you for all you have done for 
this country, we are in your debt.
    Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Donnelly.
    Mr. Miller.
    Mr. Miller. Mr. Chairman, I have a statement for the 
record.
    Mr. Hall. We will enter it into the record.
    [The prepared statement of Congressman Miller appears on p. 
37.]
    Mr. Hall. Mr. Buyer.

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you very much.
    Max, good to see you. Gosh, when I look back over our years 
together, we have done a lot and we have shared a lot.
    And these issues in particular, gosh, I can reflect upon 
our days when you were on the Senate Armed Services Committee 
and we worked on some personnel issues when we were doing the 
draw-down back in the 1990s.
    And so many of our forces would rely upon those active duty 
to provide honors to our comrades. Then as we began to draw 
down, we learned about catchment areas and that they would not 
go beyond so many miles of a particular fort because they just 
did not have the personnel.
    If you recall back then, we even, at conference, adopted 
the protocols and procedures to do military honors and how we 
would work even more so with the veterans service organizations 
(VSOs) out there in making sure they had what they needed and 
all the way down to how we were going to even create an 
artificial bugler. I mean, that was even a controversy on how 
that was even going to be constructed.
    And all of our earnest and all of our efforts was to make 
sure that we set the course and set the proper tone, I guess, 
that helps define ourselves by that sacrifice.
    So I want to thank you and appreciate working with you over 
the years. And I want to thank you for taking on this new 
position. The American Battle Monuments Commission, you set the 
standards and pace for the world. And I think it helps define 
America as who we are as we cherish our heritage.
    And so you have accepted a role of great responsibility, I 
believe, because you are now the chief steward of so many souls 
and they lie in grace far away from their homeland.
    What is disheartening to me, though, is that we have four 
standards in America. You set the pace. Coming second is 
Arlington National Cemetery. Third are the VA national 
cemeteries. And fourth is the Department of the Interior. We 
should not have four standards.
    I have great pride in what we have been able to do with the 
National Shrine Program with the VA. And we still have not 
completed that.
    But years ago, when I had visited Andersonville with the 
Department of the Interior, I was pretty stunned with what I 
had seen. I did not realize that we were still doing burials, 
that it was an active cemetery run through the Department of 
the Interior. I did not know that, Max. I just did not know.
    And when I looked off in the distance and saw that they 
were preparing for a burial on that day, I then began to look 
around and saw all the markers completely out of line. They 
were stained with time. The wall was in poor condition that was 
around the cemetery. Someone had mowed the leaves. Grass was 
growing all around all the markers. I was stunned with what I 
had seen.
    And the Department of the Interior, I had threatened to 
take jurisdiction of these active cemeteries away from the 
Department of the Interior and pull it into the VA.
    I have good conversations with the present Secretary 
Salazar who has said that he will conduct a review. What I am 
hopeful we can do here is instill a National Shrine Program 
within the Department of the Interior to raise their standards.
    I wish we could all be at your standard, Max, what you 
sought with the American Battle Monuments Commission. We are 
not there yet. But let us raise that standard. Let us raise 
that standard at the Department of the Interior with regard to 
those 14 cemeteries.
    So I want to thank you, Mr. Chairman and the Ranking 
Member, for bringing the light not only to allow Max Cleland 
here to talk about the good things that they do at ABMC and the 
VA, but also a lot of things at the Department of the Interior 
they do well and they have had their limited budgets.
    But let us know what your needs are, and we will work 
together here not only with the Appropriations Committee but 
also with Secretary Salazar to make it right.
    With that, I yield back, and thank you.
    [The prepared statement of Congressman Buyer appears on p. 
38.]
    Mr. Hall. Thank you, Mr. Buyer.
    I would like to remind all panelists that your complete 
written statements have been made part of the hearing record so 
please limit your remarks so that we can have time to follow-up 
with questions with everyone.
    Our first panel includes the Honorable Max Cleland who has 
served this country in many capacities, currently as Secretary 
of the American Battle Monuments Commission.
    Congratulations on your position, sir, but also as Senator 
and a soldier. All Americans, I think, are grateful for your 
service.
    Also, Mr. John C. Metzler, Superintendent of Arlington 
National Cemetery; accompanied by Ms. Lynn Heirakuji. Is that 
how you pronounce your name?
    Ms. Heirakuji. Heirakuji.
    Mr. Hall. Heirakuji. Thank you. Got it right the second 
time, I think. Deputy Assistant Secretary of the Army for 
Personnel Oversight, Department of the Army, U.S. Department of 
Defense (DoD). And Ms. Katherine Stevenson, Assistant Director, 
Business Services of the National Park Service (NPS), U.S. 
Department of the Interior. I forgot to mention, former 
Secretary of the VA for Mr. Cleland, a long and illustrious 
resume.
    We go by the 5-minute rule as closely as we can, and, 
Secretary Cleland, you are now recognized for 5 minutes.

  STATEMENTS OF HON. MAX CLELAND, SECRETARY, AMERICAN BATTLE 
  MONUMENTS COMMISSION; JOHN C. METZLER, JR., SUPERINTENDENT, 
  ARLINGTON NATIONAL CEMETERY; ACCOMPANIED BY LYNN HEIRAKUJI, 
DEPUTY ASSISTANT SECRETARY OF THE ARMY FOR PERSONNEL OVERSIGHT, 
    DEPARTMENT OF THE ARMY, U.S. DEPARTMENT OF DEFENSE; AND 
  KATHERINE STEVENSON, ASSISTANT DIRECTOR, BUSINESS SERVICES, 
     NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR

                 STATEMENT OF HON. MAX CLELAND

    Secretary Cleland. Thank you, Mr. Chairman.
    I will say that the kind words by Mr. Buyer are welcome. I 
can take credit for none of that.
    The American Battle Monuments Commission has been around 
since 1923 when General Pershing led the effort after leading 
the American Expeditionary Forces in World War I. He put it 
together and was its Chairman for many, many years. I am the 
Secretary and I am honored to be part of that.
    The role of the American Battle Monuments Commission is 
really truly incredible. Most Americans never see an American 
cemetery abroad. We invite all of you to come, Members of 
Congress, members of the public. If you cannot come, access us 
on the internet, we are there, abmc.gov.
    Mr. Donnelly, thank you very much for your comments. My 
mother is also interred at a national cemetery because my 
father served at Pearl Harbor after the attack, so we thank you 
for those words.
    Mr. Chairman, I will say that coming to the House is an 
interesting experience because in the Senate, we are not 
limited by the 5-minute rule. However, I will try to control 
myself.
    The first time I came to this hearing room, I was up for 
being head of the VA. I was 34 years of age. That was a time 
when I encountered all the issues that you are dealing with in 
terms of the VA cemetery system.
    Now I am much older, old enough to think that ``Dance With 
Me'' and ``You Are Still The One'' authored by our Chairman are 
oldies, but goodies. So it is an honor to be here.
    We are the overseas guys. If you want to know what the 
American Battle Monuments Commission does, it maintains and 
commemorates Americans who in many ways died in place and are 
buried pretty much where they fell.
    We also administer monuments and memorials. As new 
generations succeed, the World War I and World War II 
generations who are buried in our cemeteries, our main mission 
becomes not only green grass and white headstones, and we do 
that, as Mr. Buyer pointed out, better than anybody in the 
world, but our main mission now is to tell the stories of those 
commemorated at our cemeteries so that succeeding generations 
will understand why there is an ABMC in Manila, in Hawaii; why 
there is an American Battle Monuments Commission Memorial to 
veterans from World War II in the Pacific, in Hawaii, in the 
Panama Canal, in Mexico City, which honor Americans' service 
and sacrifices in the Mexican War, Tunisia, North Africa, and 
throughout western Europe.
    America's military, especially through the 20th century, 
has been all over the world and Americans have lost their lives 
all over the world. We inter those who primarily lost their 
lives in World War I and World War II and the families did not 
want to repatriate their remains to America.
    Beginning at the end of World War II, and with the Korean 
war, technology made it possible for us to fly the remains of 
our troops home. From the Korean war on, through the Vietnam 
War, through Iraq, through Afghanistan, we fly the remains 
home, but in a certain way that makes the loss of that loved 
one and that serviceman or woman even more anonymous.
    So it is appropriate that we gather here today to think 
about how we can better honor the fallen and how we can better 
take care of those who gave, as Lincoln said, the last full 
measure of devotion.
    For those who want to read up on the American Battle 
Monuments Commission, each of you has our annual report and 
citizens can get it from us if they request it. We are glad to 
provide it.
    This is an age-old problem, Mr. Chairman. I have been 
looking at some various quotes that I like very much. One dates 
from about 2,500 years ago when an orator tried to describe his 
feelings about the loss of people from his community and his 
Nation.
    We remember Pericles' funeral oration, which was recorded 
by Thucydides, the historian of the Peloponnesian War: ``For 
heroes have the whole earth for their tomb. And in lands far 
from their own, where the column with its epitaph declares it, 
there is enshrined in every breast a record unwritten with no 
tablet to preserve it, except that of the heart.''
    In so many ways we have the tablets. We have the 
cemeteries. We have the memorials. But we have our heart as 
well. And for those who have lost loved ones, their heart will 
ache until their death. And for the rest of us, too, there is a 
sense in which we all try to make meaning out of suffering. We 
try to make meaning out of war.
    Archibald MacLeish, the great American poet, lost a 
brother, a younger brother in World War I, and he is buried in 
one of our cemeteries at Flanders Field. And MacLeish, in 
trying to deal with that grief, wrote a poem, and his last 
lines of his poem are very meaningful to me. He said about the 
young dead, ``They say, we leave you our deaths: give them 
their meaning.''
    I think that is what we are all about here, Mr. Chairman. 
Thank you very much.
    [The prepared statement of Secretary Cleland appears on p. 
41.]
    Mr. Hall. Thank you, Mr. Secretary.
    The next witness is Mr. Metzler.
    Once again, sir, your statement is entered in the hearing 
record, and you are now recognized for 5 minutes.

                  STATEMENT OF JOHN C. METZLER

    Mr. Metzler. Thank you, Mr. Chairman, Members of the 
Subcommittee. I appreciate the opportunity to testify before 
the Subcommittee today on behalf of the Secretary of the Army 
in support of our Arlington National Cemetery. It is honor for 
me to represent Arlington National Cemetery, our Nation's 
premier military cemetery.
    With me today is Ms. Heirakuji, the Deputy Secretary of the 
Army for Personnel Oversight.
    The management of Arlington National Cemetery presents 
unique challenges among national and military cemeteries. 
Arlington continues to serve as an active burial place for 
today's military men and women and serves a very heavily 
visited National Shrine honoring the past service of men and 
women in our Armed Forces.
    In fiscal year 2008, there were 4,123 interments and 2,781 
inurnments in our columbariums. In the current fiscal year, 
2009, we estimate there will be more than 7,000 funerals 
conducted at Arlington National Cemetery.
    Ten formal requests for exceptions to the interment policy 
were received during this current year, seven of which were for 
extended family members to go into existing graves. They were 
approved at my level as the Superintendent. Three others were 
requested and not approved by the Secretary of the Army, which 
would have required a new grave site at Arlington.
    Since the funeral of President Kennedy in 1963, Arlington 
National Cemetery has become a major tourist attraction. During 
this past fiscal year, Arlington accommodated over four million 
visitors, making Arlington one of the most visited historic 
sites here in our National Capitol region.
    Also during this year, there will be conducted almost 3,000 
ceremonies at Arlington National Cemetery. Thousands of 
visitors both foreign and American have come to Arlington to 
participate in various events ranging from a simple wreath 
ceremony at the Tomb of the Unknown Soldier to our National 
Veteran's Day and Memorial Day programs which are attended to 
by the President.
    Over 127 fallen servicemembers serving in Operation 
Enduring Freedom (OEF) and over 445 fallen servicemembers 
serving in Operation Iraqi Freedom (OIF) have been laid to rest 
at Arlington National Cemetery.
    Among those buried at Arlington is Specialist Ross A. 
McGinnis who was awarded the Medal of Honor for his heroic acts 
in Iraq. Sergeant First Class Paul A. Smith, another Medal of 
Honor recipient is memorialized in Section D at Arlington 
Cemetery for his deeds in Operation Iraqi Freedom.
    On January 1st, 2009, the Secretary of the Army authorized 
all servicemembers who are killed in action or died as a result 
of wounds to receive full military honors at Arlington Cemetery 
whether they are interred, inurned, or memorialized. This would 
include an escort platoon, a color team, a band, a caisson, as 
well as the firing party, casket team, bugler, and chaplain.
    Mr. Chairman, this concludes my remarks, and I will be 
pleased to respond to your questions.
    [The prepared statement of Mr. Metzler appears on p. 43.]
    Mr. Hall. Thank you, sir.
    Ms. Stevenson, you are now recognized for 5 minutes.

                STATEMENT OF KATHERINE STEVENSON

    Ms. Stevenson. Thank you, Mr. Chairman, and thank you 
Members of the Subcommittee, for the opportunity to appear 
before you to discuss the national cemeteries that are 
administered by the National Park Service.
    We consider it a great honor to serve our veterans and 
their families at these national cemeteries and we are 
committed to ensuring that our cemeteries are maintained at a 
standard worthy of those who fought for our country.
    We are particularly pleased to be able to appear before you 
to tell you and the Committee, about the progress we have made 
to improve the condition of the cemeteries we manage since we 
last testified here in May of 2007.
    In 2007, we reported that $1 million in project funds had 
been spent in the prior 5 years on cemetery repairs. In fiscal 
years 2008 and 2009, the National Park Service has invested 
$4.5 million in cemetery repair projects and this is in 
addition to routine maintenance.
    Another $1.9 million in supplemental emergency storm and 
flood relief funding is being spent on a visitor's center that 
serves Chalmette Battlefield and National Cemetery.
    In addition to this project money, every park with a 
national cemetery has had an increase in their operating funds 
in each of the last 2 fiscal years.
    Some recent concerns have been raised about the appearance 
of national cemeteries managed by the Park Service. I wish to 
assure you that the National Park Service takes these concerns 
very seriously.
    NPS already follows the M40 series of manuals written by 
the VA's National Cemetery Administration for operations of 
national cemeteries.
    NPS also orders headstones from the same facilities that 
produce headstones for NCA cemeteries. NPS adheres to standards 
for placement and alignment of stones and replaces headstones 
that need second inscriptions for spouses.
    As the Nation's lead historic preservation agency, the 
National Park Service places great value on the historic 
significance, historic appearance, and historic headstones of 
the national cemeteries we manage.
    Consequently, we clean the headstones as gently as 
possible. We realign the headstones by hand and we maintain the 
historic landscape appearance, the contours and the trees to 
the greatest practical extent.
    Our maintenance workers avoid using line trimmers near the 
headstones as the marble chips and is thus more susceptible to 
erosion. We also avoid chemicals in order to preserve the 
monuments and the environment.
    Finally, in response to recent inquiries, the National Park 
Service has just completed an on-site review of four NPS 
managed cemeteries. That report is in draft, but the study 
found that the NPS managed cemeteries were in good condition 
overall.
    We look forward to sharing the final report with the 
Committee in the very near future.
    This concludes my testimony. I would be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Stevenson appears on p. 45.]
    Mr. Hall. Thank you, Ms. Stevenson.
    I will now recognize myself for a round of questions 
starting with Secretary Cleland.
    Your written testimony is just as poetic as your oral 
testimony was and covered a lot of extra ground. But I will 
just focus on a couple of things.
    The Normandy Visitor Center represents the ABMC's efforts 
to tell a better story of those brave souls who fought in this 
historic and bloody battle. I know that the ABMC was 
considering expanding its Interpretive Program to several other 
sites so that the many visitors to ABMC properties would gain 
even further insight into our overseas' veterans' sacrifice.
    Does the Commission still intend to expand its Interpretive 
Program to these other sites and could you provide us with a 
status update on this effort?
    Secretary Cleland. Yes, sir. We do. The wonderful staff 
that I inherited has worked very hard to get into the third 
phase of what we do.
    First of all, we do white headstones and green grass, but 
the ultimate story that we tell for succeeding generations is 
probably what we will be remembered by. We tell that story in 
various ways, through the internet, through interactive 
internet access, but we also tell that story through what we 
call the Interpretive Program.
    We stole that idea from the Park Service. They have a whole 
series of Interpretive Programs throughout the Park Service and 
they have an Interpretive Promotion System within the Park 
Service. So we stole that idea in order to tell the stories of 
those honored at our cemeteries and memorials. Now we have an 
Interpretive Program.
    The first interpretive program for visitors who come to an 
American Battle Monuments Commission cemetery is at Normandy. 
Some $30 million was spent on the Normandy Interpretive 
Program. We thank the House and the Senate for funding that 
program. Now Normandy has tremendous visitation. Normandy, in 
fact is our most visited cemetery.
    I was there with the President on June 6th, and he looked 
at me and said ``great job.'' And I said thank you, Mr. 
President, but I had been Secretary of the American Battle 
Monuments Commission for just 48 hours.
    So the Interpretive Program is underway. We want to have an 
interpretive center at Cambridge outside of London ready for 
the 2012 Olympics. There are other interpretive programs we 
want to put together around the world--in our biggest cemetery 
in Manila, for example.
    So the Interpretive Program is well underway, as are the 
brochures which we have accelerated in terms of production that 
will go to these cemeteries in multiple languages. I guess the 
only language that is not covered is Southern. We have 
visitors, primarily in our western European operation, who 
speak two or three languages.
    So we will be telling stories of our honored deads' 
contribution to America's security and safety through the 
Interpretive Program at our visitors centers and through the 
brochures that we put together. Both initiatives are well 
underway, Mr. Chairman.
    Mr. Hall. Thank you, sir.
    In June 2009, the U.S. Government Accountability Office 
(GAO) released a report on the ABMC identifying 13 deficits in 
its internal control procedures. Several of them involved its 
trust funds and banking investments and transactions. GAO then 
recommended 24 corrective actions.
    What is the status of the ABMC's response to this report 
and what steps have been taken to fix these problems?
    Secretary Cleland. First of all, Mr. Chairman, you are 
correct and the GAO is correct. We will provide that 
information for the record.
    One of the things that I found when I came to the ABMC was 
there were a number of GAO recommendations. Some of them have 
to do with our automatic data processing operation in western 
Europe. I just determined that the Chief Information Officer 
for the ABMC should be in western Europe and help us get on top 
of this.
    So we will be glad to provide that information for the 
record, Mr. Chairman.
    [The ABMC subsequently provided the following information:]

      L  Since 1997, GAO has been our auditor. Each year, ABMC 
has achieved a clean audit where in all material respects it 
has maintained effective internal control over financial 
reporting, including safeguarding of assets, and is compliant 
with laws, regulations, and directives as of the end of each 
fiscal year. In conjunction with each audit, GAO makes several 
management recommendations to us each year. Accordingly, ABMC 
develops a plan of action to resolve these recommendations, and 
follows up to ensure that recommendations have been 
implemented.
      L  Over the past 4 years, ABMC has resolved more than 94 
percent of these recommendations; many were resolved on the 
spot when GAO identified the issue. Of those not resolved, ABMC 
has a plan in place to fix them over time.
      L  In the fiscal year 2008 management report, we had 
several recommendations relating to managing our trust fund. 
All of these recommendations have had actions taken to resolve 
the issues identified by the GAO.

    Mr. Hall. Since I only have 45 seconds of my time left----
    Secretary Cleland. All right. Thank you.
    Mr. Hall [continuing]. It is not being dissented. But I 
will just ask you one more question. I have questions for the 
other witnesses----
    Secretary Cleland. Yes, sir.
    Mr. Hall [continuing]. After our other Members have a 
chance to ask theirs. But, Secretary Cleland, one final thing. 
Could you explain for us how the current economic climate has 
impacted the ABMC's foreign currency fluctuation account and 
has Congress given you enough authority to manage those 
fluctuations?
    Secretary Cleland. Yes. We do pay Foreign Service 
Nationals, FSNs as we call them, to help us maintain these 
cemeteries around the world as monuments, as memorials that 
are, as was pointed out, the gold standard around the world.
    In terms of that, we do have to adjust our currency to 
theirs, to the host Nation, shall we say, and to the foreign 
labor force and contractors that we deal with. The Congress has 
given us sufficient authority to manage the currency 
fluctuations. We are in good shape in terms of our foreign 
currency fluctuation account.
    Mr. Hall. Thank you so much.
    I will now recognize Ranking Member Lamborn for 5 minutes 
of questions.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I am going to give my time to the Ranking Member of the 
full Committee, Mr. Buyer, in addition to whatever time he 
might need on his own if that is the case.
    Mr. Hall. Mr. Buyer.
    Mr. Buyer. Thank you.
    [Slide of Normandy]
    Mr. Buyer. This is Normandy. And I assume this picture was 
taken some time back. But what is extraordinary for Americans 
who have an opportunity to be here on the coastline at Normandy 
is that it is truly extraordinary. When you step upon the 
grounds, the grass is as though you are on a--it is like a golf 
course. It is finely manicured. It is absolutely extraordinary. 
All the markers in perfect alignment.
    It is absolutely an extraordinary place. It is true 
dedication to the sacrifice that so many of these men not only 
as they came upon the beaches to make it above this ridge line 
but those who also then lost their lives in the fight at 
Normandy.
    Then to the rear back here, they also then have a memorial 
to so many of whom had lost their lives at sea and are 
unaccounted for. So the American Battle Monuments Commission, 
you, as I said in the opening statement, you set the pace and 
you are extraordinary.
    [Slide of Arlington]
    Mr. Buyer. Next comes Arlington. So many people recognize 
in America with regard when we think about a national cemetery, 
we think of Arlington. And there have been so many burials 
given the fact that we are in a two-front war. With Arlington, 
there have been so many visitors. People really feel the pride 
of a Nation that those of whom have sacrificed in the name of 
liberty are well taken care of and the families feel pretty 
good about it. That is the second standard.
    [Slide of Fort Rosecrans, San Diego]
    Mr. Buyer. The third standard here is our VA National 
Cemetery. I just chose this one in particular, Fort Rosecrans 
out in San Diego. And the same type, laser shots with regard to 
alignment of all the markers and it is beautiful. The National 
Shrine Program does an excellent job in making sure that we 
have the one standard and I appreciate that.
    [Slide of Andersonville 2004]
    Mr. Buyer. Next let me show a national cemetery by the 
Department of the Interior. Are we getting a sense that there 
might be a difference? It should not matter that this is the 
marker of someone that died in the Civil War. It should not 
matter if it was someone that died in the Revolution or someone 
who died that is interred in Mexico City, Mr. Cleland, one of 
your cemeteries in Mexico City, or in the Philippines.
    [Slide of Andersonville 2009]
    [The slide presentation is attached to Congressman Buyer's 
prepared statement, which appears on p. 39.]
    Now, the day what I describe when you look at--look around 
the stones. So when you said in your testimony that we gently, 
finely clean the markers, that is going to take you a lot of 
time. This is not the standard for which we should have in 
America.
    I think, Mr. Cleland, if you saw that in one of yours, you 
would just freak out. How is that for an articulation? I would. 
I did.
    Secretary Cleland. That is Georgia, my home State.
    Mr. Buyer. And point out that this was an active cemetery. 
Now, here is what I love about if you make a lot of noise and 
you complain about something, you will get a reaction, right? 
It is physics. It is nature. So I complained about all these 
weeds and stuff around them also.
    Now, you want to see what happens when you complain? I will 
show you what the response is. We do not have weeds around them 
anymore because we took a weed whacker to them and we took it 
to the dirt. Now you do not get any grass.
    So I just want to make sure. I mean, look at this. We are 
doing better, but are we where we need to be? And that is the 
purpose here of the hearing. It is the purpose of tell us what 
your needs and requirements are. If you need a Shrine Program 
to bring us up to the standards, let us know and we will help 
you do that because we want to make sure that this is not----
this is an active cemetery. We want there to be the standard 
for which these men and women deserve. Okay?
    And this is classic that a picture is very powerful. And it 
is one thing, I could have tried to articulate that, but when 
you see it, then you can understand why I am so disturbed and 
so bothered.
    So let me ask you, Ms. Stevenson, tell the Committee here 
what are your needs? What do you believe your needs are to 
raise the standards within the Department of the Interior?
    Ms. Stevenson. The report that I just mentioned will have 
some recommendations for funding and it will have 
recommendations for increased treatment of cleaning and so on.
    Mr. Buyer. What are your goals?
    Ms. Stevenson. Our goals are the same as the goals set by 
the National Cemetery Administration. We have the same three 
standards, height and alignment, clean stones, and level grave 
sites, as they do.
    Mr. Buyer. How many cemeteries did you go to and review?
    Ms. Stevenson. Four.
    Mr. Buyer. How many do you have in your system?
    Ms. Stevenson. Fourteen.
    Mr. Buyer. Why would you not go to all 14 cemeteries?
    Ms. Stevenson. We wanted to do it as quickly as we could 
and get some sense of what was going on and one, for example, 
that you mentioned, Andersonville was one of them. So we took 
ones that were fairly close to Andersonville.
    Mr. Buyer. What are the four that you went to?
    Ms. Stevenson. Andersonville, Andrew Johnson, Fort 
Donelson, and Stones River.
    Mr. Buyer. Andrew Johnson. That is in Tennessee? That is 
the one in Tennessee? Have you sent inquiries out to the other 
ten?
    Ms. Stevenson. No, sir. No more than usual. I mean, we talk 
to them a fair amount.
    Mr. Buyer. All right. You have got 14. There is a 
disconnect here. I am not in a fight with you. Okay? I want us 
to raise the standards so when this report comes out, I am 
going through it.
    Ms. Stevenson. Good.
    Mr. Buyer. The light is on you. Okay? So what my immediate 
sense here is, is when I think the Secretary tells me he is 
going to do a review that it is going to be of all 14 
cemeteries. I do not want something done quick and easy. All 
right? I want this to be done correctly.
    And if your sense is and your counsel to us is that four is 
going to be sufficient, that is fine. But is what you are 
asking me is, ``Steve, just pause here. When you get the 
report, you are going to be satisfied?''
    Ms. Stevenson. You know, you can choose a photograph in any 
of these cemeteries and any, I bet, of the veteran cemeteries 
that are managed by other people and we will have some scenes 
that are perfect and some scenes that are not. I know that that 
is true in the cemeteries that we manage. We are trying to do 
our very best for the veterans and for their burial places.
    Mr. Buyer. All right. Well, your standard at very best does 
not meet the standards established by others. So we are going 
to take your standard of very best and we are going to raise 
it. We are going to raise your very best even higher. Okay?
    And I did not go out and selectively choose to find what I 
think would be the worst photograph. It is easy to go out there 
and take that photo. And I was extremely upset the day that I 
saw a veteran being buried in a cemetery like I saw.
    It is one thing, you know, we have all been to cemeteries 
and we have seen the conditions of some of them, but to think 
that this is an active cemetery under the stewardship of the 
Federal Government was extremely disheartening.
    I am going to pause here, Mr. Chairman. I will give you 
back under the time.
    I will await your report and I will work with the Chairman 
and the Ranking Member and Mr. Miller and Mr. Donnelly, others 
of the Subcommittee. In particular, I am going to work with Mr. 
Dicks because of the Appropriations Committee. This is not 
going to be an issue of money. This is going to be an issue of 
desire and to achieve the highest standard possible.
    And with that, I will yield back to Mr. Hall.
    Mr. Hall. Thank you, Mr. Buyer.
    Ms. Stevenson, I thank you for coming and testifying before 
us and note for the record that this Committee does not have 
jurisdiction over the National Park Service. We appreciate your 
coming to testify before us. We all share the same goal, I am 
sure, in terms of the standards and quality of the facilities 
that you manage for our veterans.
    Does the NCA assist with replacing veterans' headstones or 
markers at Andersonville or Andrew Johnson Cemeteries when they 
break or deteriorate?
    Ms. Stevenson. I do not believe they do. We order the 
headstones from the same company, but we do all of that work 
ourselves.
    Mr. Hall. As a participant on the VA Advisory Committee on 
Cemeteries and Memorials, do you feel that this is a good 
vehicle for addressing the NPS's concerns or does the NPS need 
a more developed partnership with VA regarding cemetery issues?
    Ms. Stevenson. Actually, fairly recently, I think in 2004, 
an Interagency Committee was established, and we looked very 
much forward to working with that Interagency Committee, but 
the head of the Committee became ill and so the Committee was 
dissolved. We would like to see the Committee reconstituted so 
that we can discuss some of these concerns.
    Mr. Hall. When will the NPS review of its cemeteries be 
complete and when would you expect you could share those with 
the NCA?
    Ms. Stevenson. As I mentioned, we did a review of the four 
cemeteries. That report is completed. It just needs to go 
through formal review, Office of Management and Budget (OMB) 
and the Department.
    Mr. Hall. Thank you.
    Mr. Metzler, based on serious issues that were raised in 
recent news stories regarding grave marking, et cetera, what 
has been done to reassure families of those buried at Arlington 
that their loved ones have been properly interred and that 
their graves are properly marked? Have you coordinated efforts 
in this regard with the VA's Office of Survivors Assistance? 
Are any of your grief counseling or outreach efforts 
coordinated with the Vet Center counselors who are authorized 
to see families when there has been an active-duty death?
    Mr. Metzler. Sir, we are not coordinating with Veterans 
Affairs. The Department of the Army does have counselors that 
the families are using, but we are not, to my knowledge, we are 
not in sync at Arlington Cemetery with Veterans Affairs for 
that.
    Mr. Hall. When problems arise with the VA providing 
headstones or markers such as with inscription errors, what is 
your recourse and how are those situations handled?
    Mr. Metzler. We go to Veterans Affairs for all our 
government headstones. When we have made an initial mistake, 
then we ask for an expedited replacement headstone. Veterans 
Affairs is very timely and replaces that stone within a month, 
if not sooner.
    Mr. Hall. Mr. Metzler, if there are errors in an 
inscription, can you make the request for repairs or does the 
family have to be informed and make those requests?
    Mr. Metzler. No. If we are informed about the mistake, we 
will make an immediate correction on the headstone to the 
family's satisfaction.
    Mr. Hall. Are there instances at Arlington in which a 
veteran without other eligible dependents has requested that 
his or her burial benefits be passed to a parent?
    Mr. Metzler. We have had those requests over the years, but 
that is not within our guidance of our regulations. The burial 
benefit is to the veteran member himself and they cannot pass 
it on to other family members.
    Mr. Hall. Starting with you, Mr. Metzler, if there is 
something that you would recommend that this Subcommittee or 
the full Committee do to help you to do your job better and 
help to memorialize our veterans better and preserve their 
memory, what would that recommendation be?
    Mr. Metzler. It would be the continuation of the National 
Shrine commitment, sir. That has been a great shot in the arm 
for us. It has been able to help us get a lot of maintenance 
done at the cemetery that we have not been able to do in the 
past. And I would just ask for your continued support in that 
program.
    Mr. Hall. Okay. Just a sentence if you could, Mr. 
Secretary, same question.
    Secretary Cleland. We are proud of the American Battle 
Monuments Commission cemeteries. The scope of America's 
involvement around the world, particularly in the 20th Century, 
is staggering. When you go to Normandy or any of our cemeteries 
around the world, you realize just how much America has paid 
for its service and sacrifice around the world.
    We thank the House and the Senate for all the help they 
have given in the past. And so we are just honored to serve, 
Mr. Chairman.
    I will say that our motto is what General Pershing said at 
the creation of the American Battle Monuments Commission in 
1923, in speaking about the veterans of World War I, that 
``Time shall not dim the glory of your deeds.'' And so that is 
the standard that we try to adhere to.
    Mr. Hall. Thank you, sir.
    We have a vote that has been called, so I want to quickly 
ask the same question of Ms. Stevenson and then ask Mr. Miller 
to ask his questions.
    Ms. Stevenson, is there something this Subcommittee, the 
full Committee, or the VA can do to help you do your job 
better?
    Ms. Stevenson. We would like to see the interagency working 
group reestablished.
    Mr. Hall. Okay. We will try to make that happen.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Two quick questions both to Mr. Metzler, and thanks for 
your hospitality also. Any time a member of this body has an 
opportunity to go out there to Arlington, we appreciate what 
you do. I have two questions.
    One deals with the waiver policy. I understand it took 
almost 10 years to come up with the policy. And could you now 
unfortunately quickly describe, if you can, why it took so long 
and what the policy is, how you go through that process?
    Mr. Metzler. Well, the waiver policy in the past was an 
informal process, so it has now been formalized through the 
Secretary of the Army. There is a group of senior officials 
within the Army that would receive the request for an exception 
of policy. After it has come to my office with the 
recommendation, I will forward it on to the Assistant Secretary 
of the Army for Manpower and Reserve Affairs.
    In turn, they will take that recommendation request from 
the family and send it out to the senior panel. They will make 
their recommendations back to the Assistant Secretary of the 
Army for Manpower and Reserve Affairs. All work independently. 
And then in turn, he will bring it to the Secretary of the Army 
for a final decision.
    That process should take somewhere in the neighborhood of 4 
to 5 working days after being reviewed by General Counsel.
    Mr. Miller. Could you elaborate a little bit on the length 
of time it took to establish the policy?
    Mr. Metzler. It did take several years. It was done in 
conjunction with a rewrite of the Federal Code of Regulations 
which has currently been completed and is under review right 
now by the Department of Defense.
    Mr. Miller. Okay. Thank you.
    And the other question, and I think all of us are concerned 
about the lack of land availability around Arlington, are there 
any other parcels that have been identified that could be 
available for acquisition?
    Mr. Metzler. The two that we currently have that are 
working is the Millennium site which is a piece of property 
that we already have under our jurisdiction from Fort Myer and 
then two come on line is the Naval Annex referred to as Federal 
Building Number 2. That is scheduled to come on line in the 
year 2012.
    Now, at the same time, Secretary Geren, the outgoing 
Secretary of the Army, has ordered a new Master Plan to look at 
these issues and that will start next year in 2010.
    Mr. Miller. If any of us need to help with the new 
Secretary of the Army, we would be happy to visit with him as 
well.
    Mr. Metzler. Thank you, sir.
    Mr. Miller. Thank you, Mr. Metzler.
    Mr. Hall. Thank you, Mr. Miller.
    We have two votes and about 6 minutes remaining. So we will 
ask our second and third panelists please to be patient. It 
should be about 20 minutes.
    Thank you so much, all of our first panelists, for your 
work and your service to our veterans and to their memory and 
to their families.
    This hearing will now be in recess until we come back from 
votes.
    [Recess.]
    Mr. Hall. That is the first time I have ever hit the gavel 
three times and boy did it feel good. The Subcommittee on 
Disability Assistance and Memorial Affairs will come to order 
again. Thank you for your patience. Joining us on our second 
panel today are Mr. John Wilson, Assistant National Legislative 
Director for the Disabled American Veterans (DAV); Mr. Raymond 
C. Kelley, National Legislative Director for AMVETS; Ms. 
Vivianne Cisneros Wersel, Chair of the Government Relations 
Committee for Gold Star Wives of America (GSW); Ms. Lesley 
Witter, Director of Political Affairs for the National Funeral 
Directors Association (NFDA); and Mr. John Nicolai, Shop 
Steward, Local 2241, on behalf of the American Federation of 
Government Employees (AFGE). Welcome to you all.
    As I said before to our first panel, your statements are 
already entered into the official record. Feel free please to 
edit them or change them, or whatever you wish. We will try to 
keep it to 5 minutes so we will have time for questions. We 
have votes coming up in about an hour and I would hope to get 
through both our second and third panels before then, so you do 
not have to wait again. Mr. Wilson, you are now recognized for 
5 minutes.

 STATEMENTS OF JOHN L. WILSON, ASSISTANT NATIONAL LEGISLATIVE 
   DIRECTOR, DISABLED AMERICAN VETERANS; RAYMOND C. KELLEY, 
  NATIONAL LEGISLATIVE DIRECTOR, AMERICAN VETERANS (AMVETS); 
 VIVIANNE CISNEROS WERSEL, AU.D., CHAIR, GOVERNMENT RELATIONS 
  COMMITTEE, GOLD STAR WIVES OF AMERICA, INC.; LESLEY WITTER, 
   DIRECTOR OF POLITICAL AFFAIRS, NATIONAL FUNERAL DIRECTORS 
  ASSOCIATION; AND JOHN NICOLAI, CEMETERY REPRESENTATIVE, FT. 
  LOGAN NATIONAL CEMETERY, DENVER, CO, AND SHOP STEWARD, AFGE 
  LOCAL 2241, ON BEHALF OF AMERICAN FEDERATION OF GOVERNMENT 
                       EMPLOYEES, AFL-CIO

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Subcommittee, I am glad to be here this morning 
on behalf of the DAV to present our views on the current 
Department of Veterans Affairs Burial Benefits Program, its 
national cemetery policy, and the way the VA and the American 
Battle Monuments Commission can better serve veterans and their 
survivors.
    As you know, the VA National Cemetery Administration 
maintains more than 2.9 million gravesites at 130 national 
cemeteries and 33 additional installations in 39 States and 
Puerto Rico. Currently, there are more than 7,000 acres within 
the established NCA installations. Just more than half of this 
land is undeveloped. Including available gravesites and the 
undeveloped land there is potential to provide more than 4 
million resting places.
    In addition to the maintenance of these facilities, the NCA 
administers four programs. The State Cemetery Grants Program, 
the Headstone or Marker Program, the Presidential Memorial 
Marker Program, and the Outer Burial Receptacle Reimbursements. 
NCA must be allocated the resources it needs to meet the 
increasing demands of interments, graveside maintenance, and 
related essential elements of cemetery operations.
    Some cemeteries, such as the one in Puerto Rico, face the 
need for immediate expansion through additional land 
acquisition. We understand that the Puerto Rico National 
Cemetery, or PRNC, has a project for 2010, which should add 
burial space through 2017 for first interments. PRNC will 
remain open, of course, for second interments of spouses and 
veterans. After completion of the project, PRNC will remain 
open to first and second cremations until 2030. While 
cremations are an option for some, veterans and their survivors 
may hold certain religious beliefs that do not make this a 
viable alternative. The NCA is actively seeking land of 100 
acres or more within a 25-mile radius of Route 22 and Route 1 
in Puerto Rico. The rapid acquisition of this land is essential 
to this veteran population.
    Although the 5-year, $250 million National Shrine 
Initiative was not adopted, the NCA spent $150 million toward 
that original list of 928 projects, as well as other emerging 
priorities over the past year. Their ability to do so was in 
large part due to Congressional action to reverse years of 
neglect. The Administration requested $181 million for fiscal 
year 2009. Congress, understanding the sacrifices of the few 
for the freedom of the many, honored our fallen by granting NCA 
$280 million. Two-hundred thirty million dollars in original 
appropriations and an additional $50 million in stimulus funds. 
The Administration's request for fiscal year 2010 NCA funding 
is $242 million. Granting that request will sustain the 
important progress NCA has made and we urge Congress to do so.
    The next area to address is burial benefits. The burial 
benefit in 2008 was only 6 percent of what was provided when 
the NCA started paying this benefit in 1973. While it was never 
the intent of Congress to cover the full cost of burial, the 
benefits now pay only a fraction of what was covered 35 years 
ago. In 2001, the plot allowance was increased for the first 
time in more than 28 years to $300 from the original amount of 
$150. This figure covered approximately 6 percent of funeral 
costs. The 108th Congress increased that allowance from $500 to 
$2000 for service-connected deaths. Prior to this adjustment, 
the allowance had been untouched since 1988.
    Clearly, it is time this allowance was raised to make a 
more meaningful contribution to the cost of burial for our 
veterans. In accordance with the DAV's Resolution 212, we note 
that the VA provides a burial allowance for service-connected 
disabled veterans of $2000, as previously noted. But that has 
been seriously eroded by inflation because it has not been 
regularly adjusted for increases in the cost of living. 
Therefore, the DAV supports legislation to increase the burial 
allowance payable in the case of death due to service-connected 
disabilities, and to provide for automatic annual adjustments 
indexed to the cost of living.
    The concludes my statement, Mr. Chairman. It has been a 
pleasure to appear before this honorable Committee today.
    [The prepared statement of Mr. Wilson appears on p. 47.]
    Mr. Hall. Thank you, Mr. Wilson. Mr. Kelley, you are now 
recognized for 5 minutes.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Chairman Hall, thank you for inviting AMVETS, 
and the opportunity to present our views on the Department of 
Veterans Affairs national cemetery policies. I am going to 
commit my time to two major points: the veterans population 
mile radius threshold model, and the burial benefits.
    First, NCA is currently providing burial benefit options 
for 88 percent of all veterans who fall within the 170,000 
within the 75-mile radius threshold model. However, under this 
new model, no new geographical area will become eligible for a 
national cemetery until 2015. St. Louis will at that time meet 
the threshold due to the closing of the Jefferson Barracks 
National Cemetery in 2017. Analysis shows that the five areas 
with the largest veteran population will not become eligible 
for a national cemetery because they will not reach that 
170,000 population threshold.
    NCA has spent years developing and maintaining a cemetery 
system based on a growing veteran population. In 2010, our 
veteran population will begin to decline. Because of this 
downward trend a new threshold model must be developed to 
ensure more of our veterans will have reasonable access to 
their burial benefits. There are two options to modify this 
threshold. Reduce the diameter of the radius, or reduce the 
population threshold. AMVETS supports reducing the population 
threshold.
    Lowering the population threshold to 100,000 veterans would 
immediately make several areas eligible for a national 
cemetery, regardless of any changes to the mile radius 
threshold. A new threshold model must be implemented so more of 
our veterans will have access to this earned benefit.
    In 1973, NCA established a burial allowance that provided 
partial reimbursements for eligible funerals and burial costs. 
The current payment is $2,000 for burial expense for service-
connected deaths, $300 for non-service-connected deaths, and 
$300 for plot allowance. At the inception the payout covered 72 
percent of the funeral costs for a service-connected death, 22 
percent for a non-service-connected death, and 54 percent for a 
burial plot cost. In 2007, these benefits eroded to 23 percent, 
4 percent, and 14 percent respectively. It is time to bring 
these benefits back to their original value.
    The national average cost for a funeral and burial in a 
private cemetery has reached over $8,500, and the cost for a 
burial plot is $2,100. At the inception of the benefit the 
average cost was $1,100 and $280, respectively. While the cost 
of the funeral has increased nearly seven times, the burial 
benefit has only increased two and a half times. To bring both 
burial allowance and the plot allowance back to the 1973 value, 
the service-connected burial benefit payment will be $6,160, 
the non-service-connected benefit payment will be $1,918, and 
the plot allowance will be increased to $1,150.
    Based on accessibility and the need to provide quality 
burial benefits, AMVETS recommends that VA separate burial 
benefits into two categories: veterans who live inside the VA 
accessibility threshold model, and those who live outside the 
threshold. For those veterans who live outside the threshold 
the service-connected burial benefit should be increased to the 
$6,160. Non-service-connected veterans' burial benefits should 
be increased to $1,918. And the plot allowance should increase 
to $1,150 to match the original value of the benefit.
    For veterans who live within reasonable accessibility to a 
State or national cemetery that is able to accommodate burial 
needs, but the veteran would rather be buried in a private 
cemetery, the burial benefit should be adjusted. These 
veterans' burial benefits should be increased to the average 
cost for VA to conduct a funeral. The benefit for service-
connected burials will be $2,793. The amount provided for a 
non-service-connected burial will be $854. And the plot 
allowance will be $1,150. This will provide burial benefits at 
equal percentages, but based on the average cost for a VA 
funeral and not a private funeral cost that will be provided 
for those veterans who do not have access to a State or 
national cemetery.
    Mr. Chairman, this concludes my testimony. Again, thank you 
for the privilege to present AMVETS' views and I will be 
willing to answer any questions you have at this time.
    [The prepared statement of Mr. Kelley appears on p. 49.]
    Mr. Hall. Thank you, Mr. Kelley. Dr. Wersel, you are now 
recognized.

          STATEMENT OF VIVIANNE CISNEROS WERSEL, AU.D.

    Dr. Wersel. Mr. Chairman and Members of the Subcommittee, 
good morning. I am Vivianne Cisneros Wersel, Chairman of the 
Government Relations Committee for Gold Star Wives. Thank you 
for the opportunity to present this statement. We are here to 
provide input on what could be done better to help families of 
the fallen. Our answer is simply this: help families navigate 
the benefits process; increase benefits for burial and other 
associated costs; eliminate the Dependency and Indemnity 
Compensation (DIC) and military Survivor Benefit Plan (SBP) 
offset; include the word ''survivors'' in VA publications, 
documentation, speeches, and testimony by VA personnel.
    I am the surviving spouse of Lieutenant Colonel Rich 
Wersel, United States Marine Corps, who died suddenly, February 
4, 2005, 1 week after he returned from his second tour of duty 
of Iraq. That day was just like any other day for me. However, 
it was a day to determine the here, today, tomorrow, the 
before, the after. All my hopes and dreams had to change and 
were readjusted. My new life, my old life, and now my new life 
as a Gold Star Wife.
    Gold Star Wives is an all volunteer organization that 
provides service, support, and friendship. Surviving spouses 
look to us as their link to benefit information and their voice 
in Congress. We are the vanguards of survivor benefits, 
educating the public as well as our elected officials, on 
issues relating to military survivors. These efforts, however, 
cannot be accomplished without you and your support.
    Improvements have been made in our benefits process. 
However, the importance of staying vigilant is vital so no 
grieving military spouse falls through the cracks. Important 
decisions are made by each grieving spouse immediately after 
casualty notification. Many of these decisions are permanent 
and impact their future as well as their children. These 
families need accurate information, proper documentation, and 
expedited benefits. This information should be provided in more 
than one format and on more than one occasion for full 
comprehension by the surviving spouse.
    Gold Star Wives seeks accurate information, protocol 
assistance, and increases in allowable costs associated with 
military funerals and burials. We understand that the VA is in 
the process of developing a much needed brochure providing more 
information, explaining the issue of committal shelters. 
Another issue being addressed by the VA is the possibility of 
creating new VA cemeteries in areas that normally would not 
qualify.
    Gold Star Wives seeks increases in the VA burial allowance. 
The number one concern of our families is financial stability. 
The removal of the Dependent Indemnity Compensation dollar for 
dollar offset of the Survivor Benefit plan, SBP/DIC offset, 
would have the greatest and most relevant impact. Additionally, 
H.R. 2243, the ``Surviving Spouses Benefit Improvement Act of 
2009,'' introduced by Representatives Buyer and Walz, would 
increase the DIC to provide payment at 55 percent of the 100 
percent disability compensation, bringing the DIC in line with 
other Federal survivor programs. DIC has not been increased 
since the flat rate DIC was established in 1993. This bill will 
also remove the DIC offset of the Survivor Benefit Plan.
    Recently the U.S. Court of Federal Claims' decision with 
regards to Sharp v. United States ordered the Department of 
Defense to refund SBP annuities withheld from three widowed 
military spouses who were also receiving DIC. The Court found 
that these remarried widows were entitled to SBP benefits 
without the dollar per dollar reduction by the DIC. We 
recognize that jurisdiction resides elsewhere on the SBP/DIC 
offset. But Gold Star Wives would like each Member of this 
Subcommittee to be aware of the important decision in this case 
and work diligently to end the inequity for this small group of 
military survivors.
    Lastly, survivors are not synonymous as dependents, or 
family members, in many governmental publications, documents, 
or even speeches. This group is not new and must be recognized, 
not forgotten. We commend the VA that the new 2009 edition of 
the Federal Benefits for Veterans, Dependents and Survivors, 
which I brought here. It now states, ``Federal Benefits for 
Veterans, Dependents, and Survivors,'' on the front cover of 
the handbook. This is a, for us, a moral victory. Last year is, 
if you can look at the difference, it just says, ``Federal 
Benefits for Veterans and Dependents.'' So we have come a long 
way and we thank you for this.
    Thank you for this opportunity to testify for Gold Star 
Wives. And I am appreciative of the compassionate work that the 
Members and the staff of this Subcommittee accomplish on our 
behalf. We hope that you look to us as the voice of military 
survivors.
    I have 16 seconds. I will say something really quick. Last 
time I testified I was an audiologist with a masters degree. I 
am still an audiologist, but now I have my doctorate, I am a 
doctor of audiology. And I did it through the VA using my 
Chapter 35 benefits. And I thank you.
    [The prepared statement of Dr. Wersel appears on p. 52.]
    Mr. Hall. Thank you, Dr. Wersel. Thank you for you and your 
organization's work to keep the fabric of the support systems 
strong for all of our military families. I was at dinner last 
night with a number of veterans and Gold Star Wives, Gold Star 
Mothers, and one Gold Star Daughter. I am very grateful for the 
sacrifices that you and your loved ones have given for our 
country. Ms. Witter, you are now recognized.

                   STATEMENT OF LESLEY WITTER

    Ms. Witter. Chairman Hall, Ranking Member Lamborn, Members 
of the Subcommittee, thank you for the opportunity to testify 
before you this morning about how we can better serve America's 
veterans and their families. I am Lesley Witter, Director of 
Political Affairs for the National Funeral Directors 
Association. I am testifying today on behalf of over 19,000 
funeral directors and funeral service personnel who are members 
of NFDA.
    Funeral directors help ensure that every deceased veteran 
receives the care, honor, and dignity they have earned because 
of their sacrifice in the defense of the freedoms we enjoy 
today. While the responsibility of providing appropriate 
funeral and burial benefits and proper military honors falls on 
the VA and DoD, it is funeral directors who help the family 
organize a personalized funeral and burial that both celebrates 
the life of their loved one and honors their service to our 
country. Funeral directors contact the VA to schedule funeral 
and burial times, help families file benefit claims, ensure 
that each veteran receives the appropriate grave markers, and 
works with the DoD and veterans service organizations to 
provide appropriate military honors.
    In preparation for my testimony today, NFDA completed a 
non-scientific survey of our membership regarding their 
opinions on how we can better serve our veterans and their 
families. I am happy to report that NFDA members provided 
thoughtful and detailed responses on this important issue. I 
will now highlight some of the key findings of our survey. I 
have supplied detailed findings in my written testimony.
    Approximately half of the NFDA members surveyed said that 
they had assisted in planning 21 or more veteran funerals in 
2008. Most funeral directors surveyed felt that the DoD and VA 
were very responsive to funeral directors. Additionally, almost 
74 percent felt that the VA and DoD were either very or 
extremely responsive to veteran families. However, Monica 
Torres, an NFDA member, a mortuary science student at Mesa 
Community College, and a military spouse commented that, 
``gathering information not only from funeral directors but 
also the veteran's family may be an avenue of interest.'' If 
there is no process to collect this important information, NFDA 
will be happy to assist in developing a questionnaire that 
funeral directors can give to the families after the funeral 
and burial are completed.
    Regarding funeral and burial benefits, less than one-third 
of funeral directors responded that they had experienced 
problems obtaining veteran burial benefits. However, over 66 
percent of respondents felt that the current veteran and burial 
benefits are insufficient. Several NFDA members commented that 
the funeral benefit has not changed with inflation and that it 
does not cover the ever increasing cost of a funeral. As a 
result, almost two-thirds of funeral directors stated that they 
have absorbed extra costs associated with veteran funerals. The 
average dollar amount absorbed by funeral directors per veteran 
funeral was $652.
    In addition, NFDA member Mark Jelacic, of Jelacic Funeral 
Home in Milwaukee, Wisconsin, commented that he believes the 
``VA is disregarding those veterans and their families who have 
chosen cremation as their final form of disposition by not 
offering the burial benefit to these veterans.'' Mr. Jelacic 
indicated that veteran families do not understand why if they 
bury their loved one they would get a benefit, but if they 
choose cremation they may not receive their burial allowance 
unless the cremated remains are buried.
    Mr. Chairman, I would like to take this opportunity to 
express NFDA's strong support for H.R. 2642, a bill introduced 
by Mr. Tiberi of Ohio, that directs the Secretary of Veterans 
Affairs to assist in the identification of unclaimed and 
abandoned human remains to determine if any of these remains 
are eligible for burial in a national cemetery. NFDA members 
are acutely aware of the sad story of unclaimed remains, many 
of whom are veterans, throughout this Nation. NFDA members will 
be happy to work with the VA to identify veterans' remains that 
have gone unclaimed, and ensure that these heroes receive the 
funeral and burial honors they deserve.
    Mr. Chairman, distinguished Members of the Committee, on 
behalf of the members of the National Funeral Directors 
Association, I want to assure you that funeral directors 
throughout the country remain dedicated to doing their part to 
honor our Nation's veterans and their families. I want to 
conclude my testimony today by thanking you for the opportunity 
to testify on behalf of NFDA. I hope my testimony has been 
helpful and I am ready to answer any questions you may have.
    [The prepared statement of Ms. Witter appears on p. 53.]
    Mr. Hall. Thank you, Ms. Witter. Mr. Nicolai, you are now 
recognized for 5 minutes.

                   STATEMENT OF JOHN NICOLAI

    Mr. Nicolai. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for letting me testify today about the 
harmful practice of outsourcing cemetery caretaker jobs at the 
national cemeteries. I am proud to be a Vietnam veteran and 
served our country in the United States Air Force. Six years 
ago, after many years in the corporate world, I was hired at 
Fort Logan National Cemetery in Denver, Colorado. It is a great 
honor to work at Fort Logan. It is one of the best kept 
cemeteries in the national cemetery network in my opinion. That 
is, at least until recently when some of the caretaker work was 
contracted out.
    I started at Fort Logan as a cemetery caretaker maintaining 
the cemetery grounds through mowing and trimming, headstone 
setting, and assisting the interment crew. I currently work as 
a cemetery representative. The last honor we bestow on our 
veterans and their families is to give them a decent farewell, 
which continues with perpetual care of their resting place, an 
honor that could not be filled with as much dignity and 
dedication without the cemetery caretakers, almost all of whom 
are veterans themselves.
    Caretakers take a great pride in their job, keeping the 
cemetery up to National Shrine status. But their jobs are not 
just about meticulously maintaining the grounds. Oftentimes the 
cemetery caretaker is the first person the family talks to when 
they are looking for a loved one's gravesite, or have other 
questions about the national cemetery. There are family members 
who visit their loved one's grave almost every day. They are 
grieving. The caretakers get to know some of them by name and 
are a source of comfort.
    At Fort Logan, almost all the caretakers have been veterans 
and those who are not veterans are mentored by their veteran 
coworkers to fulfill their unique roles at national cemeteries. 
Sadly, NCA contracted out all the caretaker and mowing and 
trimming work at Fort Logan 2 years ago. That resulted in the 
loss of three full-time caretaker positions for the next wave 
of veterans coming home from combat in need of a job. The 
remaining caretakers often have to redo the contractors' work 
to make it look good for Memorial Day or for visits by senior 
management from MISN or Washington.
    Next month, another contract will begin at Fort Logan, this 
time for headstone setting, and our caretakers currently 
perform that job. That is two more caretaker jobs lost for 
future veterans. Our caretakers take great pride in their 
ability to set headstones and they do a magnificent job. It is 
very personal to them. Most of the time a caretaker setting 
headstones in a new burial section would be assigned that 
section until it is completely filled. They consider it a 
privilege to complete this honorable task. But now this job 
will be turned over to a subcontractor. It will no longer be 
caretaking, it will be just a contract laborer with no 
connection to veterans or their families doing the mowing or 
headstone setting.
    These recent contracts do not seem legal. We never saw a 
formal solicitation. We never saw any evidence of cost savings. 
Management never gave us a chance to compete for that work, 
either in order for us to show that we could it better and 
cheaper, even though the law gives us that right. NCA has 
argued that the cemetery caretaker positions are too hard to 
fill. That in my mind is disingenuous. There is no evidence of 
that. NCA has not gone out of its way to recruit veterans who 
are looking for work. There are so many veterans who could fill 
these positions with honor and dignity that befits them.
    Two years ago NCA sent me to West Palm Beach to help open a 
new national cemetery. The NCA hired a director, office staff, 
and cemetery representatives, but no caretakers or interment 
crews. Instead, they gave all this work to contractors. That is 
a lot of lost job opportunities for today's unemployed 
veterans.
    So I am asking you first to please stop NCA from taking 
more caretaker jobs away from veterans. And please require NCA 
to work with VA's own job training programs and veterans groups 
to find unemployed veterans to do this honorable work. And 
finally, NCA should start complying with the OMB guidance that 
directs agencies to start bringing contractor work back inside 
the Government. It is the law, it is the fair thing to do for 
our jobless veterans, and it is the honorable thing for all 
fallen veterans and their families. Thank you very much.
    [The prepared statement of Mr. Nicolai appears on p. 56.]
    Mr. Hall. Thank you, Mr. Nicolai. I will, with the consent 
of Mrs. Halvorson and Mr. Lamborn, thank you for your testimony 
and tell you that we are going to submit questions. We do have 
questions for you. But if we ask them now, and then you give us 
the answers, and you multiply it by five, we will not get to 
our next panel before the next stack of votes is called, and 
then we are not sure how long that will be. So I hope you do 
not take it as a sign of our underestimating your importance 
and the importance of your testimony. But, we will send you 
questions in writing. Also, some of the questions, frankly, 
that you have raised, and that we have for you, are questions 
that we want to ask of the next panel. So, thank you very much 
for your patience, and thank you for your testimony, your 
service to our veterans, and to our country. And Mr. Lamborn, 
would you like to comment?
    Mr. Lamborn. I agree with that, Mr. Chairman. I would like 
to say to the gentleman from Fort Logan, I have been there. It 
is just north of the part of Colorado I represent. And it is 
beautifully kept, and I appreciate your work.
    Mr. Hall. Thank you all for your service to our country and 
to our veterans. We will be writing you, the staff will send 
you our assorted, assembled questions. In the interest of 
getting through the agenda before the next votes are called and 
we disappear for who knows how long, we will thank you and 
excuse you and wish you a good day. And ask our third panel to 
join us, consisting of Mr. Steve L. Muro, Acting Under 
Secretary for Memorial Affairs of the National Cemetery 
Administration of the U.S. Department of Veterans Affairs; 
accompanied by Ron Walters, Director of Budget and Planning 
Services at the National Cemetery Administration for the U.S. 
Department of Veterans Affairs.
    As always, your full written statement has been entered 
into the record. So feel free to expand, or shorten, or edit, 
or improvise as you see fit. Mr. Muro, you are now recognized 
for 5 minutes.

STATEMENT OF STEVE L. MURO, ACTING UNDER SECRETARY FOR MEMORIAL 
 AFFAIRS, NATIONAL CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; ACCOMPANIED BY RONALD WALTERS, DIRECTOR, 
BUDGET AND PLANNING SERVICES, NATIONAL CEMETERY ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Muro. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Ranking Member, and Members of the Committee, thank you for the 
opportunity to testify about the initiatives of the National 
Cemetery Administration to better serve America's veterans and 
their families. Thank you for accepting my written testimony 
for the record.
    One critical measure of service is VA's ability to provide 
veterans reasonable access to a burial option. Currently, 87 
percent of all veterans in the Nation reside within a 75-mile 
radius of a national or State veterans cemetery. Five new 
national cemeteries opened in 2009, serving the areas of 
Columbia, South Carolina; Sarasota and Jacksonville, Florida; 
Birmingham, Alabama; and Bakersfield, California. Washington 
Crossing National Cemetery, serving the veterans of 
Philadelphia and Southeastern Pennsylvania, is projected to 
open in early next year. Seven new State veterans cemeteries 
established through the State Cemetery Grants Program are also 
under construction. With the opening of these new cemeteries, 
NCA projects that 90 percent of veterans will have reasonable 
access to burial space in a national or State veterans cemetery 
by fiscal year 2011.
    We are responding to the changes in burial preferences of 
veterans and their families by constructing a great number of 
columbaria for inurnment of cremated remains. We are also 
developing a new memorial wall in our cemeteries to honor those 
veterans whose remains are not available for burial. VA is 
expanding the Headstone and Marker Program to include a new 
medallion, an option that will acknowledge the service of 
veterans buried in private cemeteries around the world. 
Veterans and their families will be able to choose either the 
new medallion or the traditional headstone or marker for 
veterans who died on or after November 1, 1990, and are 
interred in a privately marked grave in private cemeteries. We 
anticipate the medallion will be available for veterans and 
their families early next year.
    We are also streamlining the process of burial eligibility 
determination and interment scheduling to better serve the 
needs of veterans, their families, and the funeral directors. 
The centralized national cemetery national scheduling office 
opened in St. Louis in January of 2007 to handle interment 
requests for all national cemeteries, except those located in 
Puerto Rico and Hawaii. As a one-stop scheduling center, it 
ensures timely, consistent eligibility determinations and is 
available for families and funeral homes for scheduling of 
burials 7 days a week. Previously, when these functions were 
performed by employees at each national cemetery, scheduling 
was available 5 days a week.
    The National Cemetery Administration holds the distinction 
of earning the highest score ever achieved in the American 
Customer Service Index Survey for Federal agencies or private 
corporations. NCA achieved a customer satisfaction rating of 95 
out of a possible 100 in 2004 and again in 2007. These results 
are testament to the dedication and hard work of the national 
cemetery employees as they serve veterans and their family 
members during a difficult and emotional time.
    Our programs for employee development, which are centered 
at our National training center in St. Louis, are crucial to 
maintaining VA as National Shrines and to providing care and 
compassionate service to veterans and families in their time of 
need.
    We continually assess our burial and memorial programs with 
the goal to serve veterans even better in the future. We look 
forward to working with the Members of this Subcommittee as we 
jointly respond to the changing needs of those who have served. 
Thank you again for this opportunity and I would be pleased to 
answer any questions that you may have.
    [The prepared statement of Mr. Muro appears on p. 58.]
    Mr. Hall. Thank you, Secretary Muro. Thank you for your 
testimony and for your work. Congratulations on the high rating 
you just told us about. That is very impressive. First of all I 
would like to ask, in your testimony you commented on the four 
strategic goals outlined by the Advisory Committee in its 2008 
report. Along with those goals the Advisory Committee made 16 
recommendations, to which the VA responded. Several of these 
items required additional follow-up. Can you provide us a 
summary of the follow-up actions VA has taken in response to 
the recommendations?
    Mr. Muro. We do not have a copy of the 16 recommendations 
those goals here. If you provide me those, I can answer your 
questions?
    Mr. Hall. Sure. We will do that. We will send you the 
recommendations and then you can provide us with----
    Mr. Muro. Thank you.
    Mr. Hall [continuing]. Your responses. It has been almost a 
year since Congress was informed of the activities of the 
Advisory Committee on Cemeteries and Memorials. Has that 
Committee conducted any additional meetings? What other 
activities or observations have they provided? Is the authority 
outlined in title 38, section 2401, regarding the Advisory 
Committee on Cemeteries and Memorials sufficient to advise the 
Secretary on such matters or is more authority needed to meet 
the NCA's strategic goals and mission?
    [The VA provided the goals and recommendations in the 
response to Question 1 of the Post-Hearing Questions and 
Responses for the Record, which will appear in the Appendix.]
    Mr. Muro. Yes, they meet twice a year. They will be meeting 
again this November. We can provide you notes and 
recommendations from the last meeting that they held.
    [The VA provided the Minutes from the November 2009 meeting 
of the Advisory Committee on Cemeteries and Memorials, which 
will be retained in the Committee files.]
    Mr. Hall. That would be greatly appreciated, sir. I 
understand that for safety reasons mourners are not allowed at 
graveside for funerals. However, this policy contradicts 
certain religious observances, such as Native American burial 
rituals, or Jewish gravesite practices. What is VA's policy for 
graveside burials? The policy for VA-funded State veterans 
cemeteries, to make accommodations for graveside services in 
respect to these practices? This is sort of a multipart 
question. Do State cemeteries have the discretion to restrict 
or deny graveside requests for safety reasons? If so, would it 
be possible for VA to offer a more concrete policy to its State 
veterans cemeteries to accommodate graveside services or 
religious beliefs?
    Mr. Muro. First of all, our policy is to conduct services 
at committal shelters. On occasion, we do go to the gravesite. 
Any time the family requests viewing of the lowering after the 
committal service, we will take them to the site. At some of 
our national cemeteries, there are viewing areas. At others, 
depending on the volume, they may go to within 20 feet of the 
gravesite. They take only the immediate next of kin. We 
encourage the State cemeteries to follow that policy as well.
    Mr. Hall. Thank you. Has the NCA adjusted its planning 
model to take into account project population growth, 
variances, and shifts? Specifically what resources and other 
measures would it entail to reduce the 75-mile radius, or lower 
the 170,000 threshold as suggested by the Independent Budget 
and various veterans groups?
    Mr. Muro. The study was conducted using the records that we 
maintain on the 75-mile radius. We are reviewing the population 
threshold at this time.
    Mr. Hall. When do you expect that review to be completed?
    Mr. Muro. It will be entered in our budget as we submit our 
budget through OMB.
    Mr. Hall. Thank you. In your testimony you accounted for 
2,899 OIF/OEF burials----
    Mr. Muro. Correct.
    Mr. Hall [continuing]. In which VA provided either burial, 
or headstones, or markers. Given that the total number of those 
who have died in these operations is almost double that number, 
what has happened to the remaining fallen servicemembers? Do 
you know where they are buried? Where their final resting place 
is? What contact and interaction did VA have with those 
veterans' survivors?
    Mr. Muro. Between Arlington, State cemeteries, national 
cemeteries, and the private cemeteries, many of them have 
chosen private cemeteries near their homes and we have provided 
headstones and markers for those when requested.
    Mr. Hall. I have a few more questions, but I am at this 
point going to recognize Ranking Member Lamborn for his 
questions. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Mr. Muro, and you may 
know this because Representative Salazar and I have met with 
you on this issue. There is a long history of a need for a 
cemetery in Southern Colorado. And this is compounded by the 
fact that Fort Logan, we heard from someone from there earlier, 
is scheduled to be at capacity in as little as 10 years. And it 
can take up to 5 years to build and establish and prepare for a 
new cemetery. Colorado veterans have been organized for years 
to bring a national veterans cemetery to this region. And since 
I entered office 3 years ago, I have twice introduced a bill 
with Mr. Salazar, which would direct the Secretary of the VA to 
establish a national cemetery in El Paso County for veterans of 
the Southern Colorado region. And this bill passed the House in 
the last Congress and we are optimistic about it passing the 
House this Congress.
    Also, last year Chairman Hall and I had a field hearing in 
Colorado Springs to discuss cemetery issues, including the 
potential inappropriateness 75-mile rule in a mountain State 
like Colorado. And Mr. Tuerk, your predecessor, almost could 
not get there from Denver, from the airport where he flew in, 
because there was bad weather and the Palmer Divide is 7,000 
feet. He almost could not get to the hearing. And that is what 
separates Colorado Springs from Denver.
    Also, he did promise, and this did take place, that someone 
from the VA would come and inspect sites in El Paso County for 
a potential national cemetery. That site visit did take place 
on November 10th, so I am wanting to ask you what the outcome 
of that visit was? Was there a report done? And what 
information did you learn from that site visit?
    Mr. Muro. First of all, we learned that we need to go out 
and look at other sites. We are in the process of putting a 
team together that does site visits. We will actually be 
putting a notice in the newspaper in that area for any sites 
that are 300 acres or larger, for either purchase or donation. 
We will be sending the team out to conduct visits. We are 
looking at how and where we going to replace Fort Logan before 
it closes. It is optimal for us to open the replacement 
cemetery for Fort Logan. In advance of closure of Fort Logan, 
because it will help it last a little longer. So we plan to do 
that, in the next few months and we will be going out there and 
looking in the area.
    Mr. Lamborn. Well, that is real exciting. Would you be able 
to, if there is any way our office can help you in that visit 
we would be very happy to do so.
    Mr. Muro. Yes, we will contact you when we get the team 
ready to go and we will work with you.
    Mr. Lamborn. Okay, well I appreciate that very much. And as 
a follow-up question, I know that in the last fiscal year for 
the first time a line item was created and $5 million was given 
to the VA to buy land in advance of closures. And I know that 
there are two to four different sites where that is being 
anticipated, including Fort Logan. Where does that stand in 
terms of sites you are looking at for that particular line 
item? And will you be spending the money that you get, I do not 
think you have spent the $5 million, but you may get up to, if 
Congress agrees with your request, up to another $25 million on 
top of that for this upcoming fiscal year. So if you could 
enlighten me as to where that stands?
    Mr. Muro. In reference to the funds, we did get $5 million 
in 2009 and we are requesting another $25 million to give us a 
total of $30.5 million. We are currently looking for land. We 
already sent a team out to Puerto Rico. They looked at about 18 
sites. We narrowed it down to possibly three sites. Once we do 
that, we will go to the Secretary and recommend those three 
sites and then we will do a study on them. We will make an 
offer on the one site that the Secretary approves. We will be 
doing the same thing in Colorado, and for Willamette national 
cemetery in Portland, Oregon. Willamette national cemetery is 
anticipated to close in 2019, so we want to purchase 
replacement land. The nice thing about Willamette national 
cemetery is that there is some property adjacent to the 
cemetery that we are currently in the process of negotiating 
with the owners for at this time. So we may be able to purchase 
that property. So that is where we will be using those funds in 
the near future to purchase property.
    Mr. Lamborn. Okay, well thank you for your efforts. And any 
way that my office can assist you we would love to do so. Thank 
you.
    Mr. Muro. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn. Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman. Thank you, Mr. 
Muro, for being here, and all the other panelists before you. 
Thank you for doing such a good job with regards to a situation 
that came up in my district. I am sure you are familiar with 
the private cemetery Burr Oak in Illinois.
    Mr. Muro. Yes, ma'am.
    Mrs. Halvorson. Where several of the veterans, especially 
their headstones and their entire burial, was desecrated. And 
Abraham Lincoln National Cemetery, which is in my district, we 
worked it out where we could offer them free reburial. So that 
was something that was very, very wonderful that we were able 
to do for the veterans. We were able to say rest in peace truly 
means rest in peace.
    However, I am really concerned about something that just 
came up with the fact of this outsourcing of jobs. Can you 
explain to me what is happening with outsourcing of our jobs? 
Are they truly being taken away from veterans and going to 
other companies, and not our veterans?
    Mr. Muro. Well, let me explain what we have done. As we 
open new national cemeteries, we keep certain jobs in-house. We 
do interments, the cemetery representative work, and we do the 
setting of headstones; we contract out the mowing. We have 
increased the full-time equivalent (FTE) in our system. We are 
up to 1,600. So we are doing some work in-house and work 
through some contracting. The same goes for our closed 
cemeteries, where it is more difficult to get staff. The 
gentleman spoke about south Florida national cemetery. It 
actually took us 2 years to fully staff that cemetery with 
veterans from those that were willing to apply. We have had 
high turnover there because of the cost of living. In many 
areas, the cost of living has forced us to look at other ways 
to get the work done. But each year we have increased our FTE. 
All of our new cemeteries open with approximately 15 FTE to 
manage and operate the cemetery. We are keeping the interment 
work in-house. We are keeping the cemetery representative work, 
and all of the public affairs-type work in-house. The mowing, 
the trimming, and the setting of headstones and markers we do 
contract out.
    Mrs. Halvorson. Well, because, we are doing everything in 
our power to create opportunities for veterans. I do not want 
to be embarrassed when I hear that veterans cemeteries and 
groups like yourselves are going outside of our veterans 
groups. And so----
    Mr. Muro. And those that we are contracting with are 
service-connected disabled veteran-owned businesses.
    Mrs. Halvorson [continuing]. Because----
    Mr. Muro. We are giving the work to veterans. We work with 
the Veterans Benefits Administration (VBA) to hire OIF/OEF 
veterans that are going through different training programs.
    Mrs. Halvorson. Okay.
    Mr. Muro. Each network of the five networks throughout the 
national cemetery system, were required last year and again 
this year to hire five OIF/OEFs.
    Mrs. Halvorson. Okay.
    Mr. Muro. So we are hiring veterans. In fact, 70 percent of 
our field employees are veterans.
    Mrs. Halvorson. Okay. I just want to make sure that is 
happening. I mean, we are doing everything----
    Mr. Muro. Of course.
    Mrs. Halvorson [continuing]. To make sure of that. Because 
we are having more and more veterans come back.
    Mr. Muro. Yes, certainly.
    Mrs. Halvorson. And that I just want assurances that we are 
doing everything we can to make sure that we are hiring 
veterans, we are giving incentives to hiring veterans. I do not 
want to be talking about that our Veterans Affairs, of all 
people, are not doing what we talk about all the time, but 
until we practice what we preach, that is not doing us any 
good.
    Mr. Muro. I understand. And we are.
    Mrs. Halvorson. Okay.
    Mr. Muro. We are making every effort to hire veterans.
    Mrs. Halvorson. Great. One last question is, one thing that 
I know that we are interested in exploring, and something that 
the Secretary is very interested in is homelessness amongst our 
veterans. Where you are concerned, can you take us through some 
of the situations? What happens with burial issues with regards 
to those who are homeless veterans? And what happens when a 
veteran does not have any family members? How do you deal with 
that situation?
    Mr. Muro. Our cemetery directors work closely with the 
different coroners' offices to determine eligibility. We work 
with VA regional offices to determine eligibility. So that if 
we do find that they are veterans, those individuals that have 
been found on the street, who are homeless, we can ensure that 
they can be buried in a national cemetery.
    Mrs. Halvorson. How do you know if they are a veteran if 
they do not have, if their----
    Mr. Muro. We will use fingerprints to obtain identification 
so long as they have not been cremated, and there are 
fingerprints we can work with the FBI with fingerprints to find 
veteran files. And we have been really successful throughout 
the country doing that, working with the coroners' offices.
    Mrs. Halvorson. Great. Thank you. Thank you, Mr. Chairman. 
I yield back.
    Mr. Hall. Thank you, Mrs. Halvorson. I just wanted to ask 
you Secretary Muro, continuing and following up on a comment 
that was made by the Ranking Member of the full Committee, Mr. 
Buyer, when he was here earlier, talking about artificial or 
digital bugle machines. As the token musician on the panel, I 
have been a French horn player and a decent, at one time at any 
rate, a decent trumpeter and bugler. There are many very 
accomplished high school band bugle players or trumpet players 
who can play a bugle just as well. Is this in your purview? Is 
this something that the NCA in the process of working with the 
families handles? I just came from a 9/11 ceremony, as did many 
of us, recently, where there were two buglers calling, 
answering back and forth to each other, playing real bugles. It 
is a very moving moment with the color guard standing at 
attention, and the crowd and survivors in one of my 5 counties, 
44 families, survivors of 9/11 victims. I can only imagine how 
much less moving the moment would have been if somebody had 
pushed a button on a tape, or a CD, or had an artificial 
reproduction. So, I am just curious, have you contacted, or do 
you work with local schools? Or, find people who actually play 
the instrument?
    Mr. Muro. Yes. There are a couple of things that we are 
doing to try to get real buglers at the cemeteries for not only 
services, but for ceremonies. We worked closely over the last 3 
years with Taps Across American, Bugles Across America, to get 
more interest in buglers in order to have them come and 
volunteer. We work with the local school districts, the ROTCs 
that may have buglers, and we try to get them scheduled for our 
services so that we can utilize them in support of families. 
The artificial bugle, it is actually a real bugle with an 
electronic device in it. Instead of looking like a mute, it 
sticks in there and they have a----
    Mr. Hall. Right. That is not a real bugle, I am sorry.
    Mr. Muro. You are right. But it is better than the boom 
box.
    Mr. Hall. Well, it looks better.
    Mr. Muro. Right.
    Mr. Hall. It is a boom box that is shaped like bugle.
    Mr. Muro. Exactly. But we are trying to get volunteers.
    Mr. Hall. I understand, sir. I----
    Mr. Muro. And there are those buglers that charge the 
families, unfortunately. You can see this in the paper. People 
advertise, ``I can play a bugle for this amount.'' We do not 
encourage it. But we cannot stop the families from hiring them.
    Mr. Hall. Right.
    Mr. Muro. So we try to work with the VSOs and with the 
schools----
    Mr. Hall. I appreciate that.
    Mr. Muro [continuing]. And the organizations.
    Mr. Hall. I used to get paid to play organ at Mass----
    Mr. Muro. Right.
    Mr. Hall [continuing]. When I was a teenager. But it did 
not mean that maybe I should not have volunteered. But they 
offered and I, I was mowing lawns and doing other things too. 
But at any rate, back to normal topics here. Are there 
entitlement rules for National Guard or Reservists limiting 
their eligibility for NCA burial benefits? Should those rules 
be changed to accommodate more Guard and Reservists?
    Mr. Muro. As long as they served active duty and they 
separated under conditions other than dishonorably and served 
for the time they were called up to active duty, then they 
actually have the full benefit of burial. If they are called up 
for 1 day, they are eligible for burial as long as they served 
that 1 day. If they are called up for 1 year and they serve 
that year, they are eligible for burial.
    Mr. Hall. That is great. If a veteran with no other 
dependents is buried in a national cemetery and his or her only 
survivor is a parent, should that parent be eligible, or is 
that parent eligible, for burial with the veteran?
    Mr. Muro. If the parent, either one of the parents, were a 
veteran, then they would be eligible and it would just be a 
burial arrangement in a national cemetery.
    Mr. Hall. Thank you. Also, in your testimony you mentioned 
the current budget authority and the stimulus money NCA 
received this year, along with 928 identified repair projects. 
If in 2008 NCA completed 304 projects and stimulus money will 
cover 395, what are the repair plans for the remaining 339 
projects? Does the 2010 budget cover those costs sufficiently?
    Mr. Muro. Yes, the FY 2010 budget will let us get more 
projects completed. We have a goal to try to complete them all 
within 5 years. That would include raise and realign projects, 
repair of sunken grave projects, road repair projects, some 
building repair work, and some of the historic monuments. We 
just completed a project here in DC at the Congressional 
Cemetery where we partnered with the National Park Service 
where we repaired the cenotaphs. Our team has received an award 
from the District of Columbia under the Historic Preservation 
for Restoration/Rehabilitation category.
    Mr. Hall. What challenges, if any, does the NCA experience 
when implementing the State Cemetery Grants Program?
    Mr. Muro. The challenge is for the States to come up with 
the necessary funds and the States having the property to 
develop into veterans cemeteries. That has been our biggest 
challenge. There are some States, for example, Kentucky, that 
have moved ahead, and have developed several State cemeteries. 
Some of the States do not want to operate a State veterans 
cemetery. For instance New York and Florida have never put in 
an application. So really our challenge is getting buy-in from 
the States and them having the funds for initial work so that 
we can later reimburse them.
    Mr. Hall. I would imagine right now with the States in the 
difficult fiscal straits they are in that it is more 
challenging than before.
    Mr. Muro. It is. But we do have some States that are ready 
to apply for 2010.
    Mr. Hall. Is Colorado one of them?
    Mr. Muro. No, Colorado is not one that wants a State 
veterans cemetery.
    Mr. Hall. Okay. I just also wanted to ask quickly, is the 
NCA paperless processing system and its first notice of death 
entry into its computer system compatible with the Veterans 
Benefits Administration IT systems? How is the communication 
with VBA handled, paper or electronic? How efficient is that 
process?
    Mr. Muro. We took it over in October. Right now we have all 
of the burial flag applications, First Notice of Death data 
from all the regional offices and the VA insurance center data 
sent to us in the NCA First Notice of Death Office in St. 
Louis. In the next 4 to 6 months this information will be sent 
to Quantico to be scanned into our system, so it will become 
completely paperless at that point. We then use the VBA's 
system, the Share program, and we use that electronic system to 
log in the First Notice of Death for veterans. We also get data 
from NCA and from the State veterans cemeteries. When we get 
that information, we put in First Notice of Death. We are 
working to make that process a totally electronic so once we 
order a headstone or marker it will automatically initiate the 
First Notice of Death electronically to all of VA.
    Mr. Hall. We have a vote in progress. So I just have a 
couple more questions for you, sir, and then we will be done. 
But I just wanted to first of all ask, given the situation in 
Illinois, if families request reburial of a veteran whose 
remains were previously interred at the Burr Oak Cemetery, it 
is my understanding that prior receipt of VA burial benefits 
such as funeral or burial allowances would not affect 
eligibility for reinterment at a national cemetery, nor the 
issuance of the new headstone or marker. So the family would 
not incur any additional costs. Is that correct?
    Mr. Muro. That is correct. The only cost----
    Mr. Hall. I know it is an unfortunate situation, but is 
there a standard NCA policy regarding reburial?
    Mr. Muro. Yes. That is the standard. If anyone wants to 
take their loved one from a private cemetery to a national 
cemetery, the only cost they would incur is the disinterment 
from the private cemetery. When they bring them to a national 
cemetery there is no cost for the interment in the national 
cemetery, for the service, for perpetual care, or for the 
headstone or marker.
    Mr. Hall. Last, just following up on Mrs. Halvorson's 
question regarding outsourcing to private contractors, it 
sounded from your response that, I was not sure if you were 
saying all or most, or that you were making an effort to hire 
contractors who are using veterans to do the work? Do you know 
or can you state what----
    Mr. Muro. All of our Millennium and maintenance contracts 
have gone to service-disabled veterans.
    Mr. Hall. Are those service-disabled veterans who owned 
businesses?
    Mr. Muro. Right, service-connected disabled veteran-owned 
businesses, correct.
    Mr. Hall. Okay. But are the actual workers doing the work--
--
    Mr. Muro. We encourage them to hire veterans and most of 
them do. They are after all veteran-owned companies so we 
encourage that.
    Mr. Hall. Okay. Thank you very much, Secretary Muro. I 
remind all Members they have 5 legislative days to revise or 
extend their remarks. Thank you, to all of our panelists for 
all of our panelists for their patients.
    Mr. Muro. Thank you.
    Mr. Hall. Thank you for the work you do for our country's 
veterans.
    Mr. Muro. Thank you, sir.
    Mr. Hall. This hearing stands adjourned.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


             Prepared Statement of John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    Good Morning Ladies and Gentlemen:
    Would you please rise for the Pledge of Allegiance?
    From the Revolutionary War to the current conflicts in Iraq and 
Afghanistan, American servicemembers have given their lives for this 
country.
    In 1862, President Abraham Lincoln created a national veterans' 
cemetery system and dedicated it, ``. . . for the soldiers who shall 
die in the service of the country.'' President Lincoln's sentiments and 
our undying gratitude are as palpable today as they were in 1862, 
evident in our commitment to provide benefits to ensure that our 
veterans are properly memorialized.
    Nevertheless, we may be falling short of our intended goals on some 
fronts.
    Although Congress authorized VA to provide veterans the option to 
receive burial and plot allowances and reimbursement of certain burial 
expenses, these benefits were created decades ago and have not kept 
pace with inflation. The value of the current $300 burial allowance and 
$300 plot allowance for qualifying veterans has diminished as funeral 
and burial costs have increased at a higher rate than the average 
inflation rate.
    I am also concerned about VA's current cemetery policies, which 
seem to leave large numbers of veterans un-served by a burial option. 
Under the current standard, new national cemeteries are established in 
areas where the un-served population is at least 170,000 veterans 
within a 75-mile radius. This means that several areas with large 
numbers of veterans, such as where the population is more than 110,000 
will remain un-served by a VA burial option.
    Moreover, VA's current strategic goal of reaching 90 percent served 
would require an additional 31 cemeteries beyond those already in 
operation or planned as of 2001. However, according to a study 
conducted by ICF International, there are no locations in the U.S. that 
will meet the current criteria for the establishment of a new national 
cemetery until 2015. Even at that time, only one community will reach 
the population threshold of 170,000 veterans. It is evident that 
changes to the current 75-mile service area standard may be in order. 
All of these burial benefits concerns negatively impact the survivors 
left behind and I want to further examine this critical aspect of the 
issues with VA as well.
    Additionally, the National Shrine Mandate holds that ``all national 
and other veterans' cemeteries under control of the NCA shall be 
considered national shrines.'' Several factors will impact NCA's 
ability to meet and maintain the National Shrine Mandate, namely: the 
growing number of interments, a change in burial preferences, 
population migration, and an aging infrastructure. I believe that VA 
should conduct a preemptive review of the NCA's obstacles in meeting 
the National Shrine Mandate in order to try thwart new issues that may 
arise and ensure that existing ones do not grow in complexity.
    Last, I look forward to hearing from Secretary Cleland of the 
American Battle Monuments Commission, Superintendent Metzler of 
Arlington National Cemetery and the rest of our esteemed witnesses. I 
believe that we can bring continuous improvements to our system of 
memorializing our courageous veterans by ensuring that their burial 
benefits and final resting places reflect the debt of their service.
    Thank you, I now yield to Ranking Member Lamborn for his opening 
statement.

                                 <F-dash>

      0Prepared Statement of Hon. Doug Lamborn, Ranking Republican
   Member, Subcommittee on Disability Assistance and Memorial Affairs
    Thank you Mr. Chairman for holding this hearing on America's 
national cemeteries.
    I thank our witnesses in advance for their testimony today and for 
their dedication to serving America's veterans and their families.
    Properly honoring a deceased veteran is one of our most solemn and 
indeed sacred obligations.
    These patriots have earned honored repose in a national shrine. 
They and their families are due the tribute and thanks of a grateful 
Nation.
    As members of the Greatest Generation pass from our presence, we 
are seeing increased demand on all of our national cemeteries. VA 
estimates that interments in as national cemeteries will rise from the 
current level of 2.9 million to 3.4 million by 2014.
    Mr. Chairman, it is for that reason that I thank you for helping my 
efforts to pass H.R. 174 which I introduced with my good friend Mr. 
Salazar earlier this year. H.R. 174 would establish a VA national 
cemetery in southern Colorado and greatly benefit those veterans and 
families in this fast-growing area.
    One reason for the continued delay in building this cemetery is 
that the Southern Colorado region does not meet VA's subjective 
standards for new construction.
    I believe that there is a better way to determine need than drawing 
circles in a 75 mile radius around a national cemetery to determine 
where the most ``underserved'' veterans are.
    There are many other factors that need to be taken into account 
including travel time to and from national cemeteries, access to public 
transportation in the area, and other factors that are more realistic 
than a large circle on a map.
    However, I know that this problem is not just limited to Southern 
Colorado; and that if we polled other Members we would find these 
problems and concerns extend to many rural and urban regions like 
Nebraska, New York City, Los Angeles, Buffalo, NY, and many other areas 
that are adversely affected by VA's somewhat arbitrary rules.
    Passing H.R. 174 would be an important first step in addressing 
this problem and is identical to H.R. 1660 that passed this Committee 
and the whole house last congress. Mr. Chairman, I thank you for your 
continued support of this bill and I hope that the Full Committee will 
consider this bill soon.
    I want to thank everyone once again for being here and I am looking 
forward to the testimony.
    Thank you Mr. Chairman, I yield back.

                                 <F-dash>
                 Prepared Statement of Hon. Jeff Miller
    Thank you, Mr. Chairman.
    I appreciate your holding this hearing today. We can all agree to 
the importance of continuing to honor our veterans after they have 
passed into the next life. Barrancas National Cemetery, in my district 
in Northwest Florida, is the final home to over 36,000 veterans who 
fought for this Nation through various conflicts. Every time I step 
foot on those grounds, I am reminded of their courage, and seeing the 
honors bestowed upon them during a burial service is truly a moving 
experience.
    The importance of the ceremonies extends to the families of these 
brave soldiers as well. During the 109th Congress, as Chairman of this 
Subcommittee, I worked with many other Members to ensure that families 
of the deceased were given the respect they deserved during burial 
ceremonies. It is appalling to me people would disrupt these solemn 
moments, and not let families mourn in peace.
    Having also seen Normandy American Cemetery, overseen by the 
American Battle Monuments Commission, I am further assured that our 
soldiers buried abroad are also well looked after. The annual D-Day 
ceremony there is a strong reminder of what this Nation has been 
through, and I know their sacrifices have made this world a better, 
safer, and freer place.
    I look forward to today's testimony. Much of what is in place at 
national cemeteries and American Battle Monuments is considered very 
successful. With your help and input, we can make it even better.
    I yield back.

                                 <F-dash>
                 Prepared Statement of Hon. Steve Buyer
    Thank you Mr. Chairman and I appreciate your willingness in 
allowing me to address the Subcommittee on this important issue.
    It has been said throughout history that one way to judge and study 
a society is examine the way in which they honor those that have died 
in defense of that society.
    For the most part, our society continues to honor our Nation's 
heroes with the respect and dignity that their sacrifices deserve.
    However it is becoming increasing clear that we have four standards 
when we talk about the conditions of our Nation's cemeteries. We have 
what most would consider the gold standard, which refers to the 
overseas cemeteries under the jurisdiction of the American Battle 
Monuments Commission, and sets the bar in beauty and attention to 
detail.
    Not far behind is the standard set by Arlington National Cemetery 
which is one of our oldest national cemeteries and is truly a national 
treasure. Third is the standard set by the National Cemetery 
Administration and its 133 national cemeteries.
    To ensure that national cemeteries, under its jurisdiction both new 
and old, are maintained as national shrines, VA is at work fulfilling 
its important National Shrine Commitment. That effort, however, is 
still years from completion.
    Disappointing exceptions to these high standards do exist, however.
    Several years ago it came to my attention that the condition of the 
14 national cemeteries under the jurisdiction of the National Parks 
Service are not maintained at the same high level as the national 
cemeteries administered by the Department of Veterans Affairs. Of these 
14 park service cemeteries, only two of them, Andersonville in Georgia 
and Andrew Johnson in Tennessee, are still open and regularly inter 
veterans.
    When I visited Andersonville in the spring of 2007, I found the 
conditions of the cemetery to be unacceptable and not to the standard 
that these heroes have earned.
    The grave markers had not been washed in some time and were out of 
alignment and the grass and shrubbery was not properly cared for and in 
many cases looked like it had not had attention for several months. It 
was clear that much improvement was needed to even reach the level of 
being minimally acceptable.
    While I am told that the conditions at Andersonville have improved, 
I continue to be concerned about what conditions NPS considers 
acceptable. After a conversation I had with Secretary Salazar earlier 
this year he committed to conducting a full review of all of the NPS 
cemeteries.
    I believe this review should be an important first step in NPS 
creating their own national shrine commitment similar to the one in 
NCA. I am disappointed that despite strong support from Chairman Dicks 
and Ranking Member Simpson of the Appropriations Subcommittee on 
Interior and Environment the parks service continues to drag its feet 
on this review. I look forward to hearing more about this issue from 
our NPS witness today.
    The presence of four standards at our national cemeteries is not an 
acceptable way to honor our veterans. It should not matter if the grave 
is overseas, at Arlington, or from before the civil war; they all 
should be maintained to the same high standard that recognized their 
sacrifice for our freedom.
    Mr. Chairman, if it is within the capacity of Congress to help 
ensure that any national cemetery now deficient rises to the highest 
standards, we must not delay in that work.
    Thank you Mr. Chairman, and I yield back.

    [GRAPHIC] [TIFF OMITTED] 53429A.001
    
    [GRAPHIC] [TIFF OMITTED] 53429A.002
    
    [GRAPHIC] [TIFF OMITTED] 53429A.003
    
    [GRAPHIC] [TIFF OMITTED] 53429A.004
    
    [GRAPHIC] [TIFF OMITTED] 53429A.005
    

                                 <F-dash>
           Prepared Statement of Hon. Max Cleland, Secretary,
                  American Battle Monuments Commission
    Mr. Chairman and Members of the Subcommittee.
    Thank you for this opportunity to appear before you to share with 
the Subcommittee the manner in which the American Battle Monuments 
Commission honors our fallen.
    We do not maintain national cemeteries within the United States; we 
do not provide veterans' benefits or services; nor are we responsible 
for survivor benefits and programs. Those responsibilities rest with 
the Department of Veterans Affairs and the Department of Defense. The 
importance of those services has been recognized since the founding of 
our Nation. In the words of George Washington, ``A Nation that does not 
care for its soldiers will cease to exist as a Nation.''
    Honoring our Nation's fallen has been the focus of our Commission 
since its creation by Congress in 1923. Our purpose was eloquently 
stated in 1934 by the words of our first Chairman, General of the 
Armies John J. Pershing, who wrote: ``. . . to relatives of soldier 
dead, and to every American citizen, I can give assurance that the U.S. 
Government has kept and will continue to maintain its trust in 
perpetuating the memory of the bravery and sacrifices of our World War 
heroes. Time will not dim the glory of their deeds.''
    The mission of the American Battle Monuments Commission--our 
purpose--is to honor the fallen by commemorating the service, 
achievements and sacrifice of America's armed forces: our war dead, 
missing in action, and those that fought at their side.
    This mission is as old as antiquity. In his history of the 
Peloponnesian War, Thucydides quotes the Funeral Oration delivered by 
Pericles after the first battles of the war:
    ``For heroes have the whole Earth as their tomb; and in lands far 
from their own, where the column with its epitaph declares it, there is 
enshrined in every breast a record unwritten with no tablet to preserve 
it, except that of the heart.''
    ABMC is the guardian of 24 permanent military cemeteries and 
twenty-five memorials, monuments and markers. Three memorials are 
located in the United States; the remaining memorials and all of the 
Commission's cemeteries are located in 14 foreign countries, the U.S. 
Commonwealth of the Northern Mariana Islands, and the British 
dependency of Gibraltar. Nearly 125,000 U.S. war dead are interred in 
these cemeteries: 31,000 from World War I; 93,000 from World War II; 
and 750 from the Mexican War. Nearly 6,200 American veterans and others 
are interred in the Mexico City National Cemetery and Corozal American 
Cemetery in Panama.
    Commemorated individually by name on stone tablets at the World War 
I and II cemeteries and three memorials on U.S. soil are more than 
94,000 U.S. servicemen and women who are missing in action or were lost 
or buried at sea in their general regions during the World Wars and the 
Korean and Vietnam Wars.
    Our cemeteries are recognized as being among the most beautiful 
sites of their nature in the world. But our responsibility goes beyond 
simply maintaining beautiful and inspirational commemorative sites. We 
have an equally important duty to perpetuate the stories of competence, 
courage and sacrifice that those we honor can no longer tell for 
themselves.
    It is not enough that future generations honor our war dead by 
their visits. When the Commission was raising funds to build the World 
War II Memorial, Tom Hanks offered his time and talent to serve as the 
campaign's national spokesman. One of the public service ads produced 
for that campaign depicted a World War II helmet with a bullet hole 
through its side. The headline read, ``Dying for freedom isn't the 
worst thing that can happen. Being forgotten is.''
    Future generations must never forget nor fail to understand the 
significance of what our fellow Americans have done for us and for 
others around the world. We have a responsibility to tell their stories 
at each of our overseas cemeteries, and we have committed ourselves to 
doing just that.
    As a war correspondent in England, Walter Cronkite met Captain 
Donald Stockton, a member of the U.S. Army Air Forces, in February 
1943, just after Stockton ``had brought an almost tailless Fort back 
from a raid over France.'' ``Don turned out to be,'' Cronkite said, 
``the realest man I ever met.''
    Three months later, Cronkite returned to Alconbury where Stockton 
and his crew of the 303rd Bomb Group were based. In one of his most 
famous stories of World War II, ``Nine Crying Boys,'' Cronkite told of 
seeing one bomber firing the red distress flares signaling an injured 
on board. As the bomber pulled up and came to a stop, Cronkite writes 
of counting the number of men coming off the aircraft. There were only 
nine out of a crew of 10. ``And as the crew came closer he realized 
that every crew member was shaken, tears pouring down their faces, and 
that the crew he was watching was that of Don Stockton.''
    Don Stockton had flown his last mission, his 24th, one short of a 
complete combat tour at which point he could have gone home. On May 14, 
1943, a German fighter attacked Stockton's aircraft. Only one bullet 
hit the plane. That bullet came through the cockpit window, striking 
the pilot Stockton. Cronkite wrote that Stockton was ``one of those 
American boy pioneers who in the lean winter days 1942-43 went out 
daily over Germany in a handful of Fortresses without fighter escort. 
They were the ones who paved the way for the mighty high-altitude 
precision attacks of today.'' Stockton was awarded the Distinguished 
Flying Cross, Silver Star and Air Medal.
    Years later Walter Cronkite came to Cambridge American Cemetery in 
England to film a documentary. It was said that the real reason 
Cronkite was filming at the cemetery was to visit a specific grave. The 
gravesite was that of Captain Donald Stockton.
    Buried at Aisne-Marne American Cemetery in France is Weedon 
Osborne, the cemetery's one Medal of Honor recipient. Osborne, a Junior 
Grade Lieutenant in the Navy's Dental Corps, was assigned duty with the 
6th Marine Regiment during World War I. During the battle of Belleau 
Wood, Osborne's unit participated in the advance on Boursches in the 
Chateau-Thierry region.
    Osborne sought to aid the wounded during the battle and was killed 
while attempting to carry an injured officer to safety on June 6, 1918. 
He was posthumously awarded the Medal of Honor and the Distinguished 
Service Cross for his actions on that day. The destroyer USS Osborne, 
which served during the 1920s, was named in his honor. Weedon Osborne 
was 25 years old at the time of his death.
    Weedon Osborne is but one of thousands of Americans who now rest, 
row on row, beneath white Latin crosses and Stars of David in the 
hallowed ground of the Aisne-Marne American Cemetery. The unrecovered 
and unidentified remains of hundreds more lie in the battle-scarred 
forest and wheat fields of Belleau Wood--young, known but to God, and 
waiting for us to tell their stories.
    Our overseas cemeteries and memorials are tangible representations 
of American values--of our Nation's willingness in two world wars to 
come to the defense of our own freedoms and the freedoms of others. 
These magnificent national treasures instill patriotism, evoke 
gratitude and teach important lessons of history to all who visit.
    Two years ago we opened a new visitor center at Normandy American 
Cemetery. The Commission recognizes that the war dead at Normandy are 
not the only American war dead buried overseas who deserve to have 
their stories told. Accordingly, we are adapting the interpretive 
techniques used so effectively at Normandy to our other visitor 
buildings around the world.
    Our interpretive plan does not envision building large new 
facilities at our twenty-three other cemeteries, as we did at Normandy, 
which is our most visited cemetery. Instead, we expect to renovate and 
modernize existing visitor buildings to accommodate the types of 
exhibits, interactive programs, films and visitor services that have 
been so well received at Normandy.
    We soon will begin facility and exhibit planning at Cambridge, 
where we will tell stories of the Battle of the Atlantic, the Strategic 
Air Campaign, and the buildup to D-Day.
    We want to complete the renovation there by the spring of 2012--in 
time to welcome the thousands of athletes and visitors who will 
converge on London for the 2012 Summer Olympics. The World War II 
Sicily-Rome American Cemetery in Italy and the World War I Oise-Aisne 
American Cemetery in France will follow Cambridge as we move forward on 
this initiative.
    We also are well into exhibit design at Pointe du Hoc, to complete 
the D-Day story begun at Normandy. The emphasis there will be on low-
profile panels placed along a self-guided walking tour of the 
battleground, which appears much as it did when the Rangers captured 
the Pointe on June 6, 1944.
    Concurrently, our project to stabilize the cliffs of Pointe du Hoc 
is advancing well. Although visitors are free to walk most of the 
grounds, the Ranger Monument and the German observation bunker it sits 
on have been off limits for several years because of safety concerns 
resulting from significant erosion at the base of the cliffs. The 
French have been very supportive of this initiative, and we are working 
closely with them in planning the restoration work necessary to 
preserve this iconic site. If all goes well, we should have the 
restoration and interpretive work completed by the spring of 2011.
    Following both world wars we built magnificent cemeteries and 
memorials in the lands where our men and women fell--inspirational 
symbols of American values and permanent reminders to all the world's 
citizens of the unselfish service and sacrifice of our armed forces. 
Our cemeteries and memorials are enriched with classical architecture 
and magnificent works of art. Among those artworks are battle maps 
created by skilled craftsmen to depict the operational campaigns and 
troop movements associated with those memorialized at the site.
    Beginning with the Korean War it has been U.S. policy to bring our 
war dead home, and the U.S. Government is committed to obtaining the 
fullest possible accounting for Americans held captive or otherwise 
missing from our Nation's ongoing and past conflicts.
    We do not envision a change in that philosophy, so building new and 
permanent memorial cemeteries overseas is unlikely. Nor can we assume 
that it will be possible or advisable to build permanent memorials 
commemorating our presence in the lands where we fight today.
    Within the U.S., there are processes for establishing national 
commemorations. The Commemorative Works Act defines those processes for 
the National Capital Area. As a Nation we have commemorated the 
eighteenth century founders who led us through the Revolutionary War 
and the nineteenth century political and military leaders who preserved 
the Union in the Civil War. We have commemorated the twentieth 
century's First World War, Second World War, Korean war, and Vietnam 
War.
    When he dedicated the East Coast Memorial on the tip of Manhattan, 
President Kennedy said, ``. . . every generation of Americans must be 
expected in their time to do their part to maintain freedom for their 
country and freedom for those associated with it. . . there is no final 
victory, but rather all Americans must be always prepared to play their 
proper part in a difficult and dangerous world.''
    We must promise that all our warriors who fall in battle will not 
do so in anonymity and that regardless of the outcome their country 
will remember and honor their effort.
    The poet Archibald MacLeish challenged us to do no less with these 
words: ``. . . We leave you our deaths: give them their meaning . . .''
    Thank you, Mr. Chairman. This concludes my prepared statement. I 
will be pleased to respond to your questions.

                                 <F-dash>
              Prepared Statement of John C. Metzler, Jr.,
              Superintendent, Arlington National Cemetery
    Mr. Chairman and Distinguished Members of the Subcommittee:
INTRODUCTION
    I appreciate the opportunity to testify before this Subcommittee, 
on behalf of the Secretary of the Army, in support of Arlington 
National Cemetery. Arlington National Cemetery is the Nation's premier 
military cemetery. Well known edifices and historic sites include the 
Tomb of the Unknowns, the old and new Memorial Amphitheaters, the 
Columbarium, the graves of Presidents Kennedy and Taft, and the 
Visitors Center. It is an honor for me to represent the cemetery. With 
me today is Ms. Lynn Heirakuji, the Deputy Assistant Secretary of the 
Army for Personnel Oversight.
CHALLENGES OF MANAGING ARLINGTON NATIONAL CEMETERY
    Management of Arlington National Cemetery presents challenges 
unique among the Nation's national and military cemeteries. Not only is 
Arlington National Cemetery a heavily visited shrine honoring the past 
service of the men and women of our Armed Forces, it continues to serve 
as an active burial place for today's military men and women. Since the 
funeral of President John F. Kennedy in 1963, Arlington National 
Cemetery has become a major Washington area tourist attraction. During 
fiscal year 2008, Arlington National Cemetery accommodated 
approximately 4 million visitors, making Arlington National Cemetery 
one of the most visited historic sites in the National Capital Region.
    In fiscal year 2008, there were 4123 interments and 2781 
inurnments. In fiscal year 2009, we estimate there will be 4170 
interments and 2800 inurnments, and in fiscal year 2010, we estimate 
there will be 4170 interments and 2800 inurnments. Ten formal requests 
for exception to the interment policy were received during this current 
fiscal year, seven of which were for family members being interred in 
an existing gravesite approved by the Superintendent, three other 
requests were not approved by the Secretary of the Army which would 
have required a new gravesite.
    During the same year, about 3,000 ceremonies were conducted at 
Arlington National Cemetery. Thousands of visitors, both foreign and 
American, visit Arlington National Cemetery to participate in a variety 
of events, ranging from a simple wreath laying ceremony to Veterans Day 
and Memorial Day ceremonies attended by the President of the United 
States.
    To sustain our ability to carry out the cemetery's mission into the 
future, several broad planning efforts are necessary. This year, it was 
determined that the Master Plan for the cemetery needs to be reviewed 
and updated, as appropriate. The Master Plan will be the overall guide 
as we take steps to address rehabilitation and construction required at 
the cemetery and its potential impact on the current burial policy.
VETERAN BURIAL BENEFITS
    Similar to the National Cemeteries administered by the Department 
of Veterans Affairs, nearly all honorably discharged veterans have the 
right to be inurned in Arlington National Cemetery; however, due to the 
stricter criteria for ground burial, fewer veterans are eligible for 
ground burial. With many veterans and their spouses dying every day 
(most from WWII), Arlington National Cemetery conducts an average of 27 
funerals daily.
    Unless otherwise prohibited and provided that the last period of 
active duty of the veteran of the United States Armed Forces ended 
honorably, any person who served at least 1 day of active duty for 
other than training is eligible for inurnment in the Columbarium. Those 
eligible for ground burial include servicemembers who die while serving 
on active duty; retired members of the Armed Forces eligible to receive 
retired pay who served at least 1 day of active duty for other than 
training; any former member of the Armed Forces awarded the Medal of 
Honor, Distinguished Service Cross (Air Force Cross or Navy Cross), 
Silver Star, Purple Heart, or Prisoner of War Medal; the current and 
former President of the United States; any person who served on active 
duty for at least 1 day of active duty for other than training and held 
an elective office of the U.S. Government (for example, Senator Ted 
Kennedy, who served on active duty in the United States Army for 2 
years) or served in the Office of the Chief Justice or of an Associate 
Justice of the Supreme Court. The spouse, widow, or widower, minor 
child, and unmarried adult dependent child of any of the eligible 
veterans may also be buried at Arlington National Cemetery.
    Burial benefits available at Arlington National Cemetery include a 
gravesite, niche, or memorial site; opening and closing of the grave, 
perpetual care, a Government headstone or niche marker provided by the 
Department of Veterans Affairs, and a burial flag at no cost to the 
family. Cremated remains are buried or inurned in the same manner and 
with the same honors as casketed remains.
    Burial benefits available for spouses and dependents buried in 
Arlington National Cemetery include burial with the veteran, perpetual 
care, and the spouse's or dependent's name and dates of birth and death 
inscribed on the veteran's headstone, at no cost to the family. 
Eligible spouses and dependents may be buried, even if they predecease 
the veteran.
OPERATION ENDURING FREEDOM AND OPERATION IRAQI FREEDOM CASUALTIES
    Over 127 fallen servicemembers serving in Operation Enduring 
Freedom and over 445 fallen servicemembers serving in Operation Iraqi 
Freedom are laid to rest at Arlington National Cemetery. Most of 
today's war casualties are buried in the renowned area called ``Section 
60.'' Among those laid to rest in section 60 is Specialist Ross A. 
McGinnis, who was awarded the Medal of Honor for his heroic actions in 
Iraq. Sergeant First Class Paul R. Smith, another of Army's Medal of 
Honor recipients from Operation Iraqi Freedom, is memorialized in 
Memorial Section D.
FUNERAL HONORS
    Effective January 1, 2009, the Secretary of the Army authorized all 
Soldiers who die as the result of wounds received in action and are 
being interred, inurned, or memorialized at Arlington National Cemetery 
to receive the following additional elements of military funeral 
honors: an escort platoon, a colors team, a band, and a caisson 
section. Following the Army's decision, all other Services adopted 
policies in line with the Army's change. The Army's caisson section is 
made available to support additional military funeral honors at ANC for 
other Services in support of their policies. Arlington National 
Cemetery and the Military District of Washington are committed to 
expediting these funerals within 2 weeks of the request and to 
providing additional elements of military funeral honors to all 
servicemembers who die as a result of wounds received in action.
COMMEMORATIVE BOOKS FOR FAMILIES OF VALOR
    Just over 11 percent of America's casualties from today's conflicts 
are buried at Arlington National Cemetery. Because so few of these 
families live in the Washington area, a special beautiful, 
commemorative gift book, titled, ``Where Valor Rests--Arlington 
National Cemetery'' was produced by the Arlington National Cemetery 
Commemorative Project, Inc., in conjunction with Rich Clarkson and 
Associates and the National Geographic Society, is presented to the 
family of each newly interred serviceperson who paid the ultimate 
sacrifice during our country's current conflicts. The book salutes 
those of our armed forces who now rest in Arlington National Cemetery 
and shows the solemn beauty of Arlington, becoming a special keepsake. 
In addition, each child of a fallen servicemember is presented a book, 
titled, ``For Children of Valor--Arlington National Cemetery.'' The 
book is a tool given to assist children affected by loss of a close 
loved one and helps them to understand and process their grief. The 
book is also a good resource guide for parents. Dr. Stephen Cozza, 
psychiatrist and expert in child trauma with the Uniformed Service 
University of Health Sciences, advised and helped author portions of 
the book.
CONCLUSION
    Mr. Chairman, this concludes my remarks. I will be pleased to 
respond to questions from the Subcommittee.

                                 <F-dash>
               Prepared Statement of Katherine Stevenson,
                 Assistant Director, Business Services,
         National Park Service, U.S. Department of the Interior
    Mr. Chairman, we appreciate your invitation to appear at this 
hearing on honoring fallen veterans to discuss the national cemeteries 
that are administered by the National Park Service. We consider it a 
great honor to serve our veterans and their families at these national 
cemeteries and we are committed to ensuring that our cemeteries are 
maintained at a standard worthy of those who fought for our country. We 
are particularly pleased to have the opportunity to inform the 
Subcommittee about the work we have done to improve the condition of 
the cemeteries under our stewardship since we last testified before you 
on this subject on May 8, 2007.
Background on National Park Service Cemeteries
    The National Park Service (NPS) administers 14 of our Nation's 
national cemeteries. With the exception of Andrew Johnson National 
Cemetery in Tennessee and Custer National Cemetery at Little Bighorn 
Battlefield in Montana, the cemeteries that the NPS manages date to the 
Civil War. Most of these cemeteries are located within park units that 
tell the story of the Civil War campaign or conflict in which the 
interred soldiers served. A list of all NPS national cemeteries and the 
sites with which they are associated is included at the end of this 
testimony.
    Many of the Civil War national cemeteries, established soon after 
the war ended, were located at or near the battlefield itself. In the 
late 19th and early 20th centuries, Civil War veterans and their 
families began to pay tribute to their fallen comrades by erecting 
monuments and memorials. Beginning in 1933, jurisdiction over many of 
these national battlefields, national historic sites, and national 
military parks, including the monuments, memorials and national 
cemeteries, was transferred to the NPS. The NPS manages these sites 
respectfully, interpreting military campaigns, conflicts, and ordeals 
that the soldiers endured. These sites, including the national 
cemeteries, are visited by thousands of people each year who learn of 
the veterans' sacrifices and want to pay their respects to these 
veterans. Visitors are provided interpretive information about the 
cemeteries themselves. At Stones River National Cemetery, for example, 
there is a display about the local African-American community that was 
formed from the laborers who constructed the cemetery.
    Two of the national cemeteries administered by the National Park 
Service remain open to veterans for burial. They are Andersonville 
National Cemetery, located in Southwest Georgia, and Andrew Johnson 
National Cemetery, located in East Tennessee. In 2008, 158 veterans and 
their dependents were interred at Andersonville and 53 were interred at 
Andrew Johnson.
Operation of National Cemeteries
    The NPS follows the same rules and regulations for burials at its 
national cemeteries that apply to cemeteries administered by the 
Department of Veterans Affairs (VA). The NPS also follows the M40 
series of manuals written by VA's National Cemetery Administration 
(NCA) for operation of national cemeteries. NPS orders headstones from 
the same facilities that produce headstones for NCA-managed cemeteries, 
adheres to standards for placement and alignment of stones, and 
replaces headstones that need second inscriptions for spouses.
Cemetery Care Practices
    Recent concerns have been expressed regarding the appearance of the 
national cemeteries managed by the NPS. The NPS takes pride in serving 
as a guardian of the Nation's historic treasures, including its 
national cemeteries. Because these cemeteries are part of the historic 
fabric of the park units, certain maintenance practices are different 
from those used by the NCA.
    For example, the NPS places a high value on maintaining the 
historic appearance of the national cemeteries, including retaining as 
many original headstones as possible, particularly the more historic 
headstones. Consequently, NPS realigns stones less frequently than NCA, 
and does it by hand, rather than machine, in order to avoid damaging 
the stones. NPS also cleans headstones using a pressure washer, rather 
than bleaching chemicals, in order to better preserve the lettering and 
the surface of the stone. This may result in headstones that are greyer 
than headstones maintained by VA but it also results in the long-term 
preservation of the headstones. In addition, NPS normally replaces dead 
trees to maintain the historic landscape. Therefore, NPS cemeteries 
have more tree cover than other national cemeteries. Shade encourages 
microbial growth on headstones and makes it hard for grass to grow. 
Tree roots also make it harder to maintain headstone alignment.
    Because of our expertise in preservation, others, including federal 
agencies such as the NCA, have turned to the NPS's National Center for 
Preservation Technology and Training (NCPTT) for guidance on cemetery 
care. Presentations given by NCPTT either through in-person workshops 
or electronic means on the conservation of cemeteries or materials 
directly applicable to cemeteries had 205 participants in 2007, 239 in 
2008, and 146 so far in 2009. NCPTT has been consulted for help with 
care of monuments at Congressional Cemetery and with the Tomb of the 
Unknowns at Arlington National Cemetery. NCPTT was also hired by the 
NCA to conduct a study on chemical cleaners to find an alternative to 
its current products for cleaning headstones. We are pleased to serve 
as such a resource.
Investments in Cemetery Care
    The NPS continues to invest in our national cemeteries. Since the 
NPS testimony 2 years ago, at which time we reported that over $1 
million in project funds had been spent in the prior 5 years on 
cemetery repair projects, project funds for national cemeteries have 
increased dramatically. In FY 2008 and FY 2009, NPS has invested about 
$4.5 million in cemetery repair projects in addition to funding for 
routine maintenance. This figure includes $1.5 million from the 
American Recovery and Reinvestment Act. These projects include 
replacing and aligning historic headstones, storm cleanup, repairing 
and repainting historic walls that surround our cemeteries, removing 
hazardous trees, and repairing structures. Another $1.9 million in 
supplemental emergency storm and flood relief funding is being spent on 
the visitor center that serves Chalmette National Cemetery and 
Chalmette Battlefield, in Louisiana, which was destroyed in Hurricane 
Katrina.
    In addition to these projects, each unit of the National Park 
Service with a national cemetery also has maintenance staff who 
dedicate at least part of their time to maintaining headstones and 
grounds. Operating budgets for every one of these parks have increased 
in each of the last two fiscal years.
    As discussed above, NPS also invests in cemetery maintenance by 
providing training in this area to interested persons and agencies. In 
addition, some NPS employees have taken courses at the NCA National 
Training Center in St. Louis, which have been very valuable.
Review of National Park Service Cemeteries
    The NPS is in the process of completing a review of the care of its 
national cemeteries. In July, a team of NPS experts made site visits to 
the cemeteries at Andersonville, Andrew Johnson, Stones River, and Fort 
Donelson, as well as a NCA cemetery in Nashville for comparison. The 
review will provide detail on the differences between the NPS and NCA 
practices in cemetery care. It may also contain recommendations to the 
NPS Director to address some of the cemetery appearance issues that 
Ranking Member Steve Buyer has raised.
    The NPS is committed to ensuring that our national cemeteries 
appropriately honor those who have fought for our country. We will 
continue to work with the VA on these issues.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions Members of the Committee may have.
National Cemeteries and Associated National Park System Units
   Andersonville National Cemetery at Andersonville National Historic 
Site, Georgia;
   Andrew Johnson National Cemetery at Andrew Johnson National Historic 
Site, Tennessee;
   Antietam National Cemetery at Antietam National Battlefield, 
Maryland;
   Battleground National Cemetery at Rock Creek Park, District of 
Columbia;
   Chalmette National Cemetery at Jean Lafitte National Historical Park 
and Preserve, Louisiana;
   Custer National Cemetery at Little Bighorn Battlefield National 
Monument, Montana;
   Fort Donelson National Cemetery at Fort Donelson National 
Battlefield, Tennessee;
   Fredericksburg National Cemetery at Fredericksburg and Spotsylvania 
County Battlefields Memorial National Military Park, Virginia;
   Gettysburg National Cemetery at Gettysburg National Military Park, 
Pennsylvania;
   Poplar Grove National Cemetery at Petersburg National Battlefield, 
Virginia;
   Shiloh National Cemetery at Shiloh National Military Park, 
Tennessee;
   Stones River National Cemetery at Stones River National Battlefield, 
Tennessee;
   Vicksburg National Cemetery at Vicksburg National Military Park, 
Mississippi; and
   Yorktown National Battlefield at Colonial National Historical Park, 
Virginia.

                                 <F-dash>
        Prepared Statement of John L. Wilson, Assistant National
            Legislative Director, Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have this opportunity to appear before you on 
behalf of the Disabled American Veterans (DAV) to present our views on 
the current Department of Veterans Affairs Burial Benefits Program, its 
national cemetery policy, and the way that VA and the American Battle 
Monuments Commission (ABMC) can better serve veterans and their 
survivors. In accordance with our congressional charter, the DAV's 
mission is to advance the interests, and work for the betterment, of 
all wounded, injured, and disabled American veterans.
    As you know, the VA National Cemetery Administration (NCA) 
maintains more than 2.9 million gravesites at 130 national cemeteries 
and 33 additional installations in 39 States and Puerto Rico. 
Currently, there are more than 7,000 acres within established NCA 
installations. Just more than half of this land is undeveloped.
    Including available gravesites and the undeveloped land, there is 
the potential to provide more than 4 million resting places. In 
addition to the maintenance of these facilities, the NCA administers 
four programs: the State Cemetery Grants Program, the Headstone and 
Marker Program, the Presidential Memorial Marker Program, and Outer 
Burial Receptacle reimbursements.
    VA estimated in 2008 that approximately 24 million veterans were 
alive. These veterans served in wars and conflicts ranging from World 
War I to the global war on terrorism, as well as service in peacetime. 
The age of our veteran population has peaked and is starting to 
decline, and as a correlation to this peak, the annual number of 
veteran deaths is beginning to decline. In 2008, nearly 683,000 
veterans were expected to die; this number is expected to slowly 
decrease over the years. However, with the anticipated opening of new 
national cemeteries and an increase to the State Cemetery Grants 
Program, annual interments are projected to increase to more than 
105,000 in 2008 with an estimated peak of 115,000 in fiscal year 2009.
    The most important obligation of the NCA is to honor the memory of 
America's brave men and women who served in the armed forces. 
Therefore, the purpose of these cemeteries as national shrines is one 
of the NCA's top priorities. Many of the individual cemeteries within 
the system are steeped in history, and the monuments, markers, grounds, 
and related memorial tributes represent the very foundation of the 
United States. With this understanding, the grounds, including 
monuments and individual sites of interment, represent a national 
treasure that deserves to be protected and cherished.
    DAV thanks the NCA staff for their continued dedication and 
commitment in providing the highest quality of service to veterans and 
their families despite funding shortfalls, aging equipment, and the 
increasing workload of new cemetery activations. We again call on the 
administration and Congress to provide the resources needed to meet the 
critical nature of NCA's mission and fulfill the Nation's commitment to 
all veterans who have served their country honorably and faithfully.
    NCA must be allocated the resources it needs to meet the increasing 
demands of interments, gravesite maintenance, and related essential 
elements of cemetery operations. The NCA is responsible for five 
primary missions:

    1.  To inter, upon request, the remains of eligible veterans and 
family members and to permanently maintain gravesites;
    2.  To mark graves of eligible persons in national, State, or 
private cemeteries upon appropriate application;
    3.  To administer the State grants program in the establishment, 
expansion, or improvement of State veterans' cemeteries;
    4.  To award a presidential certificate and furnish a United States 
flag to deceased veterans; and
    5.  To maintain national cemeteries as national shrines sacred to 
the honor and memory of those interred or memorialized.

    Some cemeteries face the need for immediate expansion through the 
acquisition of additional land. Puerto Rico has such a situation. We 
understand that the Puerto Rico National Cemetery (PRNC) has a project 
intended to start in 2010 that gives them burial space until 2017 for 
first interments. PRNC will remain open, of course, for second 
interments of spouses and veterans. After completion of the project, 
PRNC will remain open to first and second cremations until 2030. While 
cremations are an option for some, veterans and their survivors may 
hold certain religious beliefs that do not make this a viable 
alternative. The NCA is actively seeking land of 100 acres or more 
within a 25-mile radius of Route 22/Route 1. The rapid acquisition of 
this land is essential to Puerto Rico's veteran population.
    The national cemetery system continues to be seriously challenged, 
though there has been progress made over the years. The NCA is working 
tirelessly to remove decades of blemishes and scars from military 
burial grounds across the country. Visitors to many national cemeteries 
are likely to encounter sunken graves, misaligned and dirty grave 
markers, deteriorating roads, spotty turf, and other patches of decay 
that have been accumulating for decades.
    If the NCA is to continue its commitment to ensure national 
cemeteries remain dignified and respectful settings that honor deceased 
veterans and give evidence of the Nation's gratitude for their military 
service, there must be a comprehensive effort to greatly improve the 
condition, functions, and appearance of the national cemeteries.
    To address these concerns, the NCA has aggressively moved forward 
repairing the priorities that were detailed in ``An Independent Study 
on Improvements to Veterans Cemeteries,'' which was submitted to 
Congress in 2002. Although the 5-year, $250 million ``National Shrine 
Initiative'' was not adopted as we recommended, the NCA has spent $150 
million toward that original list of 928 projects as well as other 
emerging priorities over this past year. These projects include 
gravesite renovation, repair, upgrades, and maintenance. Headstones and 
markers must be cleaned, realigned, and set. Stone surfaces of 
columbaria require cleaning, caulking, and grouting, and the 
surrounding walkways must be maintained. Grass, shrubbery, and trees in 
burial areas and other land must receive regular care.
    Additionally, cemetery infrastructure, i.e., buildings, grounds, 
walks, and drives must be repaired as needed. According to the study, 
these project recommendations were made on the basis of the existing 
condition of each cemetery after taking into account the cemetery's 
age, its burial activity, burial options and maintenance programs.
    The NCA has done an outstanding job thus far in improving the 
appearance of our national cemeteries, but there is a long way to go to 
get our national cemeteries to where they need to be. By enacting a 5-
year program with dedicated funds and an ambitious schedule, the 
national cemetery system can fully serve all veterans and their 
families with the utmost dignity, respect, and compassion.
    In addition to the management of the national cemeteries, the NCA 
has responsibility for the Memorial Program Service. The Memorial 
Program Service provides lasting memorials for the graves of eligible 
veterans and honors their service through Presidential Memorial 
Certificates. Public Laws 107-103 and 107-330 allow for a headstone or 
marker for the graves of veterans buried in private cemeteries who died 
on or after September 11, 2001. Prior to this change, the NCA could 
provide this service only to those buried in national or state 
cemeteries or to unmarked graves in private cemeteries.
    The Administration requested $181 million for FY 2009. Congress, 
understanding the sacrifices of the few for the freedom of the many, 
honored the fallen by granting NCA $230 million and an additional $50 
million in stimulus funds. The NCA is requesting $242 million for FY 
2010. Granting that funding request will sustain the important progress 
NCA has made. We urge Congress to grant the NCA's request.
    The next area to address is veterans' burial benefits. The burial 
benefit in 2008 was only 6 percent of what was provided when the NCA 
started paying this benefit. This must be increased to a level 
proportionate to the original benefit.
    In 1973, the Federal Government started paying burial benefits to 
assist in the funeral cost for our veterans. Over the years, the value 
of these benefits has been greatly reduced due to inflation. It was 
never the intent of Congress to cover the full cost of burial; however, 
the benefits now pay only a small fraction of what was covered 35 years 
ago.
    In 2001, the plot allowance was increased for the first time in 
more than 28 years, to $300 from the original amount of $150. This 
higher figure covers approximately 6 percent of funeral costs. The 
108th Congress increased the allowance for service-connected deaths 
from $500 to $2,000. Prior to this adjustment, the allowance had been 
untouched since 1988. Clearly, it is time this allowance is raised to 
make a more meaningful contribution to the costs of burial for our 
veterans.
    In accordance with DAV Resolution No. 212, we note that the VA 
provides a burial allowance for service-connected veterans of $2,000. 
However, the amount of this burial allowance has been seriously eroded 
by inflation because it has not been regularly adjusted for increases 
in the cost of living and is not automatically adjusted for inflation. 
Therefore, the DAV supports legislation to increase the burial 
allowance payable in the case of death due to service-connected 
disability and to provide for automatic annual adjustments indexed to 
the rise in the cost of living.
    Mr. Chairman, this concludes my testimony. I will answer any 
questions you or the Subcommittee may have.

                                 <F-dash>
     Prepared Statement of Raymond C. Kelley, National Legislative
                  Director, American Veterans (AMVETS)
    Chairman Hall, Ranking Member Lamborn, and Members of the 
Subcommittee:
    Thank you for providing AMVETS the opportunity to present our views 
on the Veterans Affairs National Cemetery policies.
The National Cemetery Administration
    The Department of Veterans Affairs National Cemetery Administration 
(NCA) currently maintains more than 2.9 million gravesites at 125 
national cemeteries in 39 states and Puerto Rico. Of these cemeteries, 
65 will be open to all interments; 20 will accept only cremated remains 
and family members of those already interred; and 40 will only perform 
interments of family members in the same gravesite as a previously 
deceased family member. NCA also maintains 33 soldiers' lots and 
monument sites. All told, NCA manages 17,000 acres, half of which are 
developed.
    VA estimates that about 27 million veterans are alive today. They 
include veterans from World War I, World War II, the Korean War, the 
Vietnam War, the Gulf War, the conflicts in Afghanistan and Iraq, and 
the Global War on Terrorism, as well as peacetime veterans. With the 
anticipated opening of the new national cemeteries, annual interments 
are projected to increase from approximately 100,000 in 2007 to 111,000 
in 2009. Historically, 12 percent of veterans opt for burial in a state 
or national cemetery.
    The most important obligation of the NCA is to honor the memory of 
America's brave men and women who served in the armed forces. 
Therefore, the purpose of these cemeteries as national shrines is one 
of the NCA's top priorities. Many of the individual cemeteries within 
the system are steeped in history, and the monuments, markers, grounds, 
and related memorial tributes represent the very foundation of the 
United States. With this understanding, the grounds, including 
monuments and individual sites of interment, represent a national 
treasure that deserves to be protected and cherished.
    AMVETS would like to acknowledge the dedication and commitment of 
the NCA staff who continue to provide the highest quality of service to 
veterans and their families. We call on the administration and Congress 
to provide the resources needed to meet the changing and critical 
nature of NCA's mission and fulfill the Nation's commitment to all 
veterans who have served their country honorably and faithfully.
    In FY 2008, $195 million was appropriated for the operations and 
maintenance of NCA, $28.2 million over the administration's request, 
with only $220,000 in carryover. NCA awarded 39 of the 42 minor 
construction projects that were in the operating plan. The State 
Cemetery Grants Service awarded $37.3 million of the $39.5 million that 
was appropriated. This carryover was caused by the cancellation of a 
contract that NCA had estimated to be $2 million but the contractor's 
estimation was considerably higher. Additionally, $25 million was 
invested in the National Shrine Commitment.
    NCA has done an exceptional job of providing burial options for 88 
percent of all veterans who fall within the 170,000 veterans within a 
75 mile radius threshold model. However, under this model, no new 
geographical area will become eligible for a national cemetery until 
2015. St. Louis, Mo. will, at that time, meet the threshold due to the 
closing of Jefferson Barracks National Cemetery in 2017. Analysis shows 
that the five areas with the highest veteran population will not become 
eligible for a national cemetery because they will not reach the 
170,000 threshold.
    NCA has spent years developing and maintaining a cemetery system 
based on a growing veteran population. In 2010 our veteran population 
will begin to decline. Because of this downward trend, a new threshold 
model must be developed to ensure more of our veterans will have 
reasonable access to their burial benefits. Reducing the mile radius to 
65 miles would reduce the veteran population that is served from 90 
percent to 82.4 percent, and reducing the radius to 55 miles would 
reduce the served population to 74.1 percent. Reducing the radius alone 
to 55 miles would only bring two geographical areas in to 170,000 
population threshold in 2010, and only a few areas into this revised 
model by 2030.
    Several geographical areas will remain unserved if the population 
threshold is not reduced. Lowering the population threshold to 100,000 
veterans would immediately make several areas eligible for a national 
cemetery regardless of any change to the mile radius threshold. A new 
threshold model must be implemented so more of our veterans will have 
access to this earned benefit.
National Shrine Initiative
    The national cemetery system continues to be seriously challenged. 
Though there has been progress made over the years, the NCA is still 
struggling to remove decades of blemishes and scars from military 
burial grounds across the country. Visitors to many national cemeteries 
are likely to encounter sunken graves, misaligned and dirty grave 
markers, deteriorating roads, spotty turf and other patches of decay 
that have been accumulating for decades. If the NCA is to continue its 
commitment to ensure national cemeteries remain dignified and 
respectful settings that honor deceased veterans and give evidence of 
the Nation's gratitude for their military service, there must be a 
comprehensive effort to greatly improve the condition, function, and 
appearance of all our national cemeteries.
    Therefore, in accordance with ``An Independent Study on 
Improvements to Veterans Cemeteries,'' which was submitted to Congress 
in 2002, AMVETS recommends Congress establish a 5-year, $250 million 
``National Shrine Initiative'' to restore and improve the condition and 
character of NCA cemeteries. Volume 2 of the Independent Study provides 
a systemwide, comprehensive review of the conditions at 119 national 
cemeteries. It identifies 928 projects across the country for gravesite 
renovation, repair, upgrade, and maintenance. These projects include 
cleaning, realigning, and setting headstones and markers; cleaning, 
caulking, and grouting the stone surfaces of columbaria; and 
maintaining the surrounding walkways. Grass, shrubbery, and trees in 
burial areas and other land must receive regular care as well. 
Additionally, cemetery infrastructure, i.e. buildings, grounds, walks, 
and drives must be repaired as needed. According to the Study, these 
project recommendations were made on the basis of the existing 
condition of each cemetery after taking into account the cemetery's 
age, its burial activity, burial options and maintenance programs.
The Memorial Program Service
    In addition to the management of national cemeteries, the NCA is 
responsible for the Memorial Program Service. The Memorial Program 
Service provides lasting memorials for the graves of eligible veterans 
and honors their service through Presidential Memorial Certificates. 
Public Laws 107-103 and 107-330 allow for a headstone or marker for the 
graves of veterans buried in private cemeteries who died on or after 
September 11, 2001. Prior to this change, the NCA could provide this 
service only to those buried in national or State cemeteries or to 
unmarked graves in private cemeteries. Public Law 110-157 gives VA 
authority to provide a medallion to be attached to the headstone or 
marker of veterans who are buried in a private cemetery. This benefit 
is available to veterans in lieu of a Government furnished headstone or 
marker.
The State Cemetery Grants Program
    The State Cemeteries Grant Program faces the challenge of meeting a 
growing interest from States to provide burial services in areas that 
are not currently served. The intent of the SCGP is to develop a true 
complement to, not a replacement for, our Federal system of national 
cemeteries. With the enactment of the Veterans Benefits Improvements 
Act 1998, the NCA has been able to strengthen its partnership with 
States and increase burial service to veterans, especially those living 
in less densely populated areas not currently served by a national 
cemetery. Currently there are 55 State and tribal Government cemetery 
construction grant pre-applications, 34 of which have the required 
State matching funds necessary totaling $120.7 million. Funding has 
been provided that will allow SCGP to establish six new State 
cemeteries, which will provide burial options for 179,000 veterans who 
live in a region that currently has no reasonably accessible State or 
national cemetery.
Burial Benefits
    In 1973 NCA established a burial allowance that provided partial 
reimbursements for eligible funeral and burial costs. The current 
payment is $2,000 for burial expenses for service-connected (SC) death, 
$300 for non-service-connected (NSC) deaths, and $300 for plot 
allowance. At its inception, the payout covered 72 percent of the 
funeral cost for a service-connected death, 22 percent for a non-
service-connected death, and 54 percent of the burial plot cost. In 
2007 these benefits eroded to 23 percent, 4 percent, and 14 percent 
respectively. It is time to bring these benefits back to their original 
value.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potters' fields. In 1923 the allowance was 
modified. The benefit was determined by a means test, and then in 1936 
the allowance was changed again, removing the means test. In its early 
history, the burial allowance was paid to all veterans, regardless of 
the service-connectivity of their death. In 1973 the allowance was 
modified to reflect the relationship of their death as service 
connected or not.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowances were intended to cover the full cost of a civilian burial in 
a private cemetery, the increase in the benefit's value indicates the 
intent to provide a meaningful benefit by adjusting for inflation.
    The national average cost for a funeral and burial in a private 
cemetery has reached $8,555, and the cost for a burial plot is $2,133. 
At the inception of the benefit the average costs were $1,116 and $278 
respectively. While the cost of a funeral has increased by nearly seven 
times the burial benefit has only increased by 2.5 times. To bring both 
burial allowances and the plot allowance back to its 1973 value, the SC 
benefit payment will be $6,160, the NSC benefit value payment will be 
$1,918, and the plot allowance will increase to $1,150. Readjusting the 
value of these benefits, under the current system, will increase the 
obligations from $70.1 million to $335.1 million per year.
    Based on accessibility and the need to provide quality burial 
benefits, AMVETS recommends that VA separate burial benefits into two 
categories: veterans who live inside the VA accessibility threshold 
model and those who live outside the threshold. For those veterans who 
live outside the threshold, the SC burial benefit should be increased 
to $6,160, NSC veteran's burial benefit should be increased to $1,918, 
and plot allowance should increase to $1,150 to match the original 
value of the benefit. For veterans who live within reasonable 
accessibility to a State or national cemetery that is able to 
accommodate burial needs, but the veteran would rather be buried in a 
private cemetery the burial benefit should be adjusted. These veterans' 
burial benefits will be based on the average cost for VA to conduct a 
funeral. The benefit for a SC burial will be $2,793, the amount 
provided for a NSC burial will be $854, and the plot allowance will be 
$1,150. This will provide a burial benefit at equal percentages, but 
based on the average cost for a VA funeral and not on the private 
funeral cost that will be provided for those veterans who do not have 
access to a State or national cemetery.
    The recommendations of past legislation provided an increased 
benefit for all eligible veterans but it currently fails to reach the 
intent of the original benefit. The new model will provide a meaningful 
benefit to those veterans whose access to a State or national cemetery 
is restricted as well as provides an improved benefit for eligible 
veterans who opt for private burial. Congress should increase the plot 
allowance from $300 to $1,150 for all eligible veterans and expand the 
eligibility for the plot allowance for all veterans who would be 
eligible for burial in a national cemetery, not just those who served 
during wartime. Congress should divide the burial benefits into two 
categories: veterans within the accessibility model and veterans 
outside the accessibility model. Congress should increase the service-
connected burial benefit from $2,000 to $6,160 for veterans outside the 
radius threshold and $2,793 for veterans inside the radius threshold. 
Congress should increase the non-service-connected burial benefit from 
$300 to $1,918 for veterans outside the radius threshold and $854 for 
veterans inside the radius threshold. Congress should enact legislation 
to adjust these burial benefits for inflation annually.
    The NCA honors veterans with a final resting place that 
commemorates their service to this Nation. More than 2.8 million 
servicemembers who died in every war and conflict are honored by burial 
in a VA national cemetery. Each Memorial Day and Veterans Day we honor 
the last full measure of devotion they gave for this country. Our 
national cemeteries are more than the final resting place of honor for 
our veterans; they are hallowed ground to those who died in our 
defense, and a memorial to those who survived.
    Mr. Chairman, this concludes my testimony. I thank you again for 
the privilege to present AMVETS views, and I would be pleased to answer 
any questions you might have.

                                 <F-dash>
     Prepared Statement of Vivianne Cisneros Wersel, Au.D., Chair,
    Government Relations Committee, Gold Star Wives of America, Inc.
     ``With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see right, let us strive to finish the 
work we are in; to bind up the Nation's wounds, to care for him who has 
borne the battle, his widow and his orphan.''

     . . . President Abraham Lincoln, Second Inaugural Address, March 
4, 1865

    Mr. Chairman and Members of the Subcommittee on Disability 
Assistance and Memorial Affairs of the House Committee on Veterans 
Affairs, Good Morning. I am Vivianne Wersel, the Chair of the Gold Star 
Wives' Government Relations Committee. Thank you for the opportunity to 
present this statement on behalf of Gold Star Wives of America. I am 
the surviving spouse of Lieutenant Colonel Rich Wersel, Jr. USMC who 
died suddenly on February 4, 2005, 1 week after he returned from his 
second tour of duty in Iraq. A regular day that began seemingly as 
routine as any other was a day past which all of my life's goals and 
dreams had to be adjusted. It's a time reference for me now from which 
everything now is either before or after, the old life and the new 
life.
    Gold Star Wives of America, Incorporated was founded in 1945 and is 
a congressionally chartered organization of spouses of servicemembers 
who died while on active duty or who died as the result of a service 
connected disability. It is an all volunteer organization. We could 
begin with no better advocate than Eleanor Roosevelt, newly widowed, 
who helped make Gold Star Wives a truly national organization. Mrs. 
Roosevelt was an original signer of our Certificate of Incorporation as 
a member of the Board of Directors.
    The Gold Star Wives is an organization of those who are left 
behind, families left behind when our Nation's heroes, bearing the 
burden of freedom for us all, have fallen. We are that family minus 
one--we're wives and children, all having suffered the unbearable loss. 
We are those whom Abraham Lincoln referred to when he made his 
Government's commitment ``to care for him who shall have borne the 
battle, and for his widow, and his orphan.''
    We begin by thanking this Committee and our Government for 
providing essential services necessary to help us through our loss, 
many services being done well, in a caring and helpful way. But I also 
want to stress the importance of staying vigilant so that no one who is 
grieving the loss of a loved one will have to endure indignities or 
lack of benefits because of the lack of knowledge.
    Therefore, we need consistent and relevant assistance at the time 
of the casualty and for some period of time thereafter. We immediately 
need help dealing with the funeral, the burial, and with our grief. We 
need to understand the precise nature of the burial benefit as it 
befits either active duty or retiree status. Then we need a clear 
understanding, when we can assimilate it, of our benefits as they exist 
at the time--financial, medical, education, travel, housing allowance, 
and even such things as how to deal with ID cards, how to file income 
taxes, etc. And the information may need to come in more than one 
format and on more than one occasion. In dealing with a loss as great 
as the death of a loved one, it should not be assumed that we all have 
the same ability that we do under normal circumstances to hear, learn, 
understand and act responsibly on multiple decisions in those early 
days of grief. While there have been huge strides made over the last 
several years in alleviating problems with benefit and eligibility 
misinformation coming to those who are grieving, confusion, in the 
throes of grief, about the complete benefits available will be a normal 
beginning with the best of information provided. We owe it to these 
families to help secure their futures with the most accurate 
information possible at an appropriate time--when it is ready to be 
received--because the confusing array of decisions that must be made 
have consequences for the rest of that family's lives.
    While there can be incidental occurrences of difficulties with the 
burial benefit or the national cemetery policy, I am happy to report 
that we can discern no negative experience trends in these areas from 
within our organization. We very much appreciate the help we get in 
those tumultuous early days. We would ask that you be attentive over 
time, however, to assure that the amount provided for the burial 
continues to stay abreast of the cost of those services and takes into 
account varying geographies.
    What I can report to you today is that financial stability is the 
overriding concern of these families. We, in the Gold Star Wives 
believe the benefit change that will provide the most significant long-
term advantage to the family's financial security would be to end the 
Dependency Indemnity Compensation dollar for dollar offset to the 
Survivor Benefit Plan. This is not a subject new for us to testify 
about before Congress. And over the summer, the decision in Sharp, et 
al v. United States, handed down by the U.S. Court of Federal Claims 
ordered the Department of Defense to refund the SBP annuities that were 
withheld from three widowed spouses who also received DIC from the 
Department of Veterans Affairs. The court found that the DoD's dollar-
for-dollar deduction of DIC payments from SBP benefits was based on a 
faulty interpretation of Federal law. We recognize that jurisdiction 
resides elsewhere, but we know each Member of this Committee can and 
should be concerned within the context of your own jurisdiction that 
this inequity should be fixed, and fixed immediately.
    Thank you for this opportunity to testify. We appreciate all the 
compassionate work which Members of this Committee and the staff do on 
our behalf. We always stand ready to help provide you will all 
information needed.

                                 <F-dash>
       Prepared Statement of Lesley Witter, Director of Political
            Affairs, National Funeral Directors Association
    Chairman Hall; Ranking Member Lamborn; Members of the Subcommittee, 
thank you for the opportunity to testify before you this morning about 
``How We Can Better Serve America's Veterans and their Families.'' I am 
Lesley Witter, Director of Political Affairs for the National Funeral 
Directors Association (NFDA).
    I am testifying today on behalf of over 19,000 funeral directors 
and funeral service personnel who are members of the NFDA. Funeral 
directors help ensure that every deceased veteran receives the care, 
honor and dignity they've earned because of their sacrifice in defense 
of the freedoms we enjoy today.
    While the responsibility of providing appropriate funeral and 
burial benefits and proper military honors falls on the VA and DoD, it 
is funeral directors who help the family organize a personalized 
funeral and burial that both celebrates the life of their loved one and 
honors their service to our country. Funeral directors contact the VA 
to schedule funeral and burial times, help families file benefit 
claims, ensure that each veteran receives the appropriate grave 
markers, and works with the DoD and veteran service organizations to 
provide appropriate military honors.
    In preparation for my testimony today, NFDA completed a non-
scientific survey of our membership regarding their opinions on how we 
can better sever our veterans and their Families. I am happy to report 
that NFDA members provided thoughtful and detailed responses on this 
important issue.
    I will now highlight some of the key findings in our member survey. 
Approximately half of the NFDA members surveyed stated they assisted in 
planning twenty-one (21) or more Veteran funerals in 2008. Less than 3 
percent of respondents stated that they had not helped plan any veteran 
funerals last year.
    Overall, funeral directors seem to be happy with the responsiveness 
of both the VA and the DoD. 57.6 percent of funeral directors surveyed 
felt the VA and DoD were very responsive to funeral directors. 22 
percent funeral directors who responded to the survey felt that the VA 
and DoD were ``extremely responsive'' to funeral directors. Only 3.4 
percent of respondents answered that the DoD and VA were ``not very 
responsive'' to funeral directors.
    Additionally, almost 52 percent of respondents felt the VA and DoD 
were very responsive to veteran families.
    However, Monica H. Torres, an NFDA member, a mortuary science 
student at Mesa Community College and a military spouse, commented that 
``gathering information not only from funeral directors but also the 
veterans families may be an avenue of interest.'' If there is no 
process to collect this important information, the NFDA will be happy 
to assist in developing a questionnaire that funeral directors can give 
to the families after the funeral and burial are completed.
    Regarding funeral and burial costs less than one-third (23.3 
percent) of funeral directors responded that they had experienced 
problems obtaining veteran burial benefits. However, some of the 
negative comments include: ``Claims for monetary burial benefits are 
taking over 7 months to process,'' ``Delay in the processing of 
paperwork for monuments and benefits,'' ``Lack of communications 
between various VA offices--memorial marker/insurance/financial 
benefits.''
    However, over 66 percent of respondents felt that the current 
veteran funeral and burial benefits were insufficient. The main reasons 
cited were that the funeral and burial benefit has not changed with 
inflation, and that it does not cover the ever increasing cost of a 
funeral. As a result, almost two-thirds (62.9 percent) of funeral 
directors stated that they have absorbed extra costs associated with 
veteran funerals. The average dollar amount absorbed by funeral 
directors per veteran funeral was $652. However, the range of costs 
absorbed was between $25 and $3000.
    In addition, NFDA member Mark Jelacic, of Jelacic Funeral Home in 
Milwaukee, Wisconsin, commented that he believes the ``VA is 
disregarding those veterans and their families who have chosen 
cremation as their form of final disposition by not offering their 
``Burial Benefit'' to these veterans or their families.'' Mr. Jelacic 
indicated that the cremation rate for veterans in his funeral home has 
reached 40 percent and that the veteran families do not understand why 
if they buried their loved one they would get a benefit, but if they 
chose cremation, they may not receive the burial allowance, unless 
cremated remains are buried.
    I would like to point out that many funeral directors willingly 
donate their time and services as a way to honor veterans. For example, 
one NFDA member stated that ``Our time is basically donated, we work 
with the VA hospice for veterans without families or people to care for 
them, and their social worker is their next of kin.'' Another NFDA 
member stated ``I support the veteran's burial detail in our community 
by giving them an honorarium, a meal and special recognition. I also 
provide a matted and framed Presidential citation to each family that 
we serve at a public ceremony two times a year.'' Another funeral 
director honors our deceased veterans by donating ``funeral coach, 
family transportation, and clergy transportation as well as the cost of 
a graveside service.''
    Mr. Chairman, I would like to express NFDA's strong support for 
H.R. 2642, a bill introduced by Mr. Tiberi of Ohio that directs ``the 
Secretary of Veterans Affairs to assist in the identification of 
unclaimed and abandoned human remains to determine if any such remains 
are eligible for burial in a national cemetery.'' NFDA members are 
acutely aware of the sad story of unclaimed remains throughout this 
Nation, many of whom are veterans. NFDA members will be happy to work 
with the VA to identify veterans' remains that have gone unclaimed, and 
ensure that these Veterans receive the funeral and burial honors they 
deserve.
    Mr. Chairman and distinguished Members of the Committee, on behalf 
of the members of the National Funeral Directors Association, I want to 
ensure you that funeral directors throughout this country remain 
dedicated to doing our part in honoring our Nation's veterans and their 
families. I want to conclude my testimony today by thanking you for the 
opportunity to testify on behalf of the NFDA. I hope my testimony has 
been helpful and I will be happy to answer any question you may have.
[GRAPHIC] [TIFF OMITTED] 53429A.006

[GRAPHIC] [TIFF OMITTED] 53429A.007

[GRAPHIC] [TIFF OMITTED] 53429A.008

                                 <F-dash>
      Prepared Statement of John Nicolai, Cemetery Representative,
    Ft. Logan National Cemetery, Denver, CO, and Shop Steward, AFGE
 Local 2241, on behalf of American Federation of Government Employees, 
                                AFL-CIO
    Dear Chairman Hall, Ranking Member Lamborn and Members of the 
Subcommittee:
    Thank you for the opportunity to appear before you today to share 
my deep concern that the National Cemetery Administration (NCA) is 
eliminating one of the most honored and valuable entry level employment 
opportunities for veterans through contracting out: the cemetery 
caretaker function.
    My name is John Nicolai. I am a Vietnam veteran and am very proud 
to have served my country attached to the 6990th USAF Security 
Squadron. I have worked at Ft Logan National Cemetery in Denver, 
Colorado, for the past 6 years. I am currently employed as a Cemetery 
Representative. I started out as a Cemetery Caretaker.
    I am also a Shop Steward for Local 2241 of the American Federation 
of Government Employees (AFGE), which represents nearly 180,000 
employees in the Department of Veterans Affairs (VA) and is the 
exclusive representative of employees of the National Cemetery 
Administration (NCA).
    Historically, NCA Cemetery Caretakers have been responsible for all 
tasks required to maintain our national cemeteries and bring them up to 
National Shrine Status. National Shrine Status is a set of standards 
set by the National Cemetery Administration that maintains these 
hallowed grounds as a proper final resting place for our national 
heroes, our veterans.
    VA Cemetery Caretakers perform numerous tasks including mowing and 
trimming, raising sunken graves, setting headstones, raising and 
realigning headstones, and assisting maintenance workers, gardeners, 
and interment crews.
    The NCA caretaker position has long been a source of valuable and 
honorable employment for returning servicemembers, including veterans 
with disabilities in Veterans Health Administration (VHA) Compensated 
Work Therapy programs (CWT).
    The Caretaker position has also been a valuable stepping stone to 
almost all other jobs in the Cemetery Network. At Ft. Logan National 
Cemetery, two of the three GS-6 Cemetery Representatives, the entire 
interment crew started and the WG-7 Maintenance worker also started out 
as Caretakers. Even some Cemetery Directors started out as VA Cemetery 
Caretakers. There is no better starting job within the NCA that can 
give you an overall knowledge of the workings of the cemetery.
    In recent years, NCA local directors have replaced more and more 
veterans in caretaker jobs with outside contractors. As a result, the 
current generation of veterans, and future generations of veterans, 
have far fewer job opportunities in NCA.
    Outsourcing NCA caretaker work is bad policy and bad for veterans 
for many reasons. First, in most cases, this outsourcing is carried out 
illegally because it constitutes a ``direct conversion'', that is, 
Federal work is converted to contractor work without conducting the 
privatization studies required under Federal law and the Office of 
Management and Budget (OMB) A-76 Circular. VA's use of direct 
conversions has been so egregious that in 2007 Congress passed a law 
aimed specifically at VA to prohibit this practice. As Senator Brown 
(D-OH) stated upon introduction of this amendment to the FY 2008 VA 
appropriations bill:

       ``The VA is firing many of its blue collar workers, and 
replacing them with private contractors without going through the 
competition process that Congress has called for again and again. It's 
bad enough that the VA is moving forward without actually figuring out 
what is in the best interest of the taxpayers. But making matters even 
worse is that four-fifths of the blue collar jobs targeted for 
outsourcing to private contractors are held by veterans. These are more 
than a paycheck. They're a path to independence. . . The obstacles to 
employment are steep enough for veterans without throwing unjustifiable 
outsourcing into the mix.''

    Second, using contractors instead of veterans is unfair to veterans 
and their families who were assured by the VA that the workforce that 
maintains the cemeteries as National Shrines is comprised largely of 
veterans who bring unique experience and commitment to their jobs. In 
VA's video, ``Day in the Life: Cemetery Caretaker'', NCA Caretaker John 
Wells states:

       ``We owe a debt of gratitude for those people that went 
overseas. People that have given everything, and never came back home. 
That's what we feel like our dedication is . . . to provide a service. 
Not just a service to do the funeral and the headstone, and mowing the 
grass. But you feel it inside, and you know where they come from. And 
it's . . . an ongoing feeling. . . . And those people that come here, 
the family members to . . . see their loved one off, is a bond that 
sticks with you the rest of your life. Because, you've been in their 
shoes. You've been with the comrade that they are saying goodbye to. . 
. . It means to me that you can still . . . do something for the family 
of those that have lost someone here. . . . There's nothing here that I 
can see that's left undone. If we're mowing or weed eating or anything 
like that, and we see a stone that's sunk or out of alignment or needs 
to be tweaked a little bit, we go ahead and take time to do that. . . 
Coming to work for the VA means everything to those who work here. 
Because we like what we do. We don't show up just to do some work and 
go home. There's a certain amount of camaraderie that we have in 
common. It's a nice place to work. This is a good place to start a good 
career. . . . We don't take shortcuts. We take pride in what we do.''

       ``Day in the Life: Cemetery Caretaker'' (http://www.va.gov/JOBS/
career_types/wells-video.asp

    In addition, cemetery caretaker work is inappropriate for 
contracting out. The responsibility to maintain these National Shrines 
is too important to be turned over to fly by night contractors. These 
contractors typically use poorly paid contingent workers and they 
maximize their profits by minimizing the amount of effort they put into 
each of the many contracts they juggle. Most of the employees at Ft. 
Logan National Cemetery are in agreement with me that the 
subcontractors are not performing the jobs as well as NCA employees 
did. In fact, many times our personnel are directed to redo the work 
not done to standard or left undone by the subcontractors.
    NCA outsourcing also undermines the Department's own mission to 
increase veteran hiring, a mission that is especially important during 
this period of soaring unemployment among OIF/OEF veterans. The Labor 
Department recently reported that the number of unemployed Iraq and 
Afghanistan veterans is nearly as high as the number of OIF/OEF 
servicemembers currently deployed!
    Unfortunately, the problem of illegal caretaker outsourcing is 
getting worse over time. When I first started working at Ft. Logan 6 
years ago, there were ten Full Time Employee (FTE) VA Cemetery 
Caretakers, nine of whom were also veterans. In 2007, the mowing and 
trimming work was outsourced, leaving only three full time VA Cemetery 
Caretakers, two of whom are veterans.
    At the time the work was outsourced, the employees were told not to 
worry about their jobs, that no one was going to be laid off or fired, 
that these positions would only be reduced by attrition. But 
outsourcing by attrition still means fewer job opportunities for the 
next wave of veterans trying to return to civilian life.
    Management tried to argue that outsourcing the mowing and trimming 
would free up caretakers to perform grave and headstone and marker 
maintenance to meet NCA Operational Standards and achieve National 
Shrine status. In spite of this statement, management outsourced the 
headstone setting in 2009; this will be implemented next month and will 
result the loss of two more NCA positions.
    Every year, in addition to the VA Cemetery Caretakers maintaining 
the cemetery grounds, seasonal personnel are hired to assist with the 
various jobs. In the past, as full time VA Cemetery Caretaker positions 
became available, the seasonal work pool was used to fill some of these 
positions. In addition, participants in the VHA Compensated Work 
Therapy Program working at the cemeteries were moved into permanent 
positions when they became vacant. However, since outsourcing has 
started, far fewer CWT graduates and seasonal employees with valuable 
experience are used to fill vacant caretaker positions.
    Nearly two dozen AFGE locals in other parts of the country have 
similar reports: the contracting out of caretaker jobs held largely by 
veterans and the prolonged use of temporary employees and CWT 
participants without transition to permanent employment.
    AFGE member reports indicate that most, if not all, new national 
cemeteries have also contracted out caretaker work among other 
functions. Contract labor is also used in most existing cemeteries that 
undergo expansion. Congressman Salazar (D-CO) has introduced 
legislation to add another national cemetery in Colorado (H.R. 174). If 
it passes, I fear that NCA will continue the trend of hiring only the 
Director and Cemetery Representatives for new cemeteries, and contract 
out the Cemetery Caretakers, Interment Crews and other support 
personnel.
    Although Federal outsourcing law may not apply to caretaker work at 
new and expanded cemeteries, NCA's failure to hire veterans at these 
sites represents an enormous loss of employment opportunities. Also, as 
noted below, OMB is now encouraging Federal agencies to give new work 
to Federal employees, rather than contractors.
    Many cemetery directors make the argument that they cannot find 
suitable applicants to hire to fill caretaker vacancies, but they never 
seem to look for suitable applicants in VHA or VBA employment programs, 
or in the local veterans' community. But why is a for profit contractor 
who is outside the VA better able to find veterans for this honorable 
work than the VA itself? Cemetery directors also argue that they need 
the flexibility of contractor labor because the work is seasonal; they 
have the option to hire caretakers as seasonal employees, a common 
practice throughout the Federal Government.
    In 2007, AFGE met with NCA officials and requested that NCA 
intervene to stop illegal outsourcing at the local level. At that time, 
NCA expressed interest in AFGE's offer to link NCA with veterans' 
groups to identify suitable applicants for caretaker openings in 
existing and new cemeteries. Shortly thereafter, NCA reported to this 
Subcommittee that it would provide a report about its review of the 
competitive sourcing issue. To AFGE's knowledge, this report was never 
completed.
    Therefore, AFGE urges this Subcommittee to take action on both 
fronts: stop illegal outsourcing of caretaker work at existing 
cemeteries and link unemployed veterans with new caretaker job 
opportunities. More specifically, the first step is to impose a 
statutory moratorium on the outsourcing of the NCA caretaker function 
and require NCA to conduct an inventory of the current caretaker 
workforce and caretaker contracts. Congress has already taken similar 
action on a Government wide basis. The 2009 Consolidated Appropriations 
Act placed a permanent prohibition on ``direct conversions'' that 
applies to the VA and other Federal agencies (except DoD which is 
covered by a different bill) and imposed a moratorium on new 
privatization studies during FY 2009. Pending legislation would extend 
that moratorium and require agencies to establish inventories of 
contracted services that should be ``insourced'', i.e. brought back 
into the Government.
    Inventories and insourcing are also key components of OMB's new 
guidance. All agencies, including the VA, are supposed to develop a 
workforce inventory with the goal of bringing inherently governmental 
work back into the Government, and increasing the use of Federal 
employees for new, expanded and outsourced work.
    We encourage this Subcommittee to play a leading role in the 
development of a permanent program linking NCA job opportunities with 
potential applicants identified by VA's job training programs and 
veterans' organizations. This program would further the admirable goals 
of the VA's Veterans Employment Coordination Service ``to advance 
efforts to attract, recruit and hire veterans into the VA, particularly 
severely injured veterans returning from Operation Enduring Freedom and 
Operation Iraqi Freedom.'' (VA Web site: VECS Homepage). Bringing 
cemetery caretaker work back into the VA honors this commitment while 
honoring veterans and their families.
    Thank you for the opportunity to testify today.

                                 <F-dash>
      Prepared Statement of Steve L. Muro, Acting Under Secretary
        for Memorial Affairs, National Cemetery Administration,
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to testify today on how the National 
Cemetery Administration (NCA) honors Veterans through lasting tributes 
to their service and sacrifice.
    NCA is one of three Administrations within the Department of 
Veterans Affairs (VA). NCA and the Veterans Benefits Administration 
(VBA), which is responsible for burial flags and monetary burial 
benefits, jointly administer VA's burial and funeral benefits for 
Veterans, family members and survivors. We in NCA have four statutory 
missions:

    <bullet>  To provide burial for Veterans, their eligible family 
members and survivors, and to maintain those places of burial as 
national shrines;
    <bullet>  To provide Government-furnished headstones and markers 
for the graves of eligible Veterans worldwide;
    <bullet>  To administer the State Cemetery Grants Program (SCGP), 
under which NCA provides grants up to 100 percent of the development 
cost for establishing, expanding and improving Veterans cemeteries 
owned and operated by the States and Tribal governments; and
    <bullet>  To administer the Presidential Memorial Certificate (PMC) 
program, under which NCA provides to the families and loved ones of 
honorably discharged, deceased Veterans, certificates bearing the 
signature of the President to commemorate the Veteran's service.

    This is a very important period in NCA history as Secretary 
Shinseki leads the Department in fundamental and comprehensive change 
emphasizing innovation and performance. These initiatives are 
consistent with the theme of today's hearing on how we can better serve 
America's Veterans and their families. I thank you for providing me an 
opportunity to share with the Committee, the Veterans at this hearing, 
and all those we serve, the tangible benefits the employees of NCA 
provide through their daily commitment and dedication to our Fallen 
Heroes.
    NCA maintains more than 2.9 million gravesites at 130 national 
cemeteries in 39 States and Puerto Rico, as well as 33 soldiers' lots 
and monument sites. Since 1973 when Congress created a National 
Cemetery System under the jurisdiction of VA, annual interments in VA 
national cemeteries have almost tripled, from 36,400, to more than 
103,000 in fiscal year (FY) 2008. We expect to perform over 107,000 
interments in 2009, a 3.8-percent increase over the number performed in 
2008. Of the 130 national cemeteries operated by NCA, 70 cemeteries 
have gravesites available for the first interment or inurnment of 
casketed and cremated remains; 20 cemeteries can only accommodate the 
first inurnment of cremated remains (along with the cremated and 
casketed remains of subsequent family members); and the remaining 40 
cemeteries can only accommodate an interment if there is room in the 
grave of a previously interred family member. Seventy-four State 
Veterans cemeteries funded under the State Cemetery Grant Program are 
operated in 36 States, Guam and Saipan.
    In FY 2008, NCA processed more than 360,000 applications for 
Government-furnished headstones and markers for the graves of Veterans 
and their eligible family members, and issued over 500,000 Presidential 
Memorial Certificates to the families of eligible Veterans.
    We are working diligently to fulfill the commitment our Nation has 
made to Veterans who served during previous periods of conflict, and we 
make special arrangements to accommodate the needs of family members 
who have lost a loved one serving overseas in Operation Enduring 
Freedom or Operation Iraqi Freedom (OEF/OIF). As of September 9, 2009, 
1,063 OEF/OIF service men and women who died as a result of combat-
related injuries have been interred in either a VA or a State Veterans 
cemetery. In addition, NCA has provided another 1,836 headstones or 
markers for fallen OEF/OIF servicemembers who are buried in private 
cemeteries. To honor these brave men and women, we do everything 
possible to expedite the placement of headstones or markers at the 
gravesite on the day of interment. We also try to accommodate burial 
requests in closed national cemeteries near a Veteran's family if a 
gravesite can be made available due to the reclamation of a previously 
obstructed or reserved gravesite.
    Our ability to provide reasonable access to a burial option is a 
critical measure of the effectiveness of our service delivery to 
Veterans and their families and survivors. Currently, over 87 percent 
of all Veterans in the Nation reside within a 75-mile radius of a 
national or State Veterans cemetery. VA established the 75-mile service 
area standard because NCA data showed that more than 80 percent of 
persons interred in national cemeteries reside within 75 miles of the 
cemetery at the time of death. NCA plans to increase the percentage of 
Veterans served to 90 percent by FY 2011. Strategic initiatives are in 
place to meet this goal. They are:

    <bullet>  Establish additional national cemeteries in un-served 
areas;
    <bullet>  Expand existing national cemeteries to provide continued 
service; and
    <bullet>  Establish or expand State and Tribal Government Veterans 
cemeteries through the SCGP.

    The Future Burial Needs report, required by Public Law (PL) 106-
117, assisted NCA in developing its long-range plans. The report, 
completed in 2002, assessed the number of additional cemeteries needed 
to ensure that 90 percent of Veterans live within 75 miles of a 
national or State Veterans cemetery, and identified 31 locations with 
the greatest concentration of unmet need for burial access. Revised 
population estimates that VA provided to Congress in June 2003 assisted 
in the identification of 12 locations with the greatest number of 
Veterans who were unserved by burial access to a national or State 
Veterans cemetery; all 12 locations met VA's Veteran population 
threshold of 170,000 for planning new national cemeteries. This policy 
has enabled VA to focus resources on serving areas where high 
concentrations of Veterans do not have access to a burial option. PL 
106-117 directed the Secretary to build six new national cemeteries; 
six additional locations were identified in PL 108-109, the National 
Cemetery Expansion Act of 2003. Together, these statutes laid the 
foundation for VA initiatives to provide Veterans improved access to 
burial options.
Establishing New National Cemeteries
    VA has established 11 of these 12 new national cemeteries. New 
national cemeteries mandated by PL 106-117 and located in the six 
geographic areas of identified need in Atlanta, Georgia; Detroit, 
Michigan; Ft. Sill, Oklahoma; Pittsburgh, Pennsylvania; Sacramento, 
California; and South Florida now provide service to two million 
Veterans who had resided in areas not previously served by a national 
or State Veterans cemetery.
    PL 108-109 directed VA to establish six additional national 
cemeteries near Bakersfield, California; Birmingham, Alabama; Columbia/
Greenville, South Carolina; Jacksonville, Florida; Southeastern 
Pennsylvania; and Sarasota County, Florida. Five of these six new 
national cemeteries are now operational. With the future opening of 
Washington Crossing National Cemetery near Philadelphia, this phase of 
national cemetery expansion will be complete. Funding of $41 million 
was appropriated in FY 2006 for land acquisition costs, $12 million was 
appropriated in FY 2007 for preliminary design work, and $137 million 
was appropriated in NCA's FY 2008 major construction account for these 
six new cemeteries. We are proud of VA's progress in accomplishing this 
significant expansion of national cemeteries.
    Annual Veteran deaths reached a peak at 665,000 in FY 2006 and have 
begun a gradual decline. However, with the opening of these new 
national cemeteries, annual NCA interments are projected to increase 
from over 100,000 in FY 2008 to nearly 114,000 in FY 2011, an increase 
of 10.6 percent due entirely to increased access.
Providing Grants for State and Tribal Government Veterans Cemeteries
    The SCGP is vital to achieving NCA's performance goal for burial 
access, and in permitting NCA to meet the needs of Veterans, family 
members, and survivors residing in less populated areas that do not 
meet VA's criteria for the establishment of a national cemetery. Since 
2001, 29 new State Veterans cemeteries have opened in 17 States and 
Saipan. With the opening of the Idaho Veterans Cemetery in 2004, there 
is now a national or State Veterans cemetery in every State in the 
Union. To date, VA has funded 275 grants, totaling more than $389 
million to establish, expand or improve 74 Veterans cemeteries in 36 
States, Guam and Saipan.
    Cemeteries established under the grant program must conform to VA-
prescribed standards and guidelines for site selection, planning, 
construction, appearance and operations. State cemeteries must be 
operated solely for the interment of Veterans, their spouses, surviving 
spouses, and eligible children. Seven new State cemeteries are now 
under construction in Springvale, Maine; Fort Leonard Wood, Missouri; 
Alliance, Nebraska; Dublin, Virginia; Newton, Mississippi; Greenup, 
Kentucky; and Spokane, Washington. Sixteen States have multiple State 
Veterans cemeteries and some States, such as Missouri, North Carolina, 
Tennessee, and Wisconsin, have been pro-active and planned new State 
cemeteries to coincide with the anticipated closure of nearby VA 
national cemeteries. In FY 2008, State Veterans cemeteries provided for 
24,826 burials, and in FY 2009 burials are projected to increase to 
over 27,000. This increase has been possible because of expanded access 
offered by five State cemeteries opened in 2008 and 2009 in Adel, Iowa; 
Williamstown, Kentucky; Missoula, Montana; Fort Riley, Kansas; and 
Abilene, Texas. State cemeteries provide 20 percent of non-private 
burials for Veterans and their families.
Expanding and Improving Current National Cemeteries
    The next planning challenge for NCA will be to continue expansions 
and improvements to existing national cemeteries by acquiring land 
where necessary and completing development projects for additional 
gravesites or columbaria. We currently have major and minor 
construction projects underway to expand the life of several national 
cemeteries so that they can continue to meet the burial needs of 
Veterans, their family members and survivors in their geographic 
regions. Included in the President's FY 2010 budget request are major 
expansion projects at Abraham Lincoln National Cemetery in Illinois for 
$38.3 million, and Houston National Cemetery in Texas for $35 million. 
Also included is $50.7 million for the minor construction program, 
which will focus primarily on smaller gravesite expansion projects.
    In the area of facilities, we have begun several initiatives at our 
cemeteries in order to serve Veterans more efficiently. We have begun 
using graveliners that are pre-placed in the ground prior to the time 
of need. Pre-placed graveliners allow for a greater number of 
gravesites in a section because their installation precludes the need 
for buffer space between individual burial sites, which in turn reduces 
turf and irrigation needs. An acre with traditional gravesites will 
accommodate 871 burials; an acre with pre-placed graveliners can 
accommodate 1,815 burials or double the number of traditional 
gravesites.
    We are also responding to changes in burial preferences by Veterans 
and their families by constructing a greater number of columbaria for 
the inurnment of cremated remains. As the choice of cremation over 
full-casket burial continues to increase, columbaria allow us to 
accommodate more burials at a given site, while being responsive to 
Veterans' preferences. We are also developing new memorial walls in our 
cemeteries to honor those whose remains are not available for burial. 
These memorial walls require less space than the traditional placement 
of memorial markers on land which is now available to be used for 
interments. This is one more strategy we employ to ensure national 
cemeteries can provide burial options well into the future.
Strategic Goals
    As we approach meeting our performance goal of providing burial 
access for 90 percent of Veterans, we are also thinking strategically 
about how we will meet the needs of Veterans in the future. As a first 
step, VA commissioned an independent burial program evaluation that 
addressed multiple issues, including:

    <bullet>  Assessment of VA's current 75-mile service area standard;
    <bullet>  Adequacy of the 170,000 Veteran population threshold for 
planning new national cemeteries;
    <bullet>  Role of State cemetery grants in meeting Veterans' burial 
needs; and
    <bullet>  Potential use of cremation-only burial sites or 
mausoleums in meeting Veterans' burial needs and preferences.

    We provided this report to Congress on November 5, 2008. Any 
changes to current policy will be considered during formulation of 
future budget requests.
Performance Standards
    NCA continues to make the most effective use of available resources 
to ensure that national cemeteries are maintained and operated in a 
manner befitting their status as national shrines. In recognition of 
our stewardship and dedicated service to Veterans, NCA's national 
cemeteries achieved a customer satisfaction rating of 95 out of a 
possible 100 points by the 2007 American Customer Satisfaction Index 
(ACSI) survey undertaken by the University of Michigan. This is the 
second time that NCA received the highest score by a Federal agency or 
private organization participating in the ACSI. The ACSI study polled 
next-of-kin or individuals who had arranged for the interment of a 
loved one in a VA national cemetery within 12 months of the survey. The 
outstanding results achieved by NCA are a testament to the dedication 
and hard work of NCA's employees as they serve Veterans and their 
families during difficult and emotional times.
    National cemeteries carry expectations of appearance that set them 
apart from their civilian counterparts. To meet these standards, the 
2002 National Shrine Commitment report provided the first independent, 
comprehensive assessment of VA assets at 119 national cemeteries; 928 
projects were identified to repair, alter or improve existing cemetery 
elements at a then-estimated cost of $280 million. (Through 2008, NCA 
had completed work on 304 of the identified projects with an estimated 
cost of $99.5 million.) In 2003, we established operational standards 
to provide guidance and quantifiable goals for maintaining national 
cemeteries as national shrines at both open and closed national 
cemeteries. These standards are reviewed and updated continuously based 
on input from NCA cemetery staff, 70 percent of whom are Veterans 
themselves.
    To complement the operational standards we also established a 
comprehensive program by which the performance of national cemeteries 
is assessed, monitored and reported to the Under Secretary. The 
Organizational Assessment and Improvement (OAI) Program combines the 
traditional elements of an inspection program with the proven concepts 
of organizational excellence. This internal audit-based program is a 
combination of regular self-assessment, and periodic site visits by 
teams of NCA employees, to validate business and service delivery 
results and to measure the progress of the national cemetery in meeting 
national shrine standards of appearance. OAI allows us to objectively 
identify projects and allocate valuable resources. The program is in 
its fifth year and has become a valuable tool in assessing performance 
measures at all VA national cemeteries.
    NCA received $50 million in stimulus funds from the American 
Recovery and Reinvestment Act of 2009 to assist in fulfillment of our 
commitment to the national shrine standards. These funds are being used 
for 395 cemetery projects in 39 States and Puerto Rico. Projects 
include raising, realigning and cleaning headstones and markers, and 
repairing sunken graves. We are also funding projects that conserve 
energy and water through the use of wind turbines, solar power and 
other measures. We are repairing historic monuments and memorials at 
national shrines; repairing roads, buildings, and other cemetery 
infrastructure; and purchasing new equipment for cemetery operations. 
These stimulus funds will be obligated by September 2010, and we have 
established procedures to ensure rigorous oversight of and 
accountability for the use of these funds.
    In addition to being good stewards of our national cemeteries, we 
listen to our Veterans and their families regarding benefit inequities 
and work with Congress and this Committee in particular to expand 
benefits to respond to the needs and changing expectations of those we 
serve and to properly honor our servicemen and women. The headstone and 
marker program is an area where this partnership has been especially 
fruitful. Initially the Government furnished a headstone for a 
servicemember who died on the battlefield to ensure the remains were 
marked. Then the purpose of this provision evolved to ensure that the 
remains of a Veteran in a national, post or private cemetery would not 
lie in an unmarked grave. With the passage of PL 107-103, The Veterans 
Education and Benefits Expansion Act of 2001, the benefit of a 
Government-furnished headstone expanded to honor all Veterans who died 
after the date of passage, regardless of whether the grave was 
previously marked with a private headstone. The Government-furnished 
headstone or marker then became a symbol of a Veteran's service to the 
Nation and recognition of its gratitude. At the conclusion of this 5-
year pilot study, VA submitted a report on the positive reception of 
the Veteran community to this expanded burial benefit. We were pleased 
to see it become permanent and apply to those Veterans who died since 
November 1, 1990. (Prior to that date, a monetary allowance had been 
available when survivors purchased private headstones and markers.)
    In response to concerns voiced by Veterans and their family 
members, we worked with Congress and, again, with this Committee, to 
expand the memorial marker benefit to include all individuals eligible 
for burial in a national cemetery but whose remains are unavailable.
    Another area where we are meeting the changing needs of Veterans is 
by expanding the headstone and marker program to include a new 
medallion option that will acknowledge service to the Nation for 
Veterans buried in private cemeteries around the world. I am pleased to 
report on our progress in making this new benefit available in the near 
future.
    With the passage of PL 110-157 in December 2007, the Secretary now 
has the authority to furnish a medallion or other device that can be 
affixed to a privately-purchased headstone, marker or niche cover to 
signify the grave as that of a Veteran. Veterans and their family 
members will be able to choose either this new medallion, or the 
traditional Government headstone or marker, for Veterans who died on or 
after November 1, 1990, and are interred in privately-marked graves in 
private cemeteries. We believe that many Veterans and their families 
will request this medallion for placement at those private cemeteries 
where a traditional Government-furnished headstone or marker is not 
permitted, or where families preferred to privately mark a grave but 
still seek recognition of a Veteran's service to the Nation.
    VA has worked with the Department of the Army's Institute of 
Heraldry in developing designs for the new medallion. Designs and 
prototypes have been presented to the Commission of Fine Arts, the VA 
Advisory Committee on Cemeteries and Memorials, and multiple Veterans' 
focus groups. Based on input from these varied groups, the Institute 
has refined the design, and prototypes for a medallion are being 
fabricated for final approval by the VA Secretary. We anticipate that 
we will enter into manufacturing contracts at the end of this calendar 
year and the medallion will be available to Veterans and their families 
in early 2010. This will expand further the recognition we provide 
Veterans for their service to our Nation.
Additional NCA Achievements and Initiatives
    As challenged by the Secretary, we are looking at our internal 
processes to ensure that we are maximizing resources and continually 
serving Veterans with ever-improving services. I would like to share 
some of these innovations with you.

    NCA National Scheduling Office. We are restructuring and 
streamlining the processing of burial eligibility determinations and 
interment scheduling to better serve the needs of Veterans, their 
families and funeral directors. Located in St. Louis, Missouri, the 
centralized NCA National Scheduling Office opened in January 2007 to 
handle interment requests for all national cemeteries except those 
located in Puerto Rico and Hawaii. As a one-stop call center, it 
ensures fast and consistent eligibility determinations, and is 
available to families and funeral homes for scheduling of burials 7 
days a week. Previously, scheduling occurred Monday through Friday 
during national cemetery office hours.
    NCA has also initiated a paperless document processing system. 
Veteran, spouse and dependent information may be submitted by fax and 
all documents received are automatically entered into an electronic 
database. When documentation is unavailable, scheduling office staff 
attempt to obtain necessary information from various available sources. 
From receipt of supporting documentation to final determination and 
scheduling, the processing is now paperless.
    In FY 2008, the first full year of operation, the Scheduling Office 
handled 72,249 calls, averaging less than 10 minutes from start to 
finish. More than half of the calls resulted in the scheduling of a 
burial while the caller was on the phone.

    Timeliness of Marking Graves in National Cemeteries. We are proud 
that innovations by our dedicated workforce have dramatically reduced 
the amount of time it takes to mark the grave with a Government-
furnished headstone or marker after a burial is complete. This is 
important to Veterans and their family members and survivors and 
therefore, it is important to us. The headstone or marker is a lasting 
memorial that serves as a focal point not only for present-day 
survivors but also for future generations. Our staff knows that 
following the death of a loved one, seeing the tangible grave marker 
often brings a sense of closure to the family. We make every effort to 
have the grave marked on the day of the interment for OEF/OIF 
servicemembers who die from combat-related injuries.
    Of the 113,000 headstones or markers ordered for VA national 
cemeteries, 95 percent were placed within 60 days of interment, a 
significant improvement over the performance level of 49 percent in 
2002. NCA is now focused on reducing the time required to mark the 
graves of Veterans interred in private cemeteries. In FY 2008, 215,000 
headstones and markers were ordered for private cemeteries. Of these, 
95 percent were ordered within 20 days from receipt of the application. 
This is a dramatic improvement over the FY 2007 performance of 38 
percent, and also exceeds our strategic target of 90 percent.

    NCA National Training Center. In order to ensure a high-performing, 
well-trained workforce and to meet succession planning goals, the NCA 
National Training Center in St. Louis was established in 2004. The 
Training Center emphasizes technical, supervisory and leadership 
training so that high quality service is provided to our Veterans and 
their families. The Training Center has continued to expand to train 
supervisors, equipment operators, grounds keepers, cemetery 
representatives, and other NCA staff. Additionally, we offer training 
to State Veteran cemetery employees to assist them to meet national 
shrine standards. As new national cemeteries become operational, the 
Training Center offers consistency in operations throughout the 
national cemetery system, and ensures that a high-performing workforce 
and a well-trained staff is prepared to fill key positions.
    We are especially proud of the establishment of the Cemetery 
Director Intern Program, an intensive year-long program designed to 
develop key technical, administrative, leadership and supervisory 
skills and competencies. In addition to classroom training, intern 
candidates rotate through a series of hands-on assignments that expose 
them to all NCA business and operational processes. After successful 
completion of their internship, these individuals are prepared to 
assume the role of Director or Assistant Director at one of our 
national cemeteries. The fifth class of cemetery director intern 
candidates will graduate in April 2010.

    Reproduction of Gettysburg Address Tablets. To commemorate the 
bicentennial of President Abraham Lincoln's birth, NCA has reproduced 
62 historic cast-iron plaques containing the Gettysburg Address. The 
original Gettysburg Address tablets in national cemeteries were erected 
around 1909, and a second set of tablets was erected in the 1930s in 
national cemeteries developed between the two World Wars. These tablets 
will now be located at all national cemeteries to honor President 
Lincoln, who established the first 14 national cemeteries in 1862. Like 
the originals, these tablets were manufactured at Rock Island Arsenal, 
Illinois.

    Memorial Programs Service Initiatives. Another area where NCA staff 
seeks to respond to those we serve is the Applicant Assistance Call 
Center located in Washington, D.C. The Call Center responds to 
approximately 1,500 calls weekly, and provides information on headstone 
and marker delivery status, as well as general information about 
Memorial Programs Service benefits. In 2002, to improve customer 
service and the efficiency of our headstone and marker program for 
Veterans buried in private cemeteries, NCA customized a paperless 
processing system using a toll-free fax line that allows us to receive 
applications electronically into our automated application processing 
system. In FY 2008, we received 45 percent of our applications--about 
95,000 per year--in this manner, and anticipate the rate to increase. 
For those requesting a headstone or marker, we recently initiated a 
postcard notification to provide confirmation of receipt of the 
application and status regarding delivery date. We are also initiating 
a customer satisfaction survey to determine how well we are meeting our 
clients' needs.

    First Notice of Death (FNOD). NCA has assumed responsibility from 
the Veterans Benefits Administration (VBA) for entering approximately 
1,800 First Notices of Death each day into VA information systems, 
which in turn update VA electronic files to terminate compensation 
benefits to deceased Veterans. The transfer of this Department function 
assists VA clients by freeing up VBA resources to focus on adjudicating 
and paying Veterans claims and better aligns business processes with 
core administration missions. An important additional benefit is a 
reduction in overpayments and the timely notification to next-of-kin of 
potential survivor benefits.

    Nationwide Gravesite Locator. In 2004, NCA launched a Web-based 
Nationwide Gravesite Locator (NGL) system to search for the gravesite 
locations of deceased family members and friends, and to conduct 
genealogical research.
    The NGL is accessed approximately 1.5 million times annually and 
currently contains more than 6.7 million records and is growing. It 
provides information on Veterans and family members buried in VA's 130 
national cemeteries since the Civil War, with more recent records (1999 
to the present) for burials in State Veterans cemeteries and Arlington 
national cemetery. To further assist Veterans and their families, we 
recently added information on Government-furnished headstones and 
markers placed in private cemeteries. Additionally, to reach more 
users, VA has optimized the NGL for viewing and browsing on ``smart'' 
handheld devices in response to changing needs.

    Outreach Activities. Public outreach activities continue to 
increase with NCA participation in over 30 national conferences last 
year, including the National Funeral Directors Association Conference 
and the National Congress of American Indians 66th Annual Convention. 
In addition to our national outreach efforts, we participate in 
thousands of local events, including Town Hall meetings, community 
fairs, celebrations, and other civic events. We are targeting specific 
organizations that have day-to-day contact with homeless, indigent and 
women Veterans. I was pleased to represent VA at the Cremation 
Association of North America conference last month in Denver. 
Additionally, my senior staff and I conduct bi-annual meetings with 
Veterans Service Organization representatives to exchange information 
and to ensure they are informed of current NCA program initiatives.

    Innovation. Consistent with our commitment to exchange ideas and 
best practices with State and other Federal cemeteries, we partnered 
with the National Park Service to test biological cleaning products on 
marble headstones to find products that effectively clean headstones, 
are user-friendly, environmentally safe, and cost-effective. Through 
innovations by our cemetery staff, we have received a patent on a 
pivotal casket carrier, developed at Rock Island National Cemetery, 
that allows cemetery staff to maneuver caskets easily between 
headstones. We are also working with the U.S. Patent and Trademark 
Office to obtain a patent on a Mower/Trimmer device that was developed 
at Calverton National Cemetery. We are partnering with the private 
sector to identify possible commercial applications for these 
innovations.
Closing
    Thank you again for the opportunity to come before you today. I 
hope my testimony answers the important question you have posed--
``Honoring the Fallen: How Can We Better Serve America's Veterans and 
Their Families?'' It is a question foremost in the minds of our 
dedicated workforce who on a daily basis are honored to provide 
memorial benefits to Veterans, their family members and survivors. I 
look forward to working with the Members of this Subcommittee as we 
jointly respond to the changing needs of those we are honored to serve.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

John C. Metzler
Superintendent
Arlington National Cemetery
Arlington, VA 22211

Dear Mr. Metzler:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

        Questions from the House Committee on Veteran's Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
        Oversight Hearing Honoring the Fallen: How Can We Better
              Serve Americas Veterans and Their Families?
                           September 24, 2009
    Question: How has Arlington National Cemetery handled instances in 
which a veteran's survivor(s) have requested that the burial benefit 
include a parent who is not otherwise eligible to be buried in ANC or a 
national cemetery?

    a.  Can such requests by the veteran be considered prior to the 
death of the veteran?
    b.  Since 2001, how often are these requests made annually?
    c.  In 2008 and 2009, how many have been honored? How many have 
been denied?

    Answer: When Arlington National Cemetery (ANC) receives a request 
for the burial of a family member of a servicemember in the same 
gravesite who is already interred in ANC and the requestor does not 
meet current eligibility standards, we will consider an exception to 
the interment policy provided the family member does not occupy space 
set aside for the spouse, minor or unmarried adult dependent child of 
the servicemember, and there is space in the gravesite for the 
additional burial. Further the requestor is not married nor has any 
dependents; these types of requests have been approved.

    a.  Arlington National Cemetery only considers these special 
exceptions to the interment policy at the time of need.
    b.  Since 2001, the following requests were received and approved:
      

--------------------------------------------------------------------------------------------------------------------------------------------------------
                              2001                                   2002       2003       2004       2005       2006       2007       2008       2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
11..............................................................         9         13         11         11          4          6          6          4
--------------------------------------------------------------------------------------------------------------------------------------------------------


       2001--7 daughters and 4 sons
       2002--2 mothers, 5 daughters and 2 sons
       2003--1 mother, 10 daughters and 2 sons
       2004--6 daughters and 5 sons
       2005--7 daughters, 3 sons and 1 brother
       2006--4 daughters
       2007--3 daughters and 3 sons
       2008--1 mother, 4 daughters and 1 son
       2009--2 daughters and 2 sons

    c.  10 requests were honored in 2008/2009: 6 in 2008 and 4 in 2009, 
no requests have been disapproved.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Katherine Stevenson
Assistant Director, Business Services
National Park Service
U.S. Department of the Interior
1849 C Street, N.W.
Washington, D.C. 20240

Dear Ms. Stevenson:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                                    U.S. Department of the Interior
                                            Office of the Secretary
                                                    Washington, DC.
                                                  November 13, 2009

Hon. John J. Hall
Chairman
Subcommittee on Disability Assistance and Memorial Affairs
Committee on Veterans' Affairs
United States House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    Enclosed is the response to a followup question for the record from 
the oversight hearing of the Subcommittee on Disability Assistance and 
Memorial Affairs held on September 24, 2009.
    This response has been prepared by the National Park Service. Thank 
you for giving us the opportunity to respond to you on these matters.

            Sincerely,

                                             Christopher P. Salotti
                                                Legislative Counsel
                    Office of Congressional and Legislative Affairs
    Enclosure

    cc: Hon. Doug Lamborn, Ranking Minority Member
    Subcommittee on Disability Assistance and Memorial Affairs

                               __________

        Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
        Oversight Hearing Honoring the Fallen: How Can We Better
              Serve Americas Veterans and their Families?
                           September 24, 2009
    Question 1: At the hearing, the NCA reported that the VA Advisory 
Committee on Cemeteries and Memorials is scheduled to meet for its 
biannual session in November. Has the NPS been invited to participate 
in this meeting?

    Response: Yes, the National Park Service has been invited to attend 
the VA Advisory Committee on Cemeteries and Memorials meeting in 
Washington, DC on November 17-18, 2009. Brad Bennett, Superintendent of 
Andersonville National Historic Site, will attend. Mr. Bennett has been 
selected to replace Fred Boyles, the previous Andersonville 
superintendent, on the VA Advisory Committee on Cemeteries and 
Memorials.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

John Wilson
Assistant National Legislative Director
Disabled American Veterans
807 Maine Ave., S.W.
Washington, D.C. 20024

Dear Mr. Wilson:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                       POST-HEARING QUESTIONS FOR
       JOHN L. WILSON, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR OF
                THE DISABLED AMERICAN VETERANS FROM THE
                     COMMITTEE ON VETERANS AFFAIRS
           SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL
            AFFAIRS, UNITED STATES HOUSE OF REPRESENTATIVES
                           SEPTEMBER 24, 2009

           Oversight Hearing Honoring the Fallen: How Can We
           Better Serve America's Veterans and Their Families
    Question 1: The Independent Budget makes clear recommendations for 
the NCA to include the State Grant Program funding allocation. In the 
IB Report for 2010, it outlined two new threshold model scenarios--one 
for a 65 mile radius and another for a 55 mile radius. How would 
reducing this standard affect the NCA budget, and has the IB forecasted 
the funding requirements for those options?
    Response: The NCA has done an exceptional job of providing burial 
options for 88 percent of the 170,000 veterans who fall within a 75-
mile radius-threshold model. However, under this model, no new 
geographical area will become eligible for a national cemetery until 
2015. St. Louis, Missouri, will, at that time, meet the threshold due 
to the closing of Jefferson Barracks National Cemetery in 2017. 
Analysis shows that the five areas with the highest veteran population 
will not become eligible for a national cemetery because they will not 
reach the 170,000 threshold.
    The NCA has spent years developing and maintaining a cemetery 
system based on a growing veteran population. In 2010 our veteran 
population will begin to decline. Because of this downward trend, a new 
threshold model must be developed to ensure more of our veterans will 
have reasonable access to their burial benefits. Reducing the mile 
radius to 65 miles would reduce the veteran population that is served 
from 90 percent to 82.4 percent, and reducing the radius to 55 miles 
would reduce the served population to 74.1 percent. Reducing the radius 
alone to 55 miles would bring only two geographical areas into the 
170,000 population threshold in 2010, and only a few areas into this 
revised model by 2030.
    Several geographical areas will remain unserved if the population 
threshold is not reduced. Lowering the population threshold to 100,000 
veterans would immediately make several areas eligible for a national 
cemetery regardless of any change to the mile radius threshold. A new 
threshold model must be implemented so more of our veterans will have 
access to this earned benefit.
    Question 2: In 2002, VA reported to Congress on the independent 
study on Improvements to veterans cemeteries. At the time, DAV made a 
recommendation to fund the National Shrine Initiative. Since then, the 
NCA has made several repairs and undergone renovations and expansions. 
What has the DAV observed regarding these efforts, and what additional 
activities do you still see needed for 2010? 2015?
    Response: The fact that $25 million was set aside for the National 
Shrine Commitment for fiscal year (FY) 2007 and FY 2008 is encouraging. 
The NCA has done an outstanding job thus far in improving the 
appearance of our national cemeteries, but we have a long way to go to 
get where we need to be. By enacting a 5-year program with dedicated 
funds and an ambitious schedule, the national cemetery system can fully 
serve all veterans and their families with the utmost dignity, respect, 
and compassion.
    The DAV calls on the administration and Congress to provide the 
resources required to meet the critical nature of the NCA mission and 
fulfill the Nation's commitment to all veterans who have served their 
country so honorably and faithfully. We believe Congress should provide 
NCA with $241.5 million for FY 2010 to offset the costs related to 
increased workload, additional staff needs, general inflation, and wage 
increases; and include as part of the NCA appropriation $50 million for 
the first stage of a $250 million 5-year program to restore and improve 
the condition and character of existing NCA cemeteries.
    Question 3: Does the DAV provide transportation to national 
cemeteries for veterans survivors in the same way that they transport 
patients to VA Medical Centers?
    Response: The DAV does not provide transportation to national 
cemeteries in the same manner as is done for Department of Veterans 
Affairs (VA) Medical Centers. The program referred to is the 
Transportation Network Program. Because so many sick and disabled 
veterans lack transportation to and from VA health care facilities for 
needed treatment, DAV operates a nationwide Transportation Network. 
This program continues to show tremendous growth as an indispensable 
resource for veterans. Across the Nation, DAV Hospital Service 
Coordinators operate 190 active programs. They've recruited 8,532 
volunteer drivers, who logged 28,136,963 miles last year, providing 
809,656 rides for veterans to and from VA health care facilities. Many 
of these veterans rode in vans DAV purchased and donated to VA health 
care facilities for use in the Transportation Network. DAV Departments 
and Chapters, together with the National Organization, have now donated 
2,260 vans to VA health care centers nationwide at a cost of 
$46,610,654.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Raymond Kelley
National Legislative Director
AMVETS
4647 Forbes Boulevard
Lanham, MD 20706

Dear Mr. Kelley:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

        Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
        Oversight Hearing Honoring the Fallen: How Can We Better
              Serve Americas Veterans and their Families?
                           September 24, 2009
    Question 1: The IB recommended that the NCA create two 
accessibility threshold models for the burial benefits: one for 
veterans who reside inside the threshold and another for those who live 
beyond it. Does the model take into account very rural and remote areas 
and conversely does it consider the traffic challenges in more urban 
congested areas?
    Response: The two-model system proposal is based on the VA 
threshold policy of veteran population within a certain mile radius. 
AMVETS believes there should be a policy provision regarding the 
threshold model that will allow for national cemeteries to be built in 
areas that do not fall within the threshold model, if a natural or man-
made obstacle denies veterans reasonable access to a national cemetery. 
For example, urban areas that may have a national cemetery within 75 
miles, but the length of time that it takes to get to the cemetery from 
the decedents home is greater than 2 hours, or two populated areas that 
are within a 75 mile radius and meet the population threshold, but are 
separated by a land feature that causes the actual drive time to be 
more than 2 hours for a portion of that threshold population. 
Conversely, this provision should be afforded to veterans who do not 
have reasonable access, to include rural and remote, to a State or 
national cemetery regardless of any threshold models.
    Question 2: Given the success of the State Cemetery Grants Program, 
would it be better to expand that program rather than reduce the 
service area standard to less than a 75 mile radius or reduce the 
population threshold to a point below 170,000 veterans? Or both?
    Response: The mission of NCA is to provide a final resting place 
for our veterans. Without reducing the threshold radius model 
regulation, NCA will no longer be developing new cemeteries. The 2010 
Priority List of Pending State and Tribal Government Cemeteries has 60 
construction grant pre-applications, 36 of which already have State 
matching funds. VA currently has enough personnel resources to 
establish just a few of these State or tribal cemeteries per year. In 
2009 six cemeteries were developed and in 2010 there are 13 planned. A 
large majority of these cemeteries will accommodate less than 25,000 
veterans and many will serve just a few thousand per cemetery. Also, 
States like California will not provide State matching funds so relying 
heavily on the States Grants Program would cause certain areas to be 
under served. AMVETS believes it would be counter productive to rely on 
just one of these burial options in the future, and we would suggest 
that the State Grants Program be funded at the level requested by the 
Independent Budget and that VA reduce the population threshold to 
100,000 to accommodate more densely populated areas.
    Question 3: In your testimony you claimed that visitors to national 
cemeteries are likely to see sunken graves, deteriorating markers, and 
poor roads and turf that have decayed over the years. Conversely, VA 
reports that on the Customer Satisfaction Index, it scores amongst the 
highest even among private industry entities. How do you reconcile your 
information from that reported by VA? How often does AMVETS conduct 
site visits to national cemeteries?
    Response: AMVETS has made countless visits to national and State 
cemeteries providing funeral honors; however, our testimony is not 
based on our evaluation of cemeteries it is based on NCAs own 
evaluation. In their most recent evaluation, NCA found that the 
percentage of properly aligned headstones and markers had fallen to 65 
percent in 2008, down from 69 percent just 1 year earlier. NCA also 
identified 153 monuments and memorials that need repair or restoration; 
they currently have the financial means to correct 49 of these 
monuments and memorials.
    To sustain the high Customer Satisfaction Index, VA must be 
provided the resources to continue to have our cemeteries held in the 
highest regard.
    Question 4: If a deceased veteran has no other eligible 
beneficiaries at the time of his/her death, should a parent be remitted 
to be buried with the veteran without the need of a waiver?
    Response: Historically, veterans benefits are provided to veterans 
and their dependents, allowing benefits to move to descendants. 
Allowing parents to receive veteran earned benefits would change the 
logical direction of transferability to ancestry. Setting a precedent 
of this type would open the door of ancestry transfer of benefits. 
AMVETS believes this would be a bad precedent to set and there are 
burial options that will provide military honor and accommodate the 
surviving parents wishes as well.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Vivanne Cisneros Wersel
Chair, Government Relations Committee
Gold Star Wives of America, Inc.
200 N. Glebe Road, Room 425
Arlington, VA 22203

Dear Ms. Wersel:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

            Follow-up Questions to the September 24 hearing,
  Honoring the Fallen: How Can We Better Serve Americas Veterans and 
                            their Families?
    Question 1: What are the most prevalent issues survivors have when 
they are first planning a funeral and how does VA meet those needs?
    Response: Almost invariably there are questions/misunderstandings 
involving costs and the staging of the ceremony. It would be well for 
the briefers to understand this is not a time that lends itself to a 
great ability to focus for the widows/widowers. GSW recommends that 
there should be a determined extra effort to assure that the recipient 
understands the information received and will be able to retain it. We 
understand the Department of Veterans Affairs is in the process of 
putting together a brochure that will present this vital information, 
and we applaud that effort. It is important that both the costs and the 
ceremony protocol be written down, clearly, concisely and in print 
easily readable.
    There are also great variances on understanding what can be put on 
the headstone. The one concern we heard continually was that simply 
listing the military facts of the life of the lost loved one on the 
headstone was usually not adequate emotionally for the family. The 
ability to put something more personal on the headstone while 
maintaining the look and integrity of the cemetery is important to the 
family, whether spouse or children or parents. Also, many widows seem 
to have the question of headstone markings asked right at the funeral 
and with the request to sign off on it at that time. This is simply not 
acceptable nor an appropriate time for the widow to understand the 
choices she may have in the decision she is making. We strongly 
encourage for this process to be reviewed and adjusted.
    Question 2: In your testimony you noted there are geographic 
variances in the cost of covering a funeral. Does GSW have another 
proposed alternative method for providing these benefits? Please 
elaborate.
    Response: GSW would recommend a local adjustment to the flat rate 
for the cost of funerals in various parts of the country. Clearly a 
funeral in rural mid-America is different from one in an urban setting, 
and one in a VA cemetery different from a privately run resting place.
    We are also encouraged that the VA is studying the possibility of 
creating new VA cemeteries in areas that do not currently qualify under 
the criteria established for approval of new sites, either because none 
exists in the geographic are or because the current cemetery is full. 
This is important in assisting survivors with a burial location 
convenient to home.
    Question 3: When survivors visit national cemeteries, are you aware 
of any situation where they encounter any problems with the condition 
of the facilities or the helpfulness of the staff?
    Response: Our membership does not identify any issues of this 
nature.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Lesley Witter
Director of Political Affairs
National Funeral Directors Association
400 C Street, N.E.
Washington, D.C. 20002

Dear Ms. Witter:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                             National Funeral Directors Association
                                                    Washington, DC.
                                                  November 13, 2009

Representative John Hall
Chairman, Subcommittee on Disability and Memorial Affairs
U.S. House of Representatives
Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, DC 20515

Dear Chairman Hall

    Thank you for the opportunity to testify before the House Committee 
on Veterans Affairs Subcommittee on Disability Assistance and Memorial 
Affairs on September 24, 2009. Below you will find answers to your 
questions about NFDAs testimony at the oversight hearing on Honoring 
the Fallen: How Can We Better Serve Americas Veterans and Their 
Families?

    1.  I understand that a 2008 study found that there is a lack of 
knowledge about the VA burial benefits. How do you think that VA could 
better provide outreach targeted to funeral home directors and to 
families?

    While it is possible that there is a general lack of knowledge 
about veterans benefits, NFDA is confident that funeral directors are 
very knowledgeable about veterans funeral and burial benefits. NFDA 
works diligently to keep our members informed and educated about issues 
relating to veterans funeral and burial benefits, and they in turn 
serve as a conduit of benefit information for Veterans families. Some 
possible avenues of targeted outreach for the VA may be with groups 
that provide services and educational programs to veterans and their 
families prior to their death.

    2.  In the study the NFDA conducted in preparation for this 
hearing, did you survey all 19,000 of your members? How many responded? 
What is the total number of funeral home directors in America?

    Our research indicates that there are approximately 105,668 people 
working in the funeral service industry. 70,669 are non-licensed 
funeral service personnel and 35,000 are licensed personnel, such as 
funeral directors and embalmers.
    NFDA completed a non-scientific survey of our membership regarding 
their personal experiences and opinions on how we can better serve our 
veterans and their families. The purpose of our study was to survey our 
members regarding their viewpoint on funeral benefits offered to 
Veteran families, and to get personal anecdotes and experiences about 
working with the Veteran Affairs and the Department of Defense. This 
was done via a Web-based study which was sent to approximately 7,700 
NFDA members. A survey invitation containing a link to the online 
survey was posted in NFDAs electronic newsletter, The Bulletin. A 
reminder was also posted in The Bulletin 1 week after the initial 
invitation was sent.
    This effort yielded a total of 60 completed interviews with a 
margin of error of <plus-minus>12.6 percent. NFDA believes that despite 
the low response rate, the responses provided are similar to the 
experiences of our membership as a whole and is therefore a 
representative sample. Given this margin of error, the results provided 
by our survey were provided in testimony for directional purposes only 
and are only an indication of respondents opinions.

    a.  According to your informal survey, VA overall was responsive to 
funeral home directors. How did you define responsive? Has there been a 
difference regarding VAs communication with funeral home directors 
since the institution of its electronic records system and new call 
center?

    As you know, our survey indicated that the majority of funeral 
directors are satisfied with the responsiveness of the VA. Most funeral 
directors felt the VA and DoD were either extremely responsive (22.0 
percent) or very responsive (57.6 percent) to funeral directors. As 
this was not a scientific survey, we did not define satisfied. Instead, 
respondents were asked to rate how responsive the VA and DoD were to 
funeral directors by using response categories of extremely responsive, 
very responsive, somewhat responsive, not very responsive, and not at 
all responsive.

    3.  About one-third of your members were experiencing difficulties 
with VA burial benefits and 66 percent said that benefit was 
insufficient. How would you recommend that VA improve its current 
burial benefit?

    The majority of funeral directors surveyed indicated that the 
current funeral and burial benefit is insufficient because of how it 
impacts the families of veterans. In an effort to relieve the financial 
strain on veteran families, NFDA respectfully suggests that Congress 
enact legislation to adjust these burial benefits for inflation 
annually.

    At its inception, the funeral and burial benefits covered 
approximately 72 percent of the funeral costs for a service-connected 
death and 22 percent for a non-service-connected death. However, NFDA 
estimates that the current national average cost for a funeral and 
burial in a private cemetery has reached $7,323, and the cost for a 
burial plot is $2,133. The current VA payment is either $2,000 for 
service-connected deaths on or after September 11, 2001, or $1,500 for 
burial expenses for service-connected deaths prior to September 10, 
2001. For nonservice-connected deaths the VA will pay up to $300 toward 
burial and funeral expenses and a $300 plot-interment allowance for 
deaths on or after December 1, 2001. The plot-interment allowance is 
$150 for deaths prior to December 1, 2001.
    As you can see from these figures, the current VA benefits do not 
come close to covering the current cost of a funeral or burial. This 
means that veteran families are forced to make up the difference, or 
funeral directors must donate their time and services to a veteran 
family who cannot afford the difference between actual cost and VA 
benefit amount.
    In addition to concerns about how the amount of the current 
funeral/burial benefit affect veteran families, several NFDA members 
expressed concern about the complexity of benefits offered. As one NFDA 
member put it there are too many variables, such as plot allowance, 
transportation, stone engraving, etc. If a veteran dies, there should 
simply be a lump sum payment made to the family to reimburse a portion 
of their funeral expenses without categorizing it. And simplifying the 
application would help as well. Additionally, other survey respondents 
indicated that the 48 hour time requirement for family members to 
locate discharge papers and the long delays in processing paperwork can 
be problematic for both funeral directors and families.

    a.  At the hearing, Gold Star Wives alluded to the geographic 
variances in funeral and burial expenses. Do you think VA should 
provide a locality adjustment based on the rural or urban nature of the 
community or whether the veteran had resided outside of the NCA service 
area standard? If so, how should that adjustment be determined?

    Like any other good or service, funeral and burial costs are 
affected by the standard of living in a particular area. There is no 
doubt the funeral and burial costs in certain metropolitan areas are 
significantly higher than those same services in more rural areas. 
There are a variety of reasons for the discrepancy in costs, but in 
order to ensure equity among veterans, NFDA supports the notion that 
the VA should provide a locality adjustment based on the rural or urban 
nature of the community or whether the veteran had resided outside of 
the NCA service area standard.

    b.  Do funeral homes not accept VAs allowance when it is 
insufficient for covering the cost of the veteran's funeral? What do 
veteran's families do when they cannot afford a funeral service or 
burial?

    Families have the option of burying their loved one in a veterans 
cemetery for no cost; however, families often chose to bury their loved 
one in a private cemetery because of logistical issues like traveling 
to visit the gravesite. If a family chooses a funeral and burial in a 
private cemetery, the cost is obviously higher. In this case the family 
can elect a funeral package that costs the exact amount of the VA 
benefit. Alternatively, the family can elect to pay any charges over 
the amount of the VA benefit, or chose a cheaper funeral and burial 
plan. In many instances, the funeral director will offer additional 
goods and services to the family at no cost as a way to honor the 
veteran's service. The average dollar amount absorbed by funeral 
directors per veteran funeral was $652. However, the range of costs 
absorbed was between $25 and $3,000. Some of the costs absorbed by 
funeral directors include service fees, casket and vault costs, 
transfer costs of remains to funeral home, embalming and other 
preparation of the body, fees for the use of the hearse, and charges 
associated with buglers and flag cases etc.

    4.  In your support of H.R. 2642, you noted that funeral home 
directors are aware of circumstances in which a veteran's remains would 
be unclaimed or abandoned. Is there a process for referring these 
situations to VA and are there situations in which VA has not responded 
to such a request?

    The average number of unclaimed cremated remains at respondents' 
funeral homes was 6.21. These remains are often those of someone who 
dies without assets and without family or friends to pay for their 
funeral. There is a risk that veterans whose remains are unclaimed, may 
be buried in indigent graves instead of receiving the funeral they 
earned because of their service to our country.
    Unfortunately, there is not a standard process for referring these 
situations to the VA, so it is up to funeral directors or some other 
entity to contact the VA to see if the unclaimed remains are those of 
veterans. When a VA representative is contacted and is not able to 
verify veteran status from computer records, a process is activated to 
investigate further, which includes gaining assistance from the VA 
Records Management Center or the National Personnel Records Center 
where veterans' military records are stored. Generally, the VA will pay 
an allowance to the person or entity who paid for the veteran's funeral 
or benefit, if he or she has not been reimbursed by another Government 
agency, or some other source, such as the veteran's employer. There is 
no time limit for claiming reimbursement for a service connected death, 
but non-service connected reimbursement claims must be filed within 2 
years of the veteran's burial.
    NFDA supports Mr. Tiberi's bill, H.R. 2642, because it directs the 
Secretary of Veterans Affairs to work with veterans service groups and 
other organizations to provide assistance in determining if 
unidentified or abandoned remains are those of a veteran eligible for 
burial at a national cemetery. In addition, the bill requires the 
Secretary to establish a searchable public database of the veterans 
identified in this project. If remains are found to be those of an 
eligible veteran, the VA will provide the burial.

            Sincerely,

                                                      Lesley Witter
                                      Director of Political Affairs

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Marilyn Park
Legislative Representative
American Federation of Government Employees
80 F Street, NW
Washington, D.C. 20001

Dear Ms. Park:

    Thank you for testifying at the House Committee on Veterans' 
Affairs Subcommittee on Disability Assistance and Memorial Affairs 
oversight hearing on Honoring The Fallen: How Can We Better Serve 
America's Veterans and Their Families?, held on September 24, 2009. I 
would greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter-size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                       Responses by John Nicolai
             Ft. Logan National Cemetery on Behalf of AFGE
       To Questions from the House Committee on Veterans' Affairs
       Subcommittee on Disability Assistance and Memorial Affairs
        Oversight Hearing Honoring the Fallen: How Can We Better
              Serve America's Veterans and Their Families?
                           September 24, 2009
    Question 1: The jobs performed at the NCA are varied, but all 
contribute to the cemeteries' abilities to meet the National Shrine 
Mandate and produce high satisfaction scores. What has the NCA done to 
train staff and improve performance?
    Response: I am not aware of any formal training exists for 
interment drivers and caretakers-two positions regularly lost to 
contracting out. Most of the training done at Fort Logan National 
Cemetery has been on the job training as far as I know. There is a 
cursory record kept of experiential training done for the grounds 
crews. I do not know how often it is updated or whose responsibility it 
is, the workers or Management, to keep track of the time spent in OJT.
    In contrast, the Interment Operators are usually sent to a training 
facility in Illinois. Of the four Cemetery Representatives, two have 
been sent to the training facility in St. Louis.
    Question 2: Are there different performance standards for NCA 
employees as opposed to services performed by contractors?
    Response: To the best of my knowledge, yes, NCA employees are held 
to different, and higher performance standards than contractors. As an 
observer it is quite clear that the contractors are only there to do a 
job and do not share the behavioral concerns of the permanent 
employees. Examples follow:
    Because there is no permanent structure for the employees of the 
subcontractors, the cemetery grounds is the only place to take a break 
or eat their lunch. They gather around the shade of a tree and take 
their breaks. Because they have no vehicles to go elsewhere there is no 
choice offered to them to do anything different. But it is certainly 
unsightly and a concern when a committal service procession drives by 
on their way to a committal service for our fallen veterans to see 
contract workers having lunch on the cemetery grounds, especially when 
there a rule against picnicking for our visitors. I believe this only 
happens because contract workers do not have the same connection to and 
sense of honor about the cemetery grounds as NCA employees, most of 
whom are veterans.
    The subcontractor employees usually come to work on foot or bike. 
When they need to use a restroom they either walk or ride their bikes 
to and from the location they are working. At times they do not observe 
that there is a procession coming up behind them and we have to stop 
the procession in order to avoid running into them.
    There have been issues with inappropriate dress. A subcontract 
worker was working without a shirt. Another was seen wearing a t-shirt 
with that said Get Naked, clearly a phrase that was not appropriate for 
work attire in this environment.
    The mowing and trimming done on the cemetery by the subcontractors 
is substandard. Having been responsible for doing these tasks, as a 
cemetery caretaker, it is clear the subcontractors are not held to the 
same standards. Quite often there are windrows of cut grass in the 
cemetery burial sections and the headstones, even though they were 
trimmed, are not well trimmed.
    Many times the contract administrator has had to be called and 
asked to have the mowers move to another section or turn their machines 
off during committal services because of the noise. The FTE employees 
were always keenly aware of the need for peace and quiet when in the 
proximity of a committal service.
    Often times, when mowing is done in the vicinity of the committal 
shelters the cut grass is left on the sidewalks and not cleaned up. We 
then have to have our own employees clean the sidewalks.
    The headstone setting contract has just been implemented. There is 
not enough data to discuss what might possibly be considered a 
different standard. It appears the deadline for a few headstones to be 
set has already been missed.
    Question 3: How has the use of contractors changed? Has this 
negatively impacted the NCA services? Please elaborate.
    Response: Contracting previously was used for specific specialty 
situations which could not be adequately done by the Full Time (FTE) VA 
employees. Within the last few years this has changed to contracting to 
do the work previously done by FTE. Mowing and Trimming, Sod Laying, 
and Headstone setting are all being subcontracted out a Ft. Logan 
National Cemetery. Using contractors instead of veterans working for 
NCA and other dedicated NCA employees on a regular basis for daily 
tasks has seriously weakened morale, and is altering and diluting the 
sacred atmosphere of Ft. Logan in ways already discussed, for example, 
mowing too close to a service or taking their lunch break on the 
cemetery grounds.
    These subcontracts were let to supposedly allow the Full Time 
Cemetery Caretakers to concentrate on other things to help bring the 
Cemeteries up to National Shrine Status, but I am not aware of any 
study or analysis to justify this alleged reallocation of work. In 
reality, the subcontracting made it unnecessary for the VA to backfill 
positions that were vacated due to retirement, promotion or simply an 
employee quitting or having been relieved of duty. In other words 
subcontracting out work previously done by FTE Cemetery Caretakers has 
been done through attrition.
    Question 4: Is feedback and suggestions for improvements from 
employees solicited in a consistent and cohesive manner across all 
facilities?
    Response: Management does not regularly or consistently solicit 
feedback or suggestions from employees. When I made a comment regarding 
the recently installed call center and a suggestion, I was told, via 
email, that I have no idea how busy they were suggesting I should 
probably not say or complain about anything.
    Question 5: What business practices do you see at the NCA that 
contribute to the overall effectiveness of the program?
    Response: This is a perception question. I would assume the 
management of NCA would answer: the consolidation of scheduling, having 
instituted the St. Louis Call Center. I am sure this has been a benefit 
to management in regards to getting a better handle on the numbers game 
for strategic planning.
    The call center may be an improvement for some of the cemeteries 
but the empirical evidence at Ft. Logan has demonstrated a considerable 
downside in terms of customer satisfaction. The use of the call center 
creates an additional layer that leads to more errors and delays. In 
addition, to serve veterans and their families properly, the cemetery 
staff should, but is not always treated as a customer of the call 
center.
    For example, the information that is passed from the call center to 
the cemetery representatives is cursory. Because of the nature of a 
call center, their apparent goal is to get the info in and info out, as 
fast as they can. Because of the volume there is no time for detail. 
Prior to the call center being established Ft. Logan did its own 
scheduling and detail was considered important for many reasons. Most 
important is the veteran and their families we are serving. Providing 
the family with correct information at the time of the service is of 
utmost importance. We strove for perfection. This moment is one of the 
most difficult times in ones life. To provide the family a depiction of 
what will be on their loved ones headstone and have it be wrong adds to 
their grief.
    Since the call center has taken over scheduling and data input 
there have been more errors on the paperwork than is acceptable. In the 
past the information was faxed to Ft. Logan on a form that was all 
inclusive. As soon as the form was faxed to Ft. Logan, a cemetery 
representative would call the funeral director, who was nine times out 
of ten, sitting with the family awaiting our call. Every body was on 
the same page and we could get most all of the questions we had 
answered in order to provide a complete package at the time of the 
service.
    Because the information was in writing we had a document to refer 
back to if there was a mistake made. The funeral home and family could 
then schedule a church service to accommodate the schedule at Ft. 
Logan. It was a cooperative effort including all parties.
    The way things are handled now are different. The calls are made to 
the call center by the funeral home. I have been told there are many 
times the caller is on hold for long periods (keep in mind the grieving 
family is also being held up) or the phone is busy. I am not saying 
this is always the case but it happens more often than it should.
    When the call is made the information is taken verbally and input 
into the BOSS system. If there is a mistake, there is nothing to 
reference that made the mistake (call center vs. funeral home). Once 
the case has been scheduled it is passed on to a quality control person 
(another delay) and eventually transferred to the cemetery in charge of 
the case as well as emailed to the funeral home representing the 
deceased. The information on the deceased that is entered into the BOSS 
system by the call center is most often incomplete. Religious emblems, 
social security numbers, ranks of veterans, and a host of other 
pertinent information needed to provide a correct monument for the 
deceased may be missing. The cemetery representative then will call the 
funeral home to verify receipt of the scheduled burial.
    By the time we have received notification of the scheduled burial 
the family has left the funeral home, the funeral director who is 
handling the case is not available and all we can do is leave a message 
that we need the information. Because we are also in and out of the 
office coordinating services at committal shelters, the game of phone 
tag proceeds. Sometimes we never get the answer and have to deal with 
the family at the time of the service, one of the worst days of some 
peoples lives.
    Other problems that are associated with the call center include:

    <bullet>  Confusion regarding caskets vs. cremains: Several times 
we have been informed we have a casket coming to the cemetery and when 
the procession arrives it has been a cremation. The reverse is also 
true. Our form of the past was specific in its request.
    <bullet>  Double booking of services: Two services have been 
scheduled for the same time at the same shelter.
    <bullet>  Wrong phone numbers: There are times when a family will 
pick up their loved ones cremains from the funeral home and make 
arrangements themselves in order to save money. If the incorrect phone 
number is given or there is a typo there is no way to get in touch with 
the next of kin in order to prepare them for arriving at the correct 
location or time at the cemetery. When this has occurred in the past I 
called the call center and was told there was nothing they could do but 
wait for the next of kin to arrive.
    <bullet>  Military Honors: At Ft. Logan we usually made sure 
military honors had been ordered either by the funeral home or by the 
family. It is no longer a sure thing this has taken place because we 
have lost control of being able to be the first contact with the 
funeral home or the next of kin.
    <bullet>  Loss of rapport: Because we had control of the scheduling 
the funeral home directors awaited our calls. We usually called them 
back within 5 minutes of their faxing the application. Now it is, in 
their minds, unnecessary to have any contact with us until the service 
of which they may or may not attend. In most cases this is not a 
problem because we have had relationships with the funeral directors 
for years and there is considerable mutual respect amongst the 
employees of Ft. Logan and the directors. It does have an impact with 
new directors and is beginning to present problems at the time of a 
veterans committal service. Additionally, because of the increase in 
cremations Ft. Logan is experiencing more and more services without the 
presence of a funeral director. The more information we can get about 
the family of the deceased the better to insure their loved ones 
service is done as expected. ``As expected'' is whatever the funeral 
director tells them. The employees at the call center having to handle 
several different cemeteries can hardly understand the nuances of each 
cemetery. The cemetery representatives of each National Cemetery have 
an intimate understanding of their respective locations.
    <bullet>  Subsequent burials: There have been a few times when we 
get an application for burial and have completed the task only to find 
out the deceased had another family member already buried in our 
cemetery. Once again because of lack of experience, therefore not 
asking the right questions and having to deal with so many different 
cemeteries, a particularly egregious error was made. The only way we 
found the error was when a family member called to ask why the two 
family members were not buried in the same grave. This resulted in a 
disinterment and re-interment in the correct burial plot.
    <bullet>  When the call center took over the FTE Cemetery 
Representatives responsibilities (a change of work condition which is a 
violation of the union contract) of establishing burial eligibility, 
establishing cases, and scheduling burials we were given a feedback 
form to assist the call center in error abatement. Because the errors 
continued and were so consistent we determined it was better for us to 
just correct them and stop wasting our time trying to remedy the 
situation. The individuals who man the positions in the call center are 
interns and are replaced by new interns at certain intervals. The 
learning curve starts over, of course, with each new class of interns.
    <bullet>  There is a possibility the work being done is redundant 
in that it now takes four individuals to do the task formerly done by 
two individuals: (1) the representative at the call center, (2) the 
quality control senior representative, who checks their work (3) the 
cemetery representative at the National Cemetery and (4) the senior 
representative, who checks their work. This is done with less accuracy 
and takes more time than initially done by the representatives at the 
local cemeteries.

    Question 6: What additional steps can be taken to improve employee 
retention and make the NCA an employer of choice?
    Response: The first step, to improve employee retention, is to stop 
the threat and practice of outsourcing their jobs. A one time fully 
staffed cemetery caretaker crew has been reduced from ten Full Time 
Employee positions to three Full Time Employees. The drop in employee 
morale, caused by this reduction, is obvious. It is not just affecting 
the cemetery caretakers. It is affecting all employees. It is obvious 
the intent of the NCA senior management is to replace these blue collar 
jobs. The interment crew thinks it is just a matter of time for their 
positions to be outsourced in spite of the assurance by management it 
won't happen.
    Acting Assistant Secretary Muro testified at the hearing that, at 
new national cemeteries, all caretaker and interment work is done by 
contractors, instead of veterans employed by NCA. These are very 
honorable jobs that should be included in every National Cemetery and 
offered as a place for a veteran to make a living serving those who 
served. I started working at Ft. Logan National Cemetery at the age of 
fifty three as a Cemetery Caretaker. I did this after working most of 
my life in a white collar job in corporate America. Any new bill passed 
to establish a new National Cemetery should include a clause stating 
the first choice of jobs to be filled in a new cemetery should be 
offered to our veterans. I cannot describe the immense pride I take in 
having done that job.
    Another step in making NCA an employer of choice is to initiate 
management training that includes a motivation class of some sort. 
There are times in my past experience working at FLNC I have witnessed 
workers treated as if they are some sort of second class citizen. It 
appears there needs to be some classes taught to management regarding 
mutual respect and how to motivate people.
    Finally, for every job opening in an existing cemetery, and every 
new position made available through the opening of a new cemetery, NCA 
should be required to conduct outreach to veterans through the veterans 
community and through VHA and VBA support programs. Advertising these 
jobs should go beyond the Government Web site to alert the availability 
of work at these hallowed grounds.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                   October 14, 2009

Steve L. Muro
Deputy Under Secretary for Memorial Affairs
National Cemetery Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, D.C. 20420

Dear Mr. Muro:

    Thank you for testifying at the House Committee on Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs oversight 
hearing on Honoring The Fallen: How Can We Better Serve Americas 
Veterans and Their Families?, held on September 24, 2009. I would 
greatly appreciate if you would provide answers to the enclosed 
followup hearing questions by Monday, November 15, 2009.
    In an effort to reduce printing costs, the Committee on Veterans 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Ms. Megan Williams by fax at (202) 225-2034. If you have any 
questions, please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                        Questions for the Record
                   The Honorable John Hall, Chairman
       Subcommittee on Disability Assistance and Memorial Affairs
                  House Committee on Veterans' Affairs
              Honoring the Fallen: How Can We Better Serve
                 Americas Veterans and Their Families?
                           September 24, 2009
    Questions 1: At the hearing, there was some discussion on the NCAs 
four Strategic Plan Goals that are reported in the VA Performance and 
Accountability Report. These were reviewed by the Advisory Committee on 
Cemeteries and Memorials in its 2008 report. The Advisory Committee 
made 16 recommendations to which VA responded. Several of these items 
required additional followup. Can you provide a summary of the followup 
actions VA has taken in response to those recommendations?
    Response: Please see the attached table of Advisory Committee 
recommendations, which were previously submitted to the House Committee 
on Veterans Affairs. The table also provides the status of followup 
action, where applicable.
    Question 2: In the VA Performance and Accountability Report, NCA 
did not meet its 80 percent target of funeral home directors confirming 
that it scheduled committal services within 2 hours. The NCA response 
rate was indicated at 72 percent. What is the plan to improve 
performance and what steps are being taken to ensure better 
accountability?
    Response: NCA measures the efficiency of scheduling committal 
services at national cemeteries through its annual Survey of 
Satisfaction. Funeral director respondents are asked, How long does it 
typically take to confirm the scheduling of an interment at the 
national cemetery? NCAs strategic target is to have 93 percent of 
funeral directors respond that services are scheduled within 2 hours of 
the request. Since 2004, performance on this measure has remained 
relatively steady, ranging from 72 percent to 74 percent. In FY 2009, 
the average was 77 percent when the Memorial Service Network that has 
not fully transitioned to the National Scheduling Office, was taken out 
of the calculation. This demonstrates that performance is higher for 
those areas of the country currently served by the Scheduling Office. 
Once all cemeteries are under the Scheduling Office, and we have moved 
beyond the learning curve for funeral directors, we anticipate NCA 
performance will steadily improve and that we will ultimately reach our 
goal of 93 percent.
    NCA is working to improve performance in this area. In January 
2007, NCA established a National Scheduling Office in St. Louis, 
Missouri. This centralized office provides a one-stop call center and a 
streamlined, standardized process of determining burial eligibility and 
interment scheduling to better serve the needs of Veterans, their 
families and funeral directors. In addition, the National Scheduling 
Office has staff available to confirm eligibility and schedule services 
7 days a week. In FY 2008, the Scheduling Office handled 72,249 
requests for burial. The average time to confirm eligibility and 
schedule the service was less than 10 minutes. When burial requests 
from Riverside N/C NCAs busiest cemetery-- are processed by the 
Scheduling Office, beginning on January 18, 2010, all interment 
scheduling for VA national cemeteries in the continental United States 
will be completed by the experts at the Scheduling Office in St. Louis, 
and NCA anticipates improved performance.
    Implementation of centralized scheduling was a significant change 
in business practice for NCA. Letters explaining the new process were 
sent to all funeral homes who partner with NCA to serve Veterans and 
their families, and implementation has proceeded in a phased approach 
across the NCA system. NCA anticipates that as the National Scheduling 
Office becomes fully operational and other scheduling enhancements, 
such as requests for services through the Internet, are developed, more 
funeral directors will respond that scheduling meets our 2-hour target.
    Question 3: Please explain why the NCA replaces damaged headstones 
or markers at Arlington National Cemetery, but not for eligible 
veterans' graves at the National Park Service sites.
    Response: NCA provides original and replacement headstones and 
markers for all Federally-administered cemeteries, which includes all 
VA national cemeteries, all Department of Defense national cemeteries 
(Arlington and the Soldier and Airmens Home, military post or base 
cemeteries of the Armed Forces, and service department academy 
cemeteries), and all Department of Interior National Park Service (NPS) 
Cemeteries. NCA also provides headstones and markers for State Veterans 
cemeteries and for all eligible Veterans buried in private cemeteries. 
We will contact management at the NPS to ensure it is aware of the 
process through which NCA supports the ordering of new or replacement 
headstones or markers for NPS cemeteries.
    Question 4: Does the NCA have specific guidance it provides to the 
State cemeteries on accommodating particular religious or cultural 
burial practices, such as for graveside services? Please explain those 
policies and how they are communicated to the States and enforced? Is 
there more that needs to be done to make sure that these accommodations 
are honored?
    Response: NCA encourages the provision of similar levels of service 
at national and State Veterans cemeteries by offering the States 
training opportunities at the NCA St. Louis Training Center and 
invitations to participate at NCA National and Memorial Service Network 
(MSN) Conferences. However, under VA regulations, the States may have 
differing facilities, such as chapels; may restrict eligibility to 
residents of the State; and may undertake differing operating 
procedures, such as graveside services, which are rarely performed at 
national cemeteries.
    Due to concerns for the safety of cemetery workers and the public 
in active interment areas, NCA provides covered committal shelters for 
conducting final committal services. However, exceptions are made to 
accommodate religious practices and ceremonies, and States are 
encouraged to accommodate family member requests based on cultural and 
religious beliefs whenever possible.
    Question 5: If a veteran with no other eligible dependents is 
buried in a national cemetery and his/her only survivor is a parent(s), 
who is not a veteran or otherwise entitled to burial in a national 
cemetery, should that parent be made eligible for burial with the 
veteran?
    Response: If a parent is not a Veteran, section 2402(6) of title 
38, United States Code, permits the Secretary to designate other 
persons or classes of persons as eligible for burial. Requests for 
burial of a non-Veteran parent are reviewed on a case-by-case basis. In 
2007 and 2008, the Secretary approved two separate requests for the 
burial of a deceased parent in the same grave as an unmarried, 
childless servicemember who died as a result of wounds incurred in 
combat. Neither deceased servicemember had a surviving spouse or 
dependent children who, if deceased, were eligible for burial in a 
national cemetery, or who were already interred in the gravesite.
    VA supports expanding eligibility to parents of certain 
servicemembers as indicated in VAs Hearing Statement at the October 8, 
2009, House Committee on Veterans Affairs, Subcommittee on Disability 
Assistance and Memorial Affairs Legislative Hearing. We note that, on 
October 21, 2009, the Subcommittee amended the text of H.R. 761 to 
reflect VA concerns, and voted to approve the revised legislation, 
which has subsequently been incorporated as section 303 of H.R. 3949, 
the Veterans' Small Business Assistance and Servicemembers Protection 
Act of 2009.
    Question 6: How has the NCA handled instances in which a veterans 
survivor(s) have requested that the burial benefit include a parent who 
is not otherwise eligible to be buried in a national cemetery?
    Response: Section 2402(6) of title 38, United States Code, permits 
the Secretary to designate other persons or classes of persons as 
eligible for burial. For all such requests, VA determines if granting 
the request would result in reduced national cemetery burial space for 
other eligible Veterans. Such requests have only been approved if the 
Veteran did not have a surviving spouse or a dependent child who, if 
deceased, would be eligible for burial in a national cemetery, or who 
was already interred in the gravesite.
    Question 6(a): Can such requests by veterans be considered prior to 
the death of the veteran?
    Response: NCA policy is to permit the burial of an otherwise 
ineligible parent only if the burial would not reduce the number of 
national cemetery gravesites available for other eligible Veterans. 
This requires that a parent be buried in the same gravesite as the 
Veteran. However, a Veterans eligibility for national cemetery burial 
cannot be determined until the Veteran has died. Therefore, no request 
by a Veteran can be considered before the Veterans death. As VA 
testified at the October 8, 2009, legislative hearing before the 
Disability Assistance and Memorial Affairs Subcommittee of the House 
Committee on Veterans Affairs, VA could support the extension of burial 
eligibility to the parents of unmarried and childless Veterans who die 
due to combat- or training-related injuries. These limitations would 
help ensure that the burial of an eligible Veteran's otherwise 
ineligible parent does not reduce the number of gravesites available 
for other eligible Veterans. However, even in those circumstances, VA 
cannot consider a parent's eligibility until VA determines that the 
Veteran is eligible, and VA cannot determine the Veterans eligibility 
until the Veteran dies.
    Question 6(b): Since 2001, how often are these requests made 
annually since 2001?
    Response: Since 2001, there have been 16 requests for burial of 
otherwise ineligible parents in national cemetery gravesites. Many of 
these requests were for the burial of dependent parents of Veterans who 
died from non-combat-related injuries. In all cases, NCA considered 
whether granting the request would reduce the number of national 
cemetery burial sites available for other eligible Veterans.
    Question 6(c): In 2008 and 2009, how many have been honored? How 
many have been denied?
    Response: During 2008-2009, NCA approved two requests for the 
burial of deceased parent(s) with Veterans who died from combat-related 
injuries who had no eligible spouse or dependent children. One combat-
related waiver request was denied because the deceased Veteran had a 
living spouse and children eligible for burial. Therefore, granting the 
request for parent burial would have diminished burial capacity for 
other eligible family members and Veterans.
    Question 7: In your testimony you described several impressive 
innovations undertaken by NCA employees. Does VA Research and 
Development funding assist NCA in these types of projects? And, if so, 
how many? If not, why not?
    Response: NCA does not receive assistance from VA Research and 
Development (R&D) funding. NCA supports innovations through funding 
provided by its Operations and Maintenance account.
    Question 8: According to the Missing in America Project, there are 
potentially thousands of unclaimed veterans cremated remains being 
stored in urns at mortuaries, coroners offices, and hospitals across 
the country. Besides the VA Web site, what outreach has it conducted to 
these entities in order to identify abandoned veterans?
    Response: VA has worked with and continues to assist the Missing in 
America Project (MIAP), as well as coroners offices, and conducts 
outreach to funeral industry professionals on the national and local 
level, to ensure VA memorial benefits are provided to unclaimed 
Veterans identified through MIAP efforts. Since January 2007 we have 
processed over 500 MIAP requests to establish burial eligibility. 
Nationally, NCA attended the National Funeral Directors and Morticians 
Association conference (Detroit, Michigan), the International Cemetery 
Cremation and Funeral Association conference (Las Vegas, Nevada), the 
127th Annual Funeral Directors Association of Kentucky State Convention 
(Louisville, Kentucky), and the National Funeral Directors Association 
convention (Boston, Massachusetts). Nationwide, VA cemetery directors 
and Memorial Service Network staff conduct outreach to local funeral 
homes and other industry professionals on a daily basis.
    Question 8(a): Since these are primarily cremated remains and the 
FBI cannot match fingerprints, what does VA do to ensure that the 
unclaimed remains of veterans do not remain unclaimed?
    Response: NCA requires a minimal amount of information regarding 
the identity of the deceased to initiate an eligibility determination. 
Where the remains are identified but unclaimed, NCA will work with 
coroners offices and will search sources including VAs regional 
benefits offices, hospitals, and medical facilities, to locate any 
records that could assist with establishing Veteran status. If 
unsuccessful, NCA will then contact Federal, State and local Government 
agencies to obtain military service information. NCA will always reopen 
a case if new evidence supporting Veteran status is uncovered at a 
future date because its goal is to ensure that those Veterans who are 
entitled to burial in a national cemetery are honored with a final 
resting place in a national shrine.

----------------------------------------------------------------------------------------------------------------
                                                               VA Response Previously
        Strategic Goal            FY 2007-2008  Advisory    Provided to House Veterans'   Status of  Actionable
                                Committee  Recommendations        Affairs Committee          Recommendations
----------------------------------------------------------------------------------------------------------------
Goal 1:                        Recommendation 1.1:          Non-Actionable:                N/A
  Ensure that the burial         The Committee asks that      VA believes that noise
needs of veterans and          VA contact the Federal       from low flying aircraft
eligible family members are    Aviation Administration on   near national cemeteries is
met                            behalf of VA, the National   a minor problem associated
                               Park Service and State       with specific aircraft in
                               veterans cemeteries to       isolated events and is not,
                               develop policies to reduce   on the whole, a major
                               increasing noise levels at   inconvenience for visitors
                               veterans cemeteries due to   or staff. In locations
                               the low flying aircraft.     where noise levels are
                                                            excessive and persistent,
                                                            NCA will work with the
                                                            appropriate authorities, to
                                                            include the Federal
                                                            Aviation Administration, to
                                                            reduce noise levels.
                              ----------------------------------------------------------- ----------------------
                               Recommendation 1.2:          Actionable:                    These headstones are
                                 The Committee recommends     VA supports this           now available through
                               that NCA determine the       initiative and NCAs          NCAs Memorial Programs
                               feasibility to produce 10''  Memorial Programs Service    Service. NCA has
                               x 4'' x 42'' shields and     is developing new            provided over 500 of
                               raised letter headstone to   specifications to be         these headstones to the
                               replace Civil War era        available for FY 2008.       National Park Services
                               headstones.                  There are two sizes of       Andersonville National
                                                            marble headstones with       Cemetery.
                                                            raised lettering in a
                                                            recessed shield; 12'' x
                                                            42'' x 3'' and 13'' x 42''
                                                            x 3''. NCA has begun
                                                            introducing a third size
                                                            for this type of historical
                                                            headstone, which will be
                                                            10'' x 42'' x 3''. This new
                                                            headstone will be available
                                                            for use beginning on
                                                            October 1, 2007.
----------------------------------------------------------------------------------------- ----------------------
Goal 1 cont'd:...............  Recommendation 1.3:          Actionable:                    The ``Evaluation of
  Ensure that the burial         The Committee recommends     VA has contracted a        the VA Burial Benefits
needs of veterans and          that the burial allowance    private consulting firm to   Program'' was delivered
eligible family members are    be increased to further off- undertake a program          to VA by the contractor
met                            set the cost of veteran's    evaluation of all memorial   in August 2008. VA has
                               burial in State veteran's    benefits, including the      reviewed the study's
                               cemeteries under the         burial and plot allowances.  recommendations. If any
                               provisions of the State      When available, the study    changes to current
                               Cemetery Grants Program.     will be provided to the      burial policies are
                                                            Advisory Committee.          proposed, they would be
                                                                                         included in a future
                                                                                         budget request.
                              ----------------------------------------------------------- ----------------------
                                   Recommendation 1.4:      Actionable:                    In FY 2009, NCA's
                                 The Committee recommends     VA recognizes the          State Cemetery Grants
                               that the State Cemetery      contributions of State       Program budget was $42
                               Grants Program funding be    veteran's cemeteries in      million. In FY2010, $46
                               increased from $32 million   helping to meet the need     million was
                               to $50 million, beginning    for memorial benefits in     appropriated for the
                               in FY 2009.                  areas not served by an open  Grants Program.
                                                            VA national cemetery. The
                                                            President's FY 2009 budget
                                                            will be submitted to
                                                            Congress in February 2008.
                                                            VA carefully analyzes its
                                                            budget request to ensure
                                                            its adequacy to meet the
                                                            benefits needs for all VA
                                                            programs. We believe the
                                                            final budget request for
                                                            the State Cemetery Grants
                                                            Program will be sufficient
                                                            to meet future demands.
                              ----------------------------------------------------------- ----------------------
                               Recommendation 1.5:          Actionable:                    NCA's Cemetery
                                 The Advisory Committee       NCA recognizes the         Development Coordinator
                               urges NCA to contact the     importance of developing a   has established
                               ``Trust for Public Lands''   proactive strategy to        contacts and a working
                               to study strategic           purchase land for future     relationship with the
                               opportunities to purchase    national cemeteries and to   Trust for Public Lands
                               land for future national     ensure the continuation of   and is actively seeking
                               cemeteries.                  national cemeteries          its assistance to
                                                            currently in service. Any    identify possible land
                                                            entity that can assist NCA   for new national
                                                            in purchasing available      cemeteries or expansion
                                                            property for future          of current national
                                                            national cemeteries is       cemeteries.
                                                            welcomed. NCA is developing
                                                            a list of site needs to
                                                            determine which cemeteries
                                                            have immediate, short-term
                                                            and long-term acquisition
                                                            needs. After NCA has
                                                            developed the list, it
                                                            would be appropriate to
                                                            contact the Trust for
                                                            Public Lands for any
                                                            assistance that it can
                                                            provide and to see if any
                                                            public land is available to
                                                            meet NCA's goal.
----------------------------------------------------------------------------------------- ----------------------
Goal 2:                        Recommendation 2.1:          Non-Actionable:                N/A
  Provide veterans and their     Acknowledge the              The Department
families with symbolic         Committee's support of the   appreciates the Committee's
expressions of remembrance     Department of Veterans       support. Endorsement by
                               Affairs (VA) ``Veterans      Committee members and other
                               Pride Initiative,'' in       influential citizens will
                               which veterans are           be needed to help build
                               encouraged to wear their     recognition, support, and
                               military medals on Veterans  participation in this
                               Day, Memorial Day, and       initiative.
                               other national holidays.
                              ----------------------------------------------------------- ----------------------
                               Recommendation 2.2:          Actionable:                    The Committee's
                                 The Committee suggests       The Department of          recommendation resulted
                               that the National Cemetery   Veterans Affairs (VA) has    in a revision to the
                               Administration (NCA) advise  notified the Senate and      proposed legislation.
                               Congress to review the       House Committees on          The final legislation,
                               proposed use of a ``V''      Veterans' Affairs of         Public Law 110-157, did
                               device attached to private   concerns related to the      not contain the bronze
                               markers of veterans          design of an appropriate     ``V'' language but
                               interred in private          device and is prepared to    instead gave VA
                               cemeteries as described in   offer technical assistance   authority to provide a
                               H.R. 797 Bronze ``V''        if the Committee requests    medallion or other
                               Marker Option. The           it.                          device to signify the
                               Committee feels that the                                  deceased's status as a
                               public will be confused by                                veteran to be affixed
                               the ``V'' or not understand                               to privately purchased
                               what it represents and                                    headstones and markers
                               suggests that instead of a                                in private cemeteries.
                               ``V'' that the word                                       The medallion design is
                               ``Veteran'' be considered.                                being finalized and
                               The military uses a similar                               product availability is
                               ``V''-device with military                                anticipated in 2010.
                               medals to denote valor.
----------------------------------------------------------------------------------------- ----------------------
Goal 3:                        Recommendation 3.1:          Actionable:                    NCA's intent is to
  Ensure that national           The Committee commends       VA recognizes the          place into service a
cemeteries are maintained as   NCA and the National Park    benefits of Global           complete GPS system
national shrines, dedicated    Service for their joint      Positioning System (GPS)     that is capable of
to preserving our Nation's     Global Positioning System    integration within its       precisely locating (in
history, nurturing             mapping of Alexandria,       national cemeteries to help  three-dimensional
patriotism, and honoring the   Virginia, National Cemetery  manage, preserve and         space) monuments,
service and sacrifice          and recommends that this be  document the historic        benchmarks, section
veterans have made             considered for future use    landscapes and buildings     markers, individual
                               by NCA.                      maintained by NCA, as well   grave sites, control
                                                            as to locate underground     components of
                                                            utilities, emergency         underground utility
                                                            shutoff, and irrigation      systems, underground
                                                            systems, to name a few, and  utility lines,
                                                            plans to expand its use. VA  roadways, and numerous
                                                            believes that combined with  other site features.
                                                            new-construction
                                                            applications, this
                                                            technology is an
                                                            outstanding tool for
                                                            tracking the evolution of
                                                            burials, VA capital assets
                                                            and historic features. In
                                                            order to begin GPS
                                                            integration at the
                                                            cemeteries, NCA introduced
                                                            ``GPS Integration'' as a
                                                            funding line item for all
                                                            new cemetery construction
                                                            for fiscal year 2008 Major
                                                            category construction
                                                            projects and expanded to
                                                            all cemeteries with the
                                                            fiscal year 2009 Major
                                                            construction plan (except
                                                            Puerto Rico National
                                                            Cemetery, which is
                                                            projected to close by
                                                            2019). As funding permits,
                                                            NCA intends to apply GPS
                                                            integration at the initial
                                                            cemeteries.
                              ----------------------------------------------------------- ----------------------
                               Recommendation 3.2:          Non-Actionable:                N/A
                                 That NCA investigate the      Although VA is not
                               possibility of developing    interested at this time in
                               cooperating associations to  pursuing retail sales at VA
                               allow for retail sales of    national cemeteries, we
                               theme related products to    will look into possible
                               further the support by the   products appropriate for
                               public for national          sale at our facilities.
                               cemeteries.                  However, legislation would
                                                            be required to provide
                                                            authority for NCA to
                                                            sponsor or endorse sale of
                                                            retail items.
----------------------------------------------------------------------------------------- ----------------------
Goal 3 cont'd:                 Recommendation 3.3:          Actionable:                    NCA provided guidance
  Ensure that national           That NCA cooperate with      NCA is happy to assist     to Mr. Tom Ruck in
cemeteries are maintained as   individuals or               individuals or               publishing his book
national shrines, dedicated    organizations that may want  organizations who want to    ``Sacred Ground: A
to preserving our Nation's     to publish positive,         publish positive books,      Tribute to Americas
history, nurturing             favorable or informative     magazine articles and film   Veterans.'' NCA
patriotism, and honoring the   books about NCA.             products about NCA burial    provides access, as
service and sacrifice                                       and memorial benefits and    appropriate, to its
veterans have made                                          facilities.                  facilities and
                                                                                         information for
                                                                                         legitimate and positive
                                                                                         projects. However, NCA
                                                                                         cannot conduct research
                                                                                         for those wishing to
                                                                                         publish materials about
                                                                                         NCA. Individual authors
                                                                                         are responsible for
                                                                                         developing content and
                                                                                         verifying accuracy.
                                                                                           NCA's Communications
                                                                                         Management Service has
                                                                                         not received any
                                                                                         additional formal
                                                                                         requests to approve or
                                                                                         provide information for
                                                                                         books about NCA.
----------------------------------------------------------------------------------------- ----------------------
Goal 4:                        Recommendation 4.1:          Non-Actionable:                NOTE: NCA has offered
  Provide One VA world-class     Explore the possibilities    The matter was researched  the National Park
service to veterans and their  of providing the Intranet    and the initiative           Service (NPS) its
families through the           BIRLS/BDN Access (BBA)       declined. Governance for     Operational Standards
effective management of        system to the Department of  access to BIRLS is covered   and Measures along with
people, technology, processes  the Interior, National Park  in 38 CFR 14.640-14.643,     any support,
and financial resources        Service national             the Freedom of Information   recommendations or
                               cemeteries, Anderson         Act and Privacy Act. In      advice NPS may need in
                               National Historic Site, and  1998, the issue was raised,  implementing them or in
                               Andrew Johnson National      researched, and declined     support of its
                               Historic Site to enhance     with respect to access by    organizational goals.
                               burial eligibility           State veterans cemeteries.   NCA values NPS
                               verification.                After consultation, the      participation on its
                                                            restrictions that prohibit   Advisory Committee on
                                                            granting access to NPS       Cemeteries and
                                                            entities continue to apply.  Memorials and would be
                                                            The Department recommends    pleased to participate
                                                            that NPS cemeteries          in an interagency
                                                            establish relationships      Committee to help NPS
                                                            with their nearest VA        and NCA achieve their
                                                            national cemetery for        shared goals.
                                                            assistance with eligibility
                                                            determinations.
----------------------------------------------------------------------------------------- ----------------------
Goal 4 cont'd:                 Recommendation 4.2:          Non-Actionable:                NOTE: Currently 87.4
  Provide One VA world-class     That NCA consider an         Eligibility for burial in  percent of veterans
service to veterans and their  outreach program that        Department of Veterans       have access to a burial
families through the           encourages veterans to pre-  Affairs (VA) national        option within 75 miles
effective management of        register for eligibility     cemeteries and for           of their residence. The
people, technology, processes  for VA veterans burial       providing headstones or      90 percent goal will be
and financial resources        benefits.                    markers and Presidential     achieved in FY 2011.
                                                            Memorial Certificates are
                                                            made at the time of need.
                                                            Eligibility determinations
                                                            are made at the time of
                                                            death of a veteran or his
                                                            or her eligible dependents
                                                            in accordance with the
                                                            current statutory and
                                                            regulatory authority. At
                                                            the time of need, the
                                                            National Cemetery
                                                            Administration (NCA) is
                                                            expeditious in responding
                                                            to family schedules.
                                                            Currently, about 83 percent
                                                            of veterans have access to
                                                            a burial option within 75
                                                            miles of their residence.
                                                            VA's strategic goal is to
                                                            serve 90 percent of
                                                            veterans with a burial
                                                            option at a National
                                                            Cemetery or State veterans
                                                            Cemetery within 75 miles of
                                                            their residence by fiscal
                                                            year 2010. These burial
                                                            options are addressed in
                                                            current NCA outreach
                                                            materials and programs and
                                                            a new fact sheet, in
                                                            development, on End of Life
                                                            Considerations that further
                                                            address the necessary
                                                            documents a veteran and
                                                            their family should have so
                                                            that eligibility for VA
                                                            memorial benefits can be
                                                            made quickly at the time of
                                                            need.
----------------------------------------------------------------------------------------- ----------------------
Goal 4 cont'd:                 Recommendation 4.3:          Actionable:                    NCA developed and
  Provide One VA world-class     That NCA develop a Public    VA restrictions on         used an audio public
service to veterans and their  Service Announcement (PSA)   advertising were lifted on   service announcement at
families through the           regarding burial benefits    June 16, 2008. The Under     the Sarasota National
effective management of        that may be used to          Secretary for Memorial       Cemetery Ground-
people, technology, processes  highlight memorial benefits  Affairs may now purchase     breaking/Dedication
and financial resources        where new national cemetery  advertising in media         ceremony.
                               dedication ceremonies are    outlets to promote             Currently NCA has two
                               taking place.                awareness of benefits and    advertising
                                                            services in coordination     initiatives:
                                                            with the Departments Office    (1) National Funeral
                                                            of Public and                Directors Association
                                                            Intergovernmental Affairs    (NFDA) Web-based TV
                                                            (OPIA). OPIA is evaluating   show, available to
                                                            the possibility of a PSA/    NFDAs 10,000 funeral
                                                            Advertising campaign         homes and 35,000
                                                            through a partnership with   members. Funeral
                                                            the Ad Council and the       Directors are key
                                                            possibility of hiring        players in providing
                                                            contractors to develop a VA  veterans and family
                                                            benefits PSA campaign. NCA   members information on
                                                            will coordinate with OPIA    VA memorial benefits.
                                                            to incorporate memorial        (2) Sponsorship of
                                                            benefits into any overall    Reflections: The
                                                            OPIA PSA/Advertising         ``American Funeral,''
                                                            campaign.                    one-of-a-kind mobile
                                                                                         exhibition trailer
                                                                                         displaying the history
                                                                                         of American funeral
                                                                                         traditions. Sponsorship
                                                                                         of Reflections would
                                                                                         provide VA access to
                                                                                         core stakeholders and
                                                                                         the general public
                                                                                         through a new venue,
                                                                                         allowing VA to provide
                                                                                         information about
                                                                                         memorial benefits to
                                                                                         veterans and dependent
                                                                                         populations who may not
                                                                                         be familiar with VA
                                                                                         memorial benefits.
                                                                                           NCAs new outreach
                                                                                         video ``A Sacred
                                                                                         Trust'' is now
                                                                                         available on the VA
                                                                                         Internet and YouTube
                                                                                         sites.
----------------------------------------------------------------------------------------- ----------------------
Goal 4 cont'd:                 Recommendation 4.4:          Non-Actionable:                NOTE: The
  Provide One VA world-class     The Advisory Committee       VA appreciates the work    ``Evaluation of the VA
service to veterans and their  requests the opportunity to  that the Advisory Committee  Burial Benefits
families through the           review and provide comments  on Cemeteries and Memorials  Program'' was delivered
effective management of        on the draft VA Burial       has done by providing        to VA by the contractor
people, technology, processes  Benefits Program Evaluation  thoughtful and valuable      in August 2008. VA has
and financial resources        and if feasible for the      input to the Burial          reviewed the study's
                               authors to conduct outreach  Benefits Program             recommendations. If any
                               to the Committee.            Evaluation. Committee        changes to current
                                                            members participated in      burial policies are
                                                            stakeholder sessions as the  proposed, they would be
                                                            contract Statement of Work   included in a future
                                                            was developed and with the   budget request.
                                                            Program Evaluation
                                                            contractor, Caliber/ICF, as
                                                            part of the analysis plan
                                                            development. The National
                                                            Cemetery Administration
                                                            (NCA) will brief the
                                                            Committee on its findings
                                                            and recommendations after
                                                            the report is finalized. VA
                                                            looks forward to continuing
                                                            to work with the Committee
                                                            in the future and considers
                                                            the Committees continued
                                                            interest and input
                                                            regarding these findings
                                                            and recommendations of
                                                            value in assisting NCA to
                                                            make informed decisions
                                                            regarding memorial
                                                            benefits.
                              ----------------------------------------------------------- ----------------------
                               Recommendation 4.5:          Non-Actionable:                NOTE: The
                                 The Committee endorses       A joint effort is          ``Evaluation of the VA
                               continued evaluation and     underway to conduct a        Burial Benefits
                               efforts to study burial      comprehensive program        Program'' was delivered
                               benefits including service   evaluation of the full       to VA by the contractor
                               area and population          array of burial benefits     in August 2008. VA has
                               threshold.                   and services that VA         reviewed the study's
                                                            provides. The program        recommendations. If any
                                                            evaluation conducted by      changes to current
                                                            NCA, in partnership with     burial policies are
                                                            the Veterans Benefits        proposed, they would be
                                                            Administration and the       included in a future
                                                            Office of Policy, Planning,  budget request.
                                                            and Preparedness, will
                                                            assess, develop, and update
                                                            program outcomes, goals,
                                                            and objectives, and compare
                                                            actual program results with
                                                            established goals. It is
                                                            anticipated that the study
                                                            is to be completed in FY
                                                            2008.
----------------------------------------------------------------------------------------- ----------------------
Goal 4 cont'd:                 Recommendation 4.6:          Actionable:                    Almost 59,000 wreaths
  Provide One VA world-class     That VA, through an award    VA agrees that the Wreath  were laid in ceremonies
service to veterans and their  from the Sec VA,             Across America program has   at 125 VA national
families through the           acknowledges Worchester      promoted volunteerism and    cemeteries in 2008.
effective management of        Wreath Co. for their         goodwill, and raised         Former Secretary of
people, technology, processes  philanthropic efforts in     awareness of veterans, NCA,  Veterans Affairs James
and financial resources        organizing their Wreaths     and VA. The Department will  B. Peake M.D. expressed
                               Across America (WAA)         consider appropriate ways    his appreciation to
                               program. Additionally, that  to recognize the Worchester  company president
                               all VA national cemeteries   Wreath Co. for the program.  Morrill Worcester, by
                               support and participate in   All VA national cemeteries   presenting him with the
                               Wreaths Across America.      currently participate in     Secretary's VA
                                                            WAA. Each VA national        Commendation Award
                                                            cemetery has a WAA ceremony  (December 13, 2008)
                                                            and prepares a media         during a ceremony at
                                                            advisory and news release    Arlington National
                                                            to generate public and       Cemetery.
                                                            media interest.
----------------------------------------------------------------------------------------------------------------

                                 <all>

</pre></body></html>
